<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, APRIL 8, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:03 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. EMILY J. REYNOLDS, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY
        TIM WINEMAN, FINANCIAL CLERK
        DIANE SKVARLA, CURATOR

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order. We 
meet this morning for our last scheduled hearing for the fiscal 
year 2005 budget cycle for the legislative branch. We will take 
testimony from the Secretary of the Senate, Emily Reynolds, and 
the Architect of the Capitol, Alan Hantman.
    Good morning, Emily. How are you this morning?
    Ms. Reynolds. I am fine, sir. Thank you.
    Senator Campbell. The budget request for the Office of the 
Secretary is $21.286 million, an increase of $755,000, or about 
a 4 percent increase over the current year budget.
    In the last year, your office had accomplished very much, 
including further implementation of a financial management 
information system, keeping the Senate operating during the 
February ricin incident and, of course, working with the owner 
of the Curtis chair that I was so interested in, and I thank 
you for that, which is now back in the Senate. We certainly 
appreciate that.
    Following your testimony, we will hear from the Architect 
of the Capitol, Alan Hantman. The AOC's budget request totals 
almost $858 million, which is an increase of $170 million, or 
41 percent over the fiscal year 2004 appropriation. Roughly, 
half of the budget is for operations and maintenance of the 
buildings and grounds administrative support, safety programs, 
and restaurants.
    The increase of 18 percent over fiscal year 2004 for this 
portion of the budget is due to increased utility costs, 
payroll, and safety programs. The other half of the budget, 
major capital projects, is up 143 percent over the current 
year, and would support 71 projects, including the Copyright 
Deposit Facility for the Library of Congress, storage modules 
for the Library at Fort Meade, and Capitol Police projects.
    The number of projects and dollar values associated with 
them will be very difficult to accommodate, not only in the 
view of the budgetary constraints but also owing to the 
concerns that you have a lot on your plate already, not the 
least of which is the completion of the Capitol Visitor Center. 
We will be looking forward to that testimony, too.
    Senator Durbin will be along, but while we are waiting for 
him, you go ahead and proceed, Ms. Reynolds.
    Ms. Reynolds. Thank you, sir. My full statement, which 
obviously you all have, I would like to have submitted for the 
record.
    Senator Campbell. It will be included in the record. Is 
your button on, on that microphone?

                  OPENING STATEMENT OF EMILY REYNOLDS

    Ms. Reynolds. Thank you very much. My full statement, of 
course, as you just said, we will include in the record. I 
thank you for that. I would like to give just a brief overview 
this morning and hit some of the high points of our past year.
    I have with me this morning our very able team, Mary Suit 
Jones, our Assistant Secretary, Tim Wineman, our financial 
clerk, and a number of our department heads, all of whom I am 
honored to work with each and every day.
    As you said, our budget request for the year is 
$21,286,000. That is $1.7 million in operating funds and just 
over $19 million in our salary costs. Our operational budget is 
static from last year but now knowing, obviously, the strengths 
of this office, what it takes us to operate, and also to take 
on some new initiatives, we believe that--that request is a 
sound one and will enable us to continue to function well in 
all three of our divisions, legislative, financial, and 
administrative.
    Our personnel costs, as you pointed out, we are requesting 
a very slight increase, that for the COLA and for merit, so 
that we can continue to attract and retain the talent that the 
United States Senate both needs and deserves in our operations.
    I want to thank the committee, Mr. Chairman, for your past 
support of two major projects, one of which you mentioned; our 
financial management information system, and our legislative 
information system, both of which, in the course of this last 
year, we continue to make enormous progress.

                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    On FMIS, as you know, that was developed from a 5-year 
strategic plan for the disbursing office. It now covers some 
140 offices here in our Senate community and our goal is to 
move to a paperless voucher system.
    We reached an important step at the end of March, with a 
test of creating laser checks, which was successful. That is 
one of our production goals for this year. Moving into fiscal 
year 2005, our plans call for us to create a small pilot of the 
technology for paperless payment processing. So again, we are 
making considerable progress in that regard.

                     LEGISLATIVE INFORMATION SYSTEM

    On the legislative information system, to implement the 
extensible mark-up language, or XML, is our data standard by 
which we author and exchange documents, again, enormous 
progress. That really has been a very collaborative effort, 
with both our project office, Sergeant-at-Arms staff, and our 
Senate legislative counsel, who have been our guinea pigs, if 
you will, as part of that project team.
    I am happy to report that they are now using the LEXA 
application and, by all accounts, it is going quite well. In 
fact, one member of the Senate legislative counsel team 
reported that this is a story with a happy ending. The ending, 
of course, is not yet completely in sight, as we will continue 
to develop and enhance that project.
    All and all, our LIS system means an improved exchange 
program, quicker access to legislative information, and 
documents that we can use much more easily reuse and re-
purpose.
    I also want to thank the committee. We had some non-
recurring costs that you all were supportive of us on. We had 
some technology upgrades that we needed very badly, in closed-
captioning, in our gift shop, in our stationery room, and we 
have made progress on all of those in no small part thanks to 
this committee's help. So I thank you, again.

         SENATE PRESERVATION FUND AND CURATORIAL ADVISORY BOARD

    Most especially, something that I know is near and dear to 
you, and Senator Stevens' leadership was very helpful to us on 
this as well, and that is the creation of the Senate 
preservation fund, and a curatorial advisory board for us here 
in the United States Senate.
    I want to give you a quick update on that, in that, for the 
curatorial advisory board, we are in the process of gathering 
nominees from the members of the Commission on Art. 
Specifically, the legislation reads that those board nominees 
be experts, scholars in their field. And they will help us in 
terms of providing counsel on our Senate collection, looking at 
possible acquisitions for us, developing preservation policies.
    My hope is that we can have that board in place within the 
next month, and gather them for their first meeting this 
summer. So, that is an exciting opportunity.
    Second of all, again, the Senate Preservation Fund, the 
seed money that you all provided this committee, that $500,000, 
will give us the ability to service that curatorial advisory 
board in terms of administrative costs and also to make some 
potentially time-sensitive acquisitions going forward.
    In addition, I think that board and the Preservation Fund, 
the more people know of what we are looking to bring back to 
the United States Senate or the kinds of acquisitions we are 
looking for, the more that word spreads in that curatorial 
field, the better our ability will be to attract some 
additional treasures back to the Capitol and the Senate wing, 
in particular.

                              CURTIS CHAIR

    I want to again thank you, as you mentioned a moment ago, 
for bringing to our attention last year the existence of the 
chair that belonged to former Vice President Charles Curtis, 
and the detective search that we all enjoyed in terms of 
locating that chair, and bringing it back home, if you will.
    The chair is now, of course, on loan to us from an 
anonymous donor. With Vice President Curtis, it was housed in 
the Russell Senate Office Building. It now, as you know, has 
been placed in the ceremonial office for the Vice President, in 
the Capitol. As we move forward with plans for the exhibit 
content of the Capitol Visitor Center, our hope is that it will 
be displayed in the Visitor Center in the years to come, as 
well.

                    PORTRAIT OF MARGARET CHASE SMITH

    In other curator activity, the portrait of Margaret Chase 
Smith will arrive this year. This fall, we will see the 
addition of Senator Vandenberg and Senator Wagner to the Senate 
reception room. So, that will be an exciting event that all of 
us will look forward to, here in our Senate family.
    With our 26 departments, there are so many highlights in 
addition to all the curators' work. I just want to take a 
moment, just for a couple of additional highlights.

                             SENATE LIBRARY

    Our tremendous Senate library. While a lot of information 
centers are showing actual decline of usage, our Senate library 
last year continued its tradition of posting increases in use 
to up to 14 percent last year. Senate.gov, a tremendous tool, 
not only just for those of us here in the Senate community but 
for the general public, we are now averaging 115,000 visits to 
Senate.gov a day. So, it is a tremendous public education tool.

                        SENATE HISTORICAL OFFICE

    Our historical office last year was deeply involved in the 
first-ever conference of university-based research centers that 
are dedicated to the study of Congress. I am delighted to 
report that out of that conference, an Association of Centers 
for the Study of Congress was created. And with that, our 
historical office, we will help host that group for their first 
formal meeting. They will be meeting here with us in the 
Capitol next month. So again, something to look forward to. And 
again, our historical office played a pivotal role in that, 
something I am very proud to report.
    Our historical office also is a valuable part of the 
content team for the Capitol Visitor Center, as we look to 
opening that facility within the next couple of years.

                         COOP AND COG PLANNING

    I also want to mention that our continuity of operations 
planning and our continuity of Government planning, which I 
know our Sergeant-at-Arms, at his hearing last week, spent a 
great deal of time with you all on, is also an area that our 
office works very collaboratively with the Sergeant-at-Arms on. 
Clearly, as you mentioned a moment ago in the introduction, 
that planning pays off. Most recently, with our ricin scare 
February 2.
    Although our buildings were closed, our disbursing office 
still met payroll, just as they did during the anthrax incident 
of 2001. For offices that might have been relocated for a 
period of time, we exercised our COOP plan for the stationery 
store, so the supplies were available to offices as they set up 
in other locations. We had a statutory deadline in public 
records, and we were able to set up shop in our emergency 
operations center to meet that statutory filing deadline.
    We continue to exercise frequently with the Sergeant-at-
Arms in all aspects of COOP and COG, so that, most importantly, 
our team can meet our legislative responsibilities and any 
other responsibilities incumbent upon us.
    At the top of my remarks a moment ago, I mentioned the very 
able people within the Secretary's office, and I want to 
commend them, if you will indulge me for a moment. It is 
remarkable to me that total combined within our office, the 
individuals who staff the Secretary's office represent a 
combined service of over 2,500 years of service to the United 
States Senate.
    They really do represent the best of the vision of Senators 
Mansfield and Dirksen for now some 40 years ago. And that is 
attracting people to the Secretary's office to serve as true 
professionals, to maintain and strengthen the United States 
Senate as an institution, as a whole, and they are a remarkable 
group of individuals.
    You see how that strength and their expertise is so 
important to us when you look at the kind of legislative year 
we had last year. It was the busiest legislative year since 
1995. Having that depth and breadth of experience, especially 
as we went through two, of course, overnight marathon sessions 
in November, and followed by a rare weekend session right on 
the heels of that, that longevity in service, that expertise 
serves the Senate very well every day.

                 SUCCESSION PLANNING AND CROSS-TRAINING

    With that longevity of service also comes the need for 
succession planning and cross-training among our specialties. 
That initiative continues as well. We have a perfect example I 
just want to cite amongst our own personnel, in terms of 
succession planning, is that we have been able, in a very 
pivotal role within the legislative clerk's office, we were 
able to bring someone on 10 months in advance of a pending 
retirement, so that those individuals have ample time to train, 
share knowledge, work side by side on a daily basis; and when 
that retirement occurs, will allow for a seamless transition in 
our legislative shop.
    You will also notice in our cross-training efforts, our 
staff that works at the Senate rostrum, among the legislative 
clerk's staff, while their faces do not necessarily change, 
they will change seats on you from time to time. That is 
because all of them were cross-trained amongst their 
specialties; again, to give us all that depth and breadth of 
experience, enabling the Senate to meet its constitutional 
responsibilities.
    It has been my real privilege, for now just about 16 
months, to serve as the Senate's 31st Secretary, to be part of 
the tradition and history of this incredible institution. That 
is why on balance, I believe, after careful examination, the 
budget request we bring you today, both in terms of our 
operating budget and our personnel costs, will enable us to 
continue to provide the very best possible legislative, 
financial, and administrative services to this body.

                           PREPARED STATEMENT

    I thank you and I look forward to your questions.
    Senator Campbell. Thank you, Emily.
    Ms. Reynolds. Thank you, sir.
    [The statement follows:]

                Prepared Statement of Emily J. Reynolds

    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2005.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2005 Budget 
Request; Implementing Mandated Systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS); 
Capitol Visitor Center; Continuity of Operations Planning; and 
Maintaining and Improving Current and Historic Legislative, Financial 
and Administrative Services.

             PRESENTING THE FISCAL YEAR 2005 BUDGET REQUEST

    I am requesting a total fiscal year 2005 budget of $21,286,000.
    The fiscal year 2005 budget request is comprised of $19,586,000 in 
salary costs and $1,700,000 for the operating budget of the Office of 
the Secretary. The salary budget represents an increase over the fiscal 
year 2004 budget request as a result of (1) the costs associated with 
the annual Cost of Living Adjustment in the amount of $717,000; and (2) 
an additional $570,000 for merit increases and other staffing.
    The net effect of my total budget request for fiscal year 2005 is 
an increase of $722,000.
    Our request in the operating budget, which is the same as fiscal 
year 2004, is a sound one, enabling us to meet our operating needs and 
provide the necessary services to the United States Senate through our 
legislative, financial and administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                     AMOUNT
                                                                    AVAILABLE        BUDGET
                              ITEM                                 FISCAL YEAR      ESTIMATE        DIFFERENCE
                                                                   2004 PUBLIC     FISCAL YEAR
                                                                   LAW 108-83         2005
----------------------------------------------------------------------------------------------------------------
DEPARTMENTAL OPERATING BUDGET:
    EXECUTIVE OFFICE...........................................        $525,000        $525,000  ...............
    ADMINISTRATIVE SERVICES....................................       1,100,000       1,135,000         $35,000
    LEGISLATIVE SERVICES.......................................          75,000          40,000         (35,000)
                                                                ------------------------------------------------
      TOTAL OPERATING BUDGET...................................       1,700,000       1,700,000  ...............
                                                                ================================================
SPECIAL PROJECTS...............................................         565,000  ..............        (565,000)
                                                                ------------------------------------------------
      TOTALS...................................................       2,265,000       1,700,000        (565,000)
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 100 Senators' offices, 20 Committees and 20 Leadership 
and support offices. As a result of a five year strategic plan 
developed by the Disbursing Office, the Appropriations Committee 
subsequently approved a $5 million appropriation of a multi-year 
program to upgrade and expand FMIS for the Senate.
    With these funds, the Disbursing Office continues to modernize 
processes and applications to meet the continued demand by our Senate 
offices for efficiency, accountability and ease of use. Our goal is to 
move to a paperless voucher system, improve the Web-FMIS system, and 
make payroll and accounting system improvements. In addition, we are 
working cooperatively with the Sergeant at Arms to prepare auditable 
financial statements for the Senate.
    In 2003, specific progress made on the FMIS project included:
  --Implementing three releases of Web FMIS, the accounting system used 
        by offices, which included making the online ESR function 
        available to all offices and piloting online review and 
        sanctioning capability to the Rules Committee Audit staff; 
        making changes to the reporting functionality; making changes 
        to the underlying technology; and providing additional office/
        committee functionality such as credit documents and the 
        ability to create budgets for a new fiscal year.
  --Implementing two releases of the Senate Automated Vendor Inquiry 
        (SAVI), the system used by Senate staff to see payment 
        information and to prepare expense summary reports (online 
        ESR's). Those releases were designed both to streamline access 
        to data necessitated by the full Senate implementation of 
        online ESR and to enhance security.
  --Implementing software enabling the Rules Committee Audit staff to 
        conduct the first and second post payment audits. This was done 
        in conjunction with the delegation of sanctioning authority to 
        the Financial Clerk for vouchers of $35 or less. These 
        statistically valid samples were returned with zero errors, and 
        the threshold was consequently increased by the Rules Committee 
        to $100 or less, effective January 1, 2004.
  --Piloting payments to external vendors via direct deposit.
  --Revising requirements for imaging of supporting documentation and 
        electronic signatures.
    For fiscal year 2004, the following FMIS activities are underway:
  --Full scale implementation of Rules Committee on-line review of Web 
        FMIS-produced vouchers is now completed.
  --Implementation of two WEB FMIS releases that will simplify the 
        system architecture, upgrade the technology used, provide 
        simpler disaster recovery and provide the platform for the 
        imaging of supporting documentation and electronic signatures.
  --Conduct a pilot for the use of laser checks.
  --Implementation of a new release of the SAVI system that enables e-
        mail notification of payments to vendors and staff.
  --Implementation of a new release of the online ESR component of SAVI 
        that will incorporate suggestions made by users.
  --Investigate the use of electronic signatures, imaging of supporting 
        documentation, and receipt of electronic invoices.
    During fiscal year 2005, the following FMIS activities are 
anticipated:
  --Implementation of a Web FMIS release to provide additional reports 
        useful to office with improvements in the software used to 
        create reports.
  --Conduct a pilot of the technology for paperless payment processing.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.

Legislative Information System (LIS)
    Our second mandated system, which this Committee has also 
generously supported, is the Legislative Information System, or LIS, 
which provides Senators and staff with text of Senate and House 
legislative documents from their desktop computers. In addition, LIS 
provides real-time access to legislative amendments and the current 
status of new legislation within 24 hours. LIS originates from the 1997 
Legislative Branch Appropriations Act, which also established a 
requirement for the broadest possible exchange of information among 
legislative branch agencies. This exchange process is now the focus of 
the LIS Augmentation Project, or LISAP.
    The overall objective of the LISAP is to implement the extensible 
markup language, or XML, as the data standard to author and exchange 
legislative documents among the Senate, House of Representatives, the 
Government Printing Office and other legislative agencies. Two years 
ago, the Appropriations Committee appropriated $7 million to the 
Secretary for the LISAP, to carry out the Senate portion of the 
December 2000 directive given to both the Secretary and the Clerk of 
the House by the Senate Rules Committee and the House Administration 
Committee respectively. Thus far, we have spent approximately $4 
million of our appropriation, and I am pleased to report that 
considerable progress has been made and the project is on budget and 
running smoothly.
    The project is currently focused on Senate-wide implementation and 
transition to a standard system for the authoring and exchange of 
legislative documents, including an XML authoring system for the Office 
of Senate Legislative Counsel (SLC) and the Enrolling Clerk for bills, 
resolutions and amendments. A database of documents in XML format and 
an improved exchange program will mean quicker and better access to 
legislative information and will provide documents that are more easily 
shared, reused and repurposed.
    The LISAP project team is developing the Senate's legislative 
editing XML application (LEXA) which was installed in the Office of the 
Senate Legislative Counsel (SLC) in January 2004. The attorneys and 
staff assistants received training and immediately began drafting some 
bills, resolutions, and amendments in XML with the first XML draft 
introduced on January 22, 2004.
    The SLC's document management system was completed in December 
2003, and will be implemented this year. Several of the XML document 
conversion projects have been completed, including the conversion of 
bills, resolutions and amendments from the 106th, 107th and 108th 
(first session) Congresses. The conversion of the compilations of 
current law to XML will be completed in the next few months. The SLC 
and House Legislative Counsel use the compilations in drafting bills 
and amendments.
    The SLC is working closely with the project team on continued 
development and enhancement of LEXA. The Enrolling Clerk and the 
Government Printing Office are next in line to begin using LEXA. When 
LEXA is fully functional for these two operations in producing XML 
documents, the project team will then turn its attention to other 
Senate offices and other types of legislative documents.
    A more detailed report on LIS follows the departmental reports.

                         CAPITOL VISITOR CENTER

    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its educational benefits for our visitors will 
be tremendous.

      CONTINUITY OF OPERATIONS AND EMERGENCY PREPAREDNESS PLANNING

    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its Constitutional 
obligations under any circumstances. Plans are in place to support 
Senate Floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, this office has successfully implemented COOP plans 
during the anthrax and ricin incidents, and have conducted roughly one 
dozen drills and exercises to test and refine our plans. In conjunction 
with the Sergeant at Arms, Capitol Police, and the Offices of the 
Attending Physician and the Architect of the Capitol, the Office of the 
Secretary has established and exercised Emergency Operations Centers, 
Briefing Centers and Alternate Senate Chambers, both on and off Capitol 
Hill.
    In addition, the Office has identified equipment, supplies and 
other items critical to the conduct of essential functions, and has 
assembled ``fly-away kits'' for the Senate Chamber and for each 
department within the Office of the Secretary. Multiple copies of each 
fly-away kit have been produced. Some are stored in our offices, and 
back-up kits are stored nearby but off Capitol property, as well as at 
other sites outside the District of Columbia. This approach enables the 
Office of the Secretary to resume essential operations within 12 to 24 
hours, even if there is no ability to retrieve anything from offices in 
the Capitol.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency: support Senate Floor operations in an 
Alternate Senate Chamber within twelve hours on Capitol property, and 
within 24 to 72 hours off property, depending upon location; support an 
emergency legislative session at a Briefing Center, if required; 
support Briefing Center Operations at any of three designated locations 
within one hour; and activate an Emergency Operations Center on campus 
or at Postal Square within one hour.
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Activated an Emergency Operations Center, Leadership Coordination 
        Center and selected departmental COOP plans during the ricin 
        incident response;
  --Participated in the Capitol Police Incident Command during the 
        ricin incident response;
  --Provided supplies to temporary offices in the Capitol and Postal 
        Square during the ricin incident response;
  --Conducted an offsite Alternate Chamber exercise and a Briefing 
        Center exercise;
  --Identified and acquired all equipment and supplies required to 
        support Senate operations at an offsite Alternate Chamber, and 
        stored all materials at the Alternate Chamber location;
  --Reviewed, revised and published the Office of the Secretary's 
        Master COOP plan, and all departmental COOP plans.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. The Office's emergency preparedness 
programs are designed to ensure that the Senate can carry out its 
Constitutional functions under any circumstances. These programs are 
critical to the mission of the Office, and have become a permanent, 
integral part of operations. With the continued assistance of the 
Leadership, the Sergeant at Arms, and the Appropriations Committee, the 
Office of the Secretary is confident that we will be successful in 
facing any future emergency.

 MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL 
                      AND ADMINISTRATIVE SERVICES
                          LEGISLATIVE OFFICES

    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators in carrying out their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates--who are supervised by the Secretary through the Legislative 
Clerk. The Parliamentarian's office is also part of the Legislative 
Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is twenty years. There is not one 
supervisor with less than thirteen years of service. The experience of 
these senior professional staff is a great asset for the Senate. As in 
previous years and in order to ensure continued well-rounded expertise, 
the legislative team has cross-trained extensively among their 
specialities.

                             1. BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system, available to all House 
and Senate offices via the Legislative Information System (LIS). The 
Bill Clerk records actions of the Senate with regard to bills, reports, 
amendments, cosponsors, public law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Bill Clerk's Office is generally regarded as the most timely and most 
accurate source of legislative information.

Legislative Activity
    The Bill Clerk's Office processed slightly fewer pieces of 
legislative materials and significantly more roll call votes during the 
first session of the 108th Congress versus the first session of the 
107th Congress. Below is a comparative summary of the first sessions of 
the 107th and the 108th Congresses:

------------------------------------------------------------------------
                                               107th           108th
                                           Congress, 1st   Congress, 1st
                                              Session         Session
------------------------------------------------------------------------
Senate Bills............................           1,883           2,003
Senate Joint Resolutions................              30              26
Senate Concurrent Resolutions...........              93              86
Senate Resolutions......................             198             283
Amendments Submitted....................           2,697           2,231
House Bills.............................             264             282
House Joint Resolutions.................              17              20
House Concurrent Resolutions............              91              78
Measures Reported.......................             247             352
Written Reports.........................             132             220
                                         -------------------------------
      Total Legislation.................           5,652           5,571
                                         ===============================
Roll Call Votes.........................             380             459
------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Government Printing Office has responded in a timely manner to 
the Secretary's request through the Bill Clerk's office for the 
printing of bills and reports, including the printing of priority 
matters for the Senate chamber. Specifically, the Secretary requested, 
through the Bill Clerk, that GPO reprint (star printed) 21 pieces of 
legislation during the course of the Congress, and that GPO expedite 
the printing of 31 measures for the Senate.

Projects
    Amendment Tracking System.--In the fall of 2001, the Rules 
Committee approached our office with the task of scanning submitted 
amendments onto the Amendment Tracking System on LIS. The Rules 
Committee identified a need for Senate staff to have all amendments 
submitted in the Senate made available online shortly after being 
filed, especially during cloture. Rules Committee also requested that 
the Secretary through the Bill Clerk assess the feasibility of lifting 
the page limitation for scanning amendments onto the ATS Indexer. In 
response, the Bill Clerk contacted the Technology Development division 
of the Sergeant-At-Arms office to outline the technical requirements 
needed to implement such a request, and a draft outline was completed. 
Once the final version is delivered, the Secretary through the Bill 
Clerk, in consultation with the Legislative Clerk, will ascertain the 
legislative requirements needed in order for the staff to implement 
this request. The system must be designed and implemented without 
sacrificing critical services to the functioning of the Senate Chamber, 
specifically the amendment process.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have an electronic version of the official 
Senate ledgers to ensure the integrity of the information recorded in 
the ledgers. The electronic version should be portable for use during 
possible emergency scenarios. The Technology Development division of 
the Sergeant-At-Arms is working to develop two separate functions of 
this electronic ledger system. One is an electronic data entry system 
which will mimic the layout of the current Senate ledgers printed by 
the Government Printing Office; the other is a search function. Both of 
these programs will be housed on a separate server to maintain the 
integrity of the ledger data. The electronic ledger system is currently 
under development.

                    2. OFFICE OF CAPTIONING SERVICES

    Since 1991, the Office of Captioning Services has provided real-
time captioning of Senate floor proceedings for the deaf and hard-of-
hearing along with unofficial electronic transcripts of those 
proceedings to Senate offices via the Senate Intranet.

General Overview
    Accuracy remains the watchword of this office. Overall caption 
quality is monitored through translation data reports, monitoring the 
captions in real-time and reviewing the caption files on the Senate 
Intranet.

Technology Update
    A year-long review of all available real-time captioning technology 
for the office in fiscal year 2002 led to the acquisition of new real-
time captioning technology. By the end of fiscal year 2003, windows-
based software and paperless writing devices had been installed and all 
closed captioners had been trained and were on the air with the new 
technology.
    Voice recognition technology continues to improve and the Office of 
Captioning Services is on the cutting edge of testing and evaluating 
these products as they evolve. The pilot project to real-time caption 
Judiciary Committee hearings in fiscal year 2004 continues and a 
summary of the results will be provided at the completion of the 
project.

Primary 2004 Objectives
    To assist in both the execution of the Judiciary Committee's real-
time captioning pilot project and the preparation of a final report at 
the conclusion of the project for the Rules Committee, the Judiciary 
Committee and the Secretary of the Senate.
    To develop indefinite backup capability for assistance during 
sessions that may go around-the-clock.

                            3. DAILY DIGEST

    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest;
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference;
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record;
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties;
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law;
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        rollcall votes. (See Attachment--Resume of Congressional 
        Activity); and
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.

Committee Activity
    Senate committees held a total of 906 meetings during the first 
session of the 108th Congress, as contrasted with 961 meetings during 
the first session of the 107th Congress.

Chamber Activity
    The Senate was in session a total of 167 days, for a total of 1,454 
hours and 5 minutes. There were 3 quorum calls and 459 record votes. (A 
20-Year Comparison of Senate Legislative Activity follows).

Computer Activities
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system. Under the direction of the Editor, 
the computer center staff was able to create two new reports for the 
Daily Digest. Report 82 is a compilation of Treaties Approved in Digest 
format, and Report 83 is a compilation of Written Executive Reports of 
Committees in Digest format. The Digest is also pleased to report that 
all refinements made to the Senate Committee Scheduling application 
have been successfully implemented, including the capability of 
entering multiple documents. The committee scheduling application was 
developed back in 1999 as a server-based web-enabled application that 
is browser accessible to all Senate offices on Capitol Hill. It was 
designed to replace the committee scheduling functions and reports that 
were supported by the mainframe-based Senate Legis System.

Assistance from the Government Printing Office
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office (GPO) electronically. 
The Editor, Assistant Editor, and Committee Scheduling Coordinator 
function coordinate in preparing Digest copy on computers, storing and 
sharing information, permitting prompt editing, and transferring the 
final to floppy disc. The Digest continues the practice of sending a 
disc along with a duplicate hard copy to GPO, even though GPO receives 
the Digest copy by electronic transfer long before hand delivery is 
completed adding to the timeliness of publishing the Congressional 
Record. The Digest office is comfortable with this procedure, both to 
allow the Digest Editor to physically view what is being transmitted to 
GPO, and to allow GPO staff to have a comparable final product to cross 
reference.
    The Daily Digest continues the practice of discussing with GPO 
problems encountered with the printing of the Digest, and are pleased 
to report that with the onset of electronic transfer of the Digest 
copy, occurrences of editing corrections or transcript errors are 
infrequent.

                           4. ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2003, 62 enrolled bills (transmitted to the President) and 8 
concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 593 additional pieces of legislation in one form or 
another, were passed or agreed to by the Senate, all processed from 
this office.

                           5. EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, Presidential messages 
and petitions and memorials.

Nominations
    During the first session of the 108th Congress, there were 1,201 
nomination messages sent to the Senate by the President, transmitting 
28,423 nominations to positions requiring Senate confirmation and 13 
messages withdrawing nominations previously sent to the Senate during 
the first session of the 108th Congress. Of the total nominations 
transmitted, 600 were for civilian positions other than lists in the 
Foreign Service, Coast Guard, NOAA, and Public Health Service. In 
addition, there were 2,578 nominees in the ``civilian list'' categories 
named above. Military nominations received this session totaled 25,245 
(9,068--Air Force; 6,012--Army; 7,752--Navy; and 2,413--Marine Corps). 
The Senate confirmed 21,580 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 18 nominations were 
returned to the President during the first session of the 108th 
Congress.

Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the first session of the 108th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 108-1 through 108-14). The 
Senate gave its advice and consent to 11 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 8 executive reports relating to treaties ordered printed 
for the use of the Senate during the first session of the 108th 
Congress (Executive Report 108-1 through 108-8). The Senate conducted 
78 roll call votes in executive session, all on or in relation to 
nominations and a treaty.

Executive Communications
    For the first session of the 108th Congress, 5,352 executive 
communications, 337 petitions and memorials and 58 Presidential 
messages were received and processed.

Legislative Information System (LIS) Update
    Our staff consulted with the Senate Computer Center (SCC) during 
the year concerning the ongoing improvements to the LIS pertaining to 
the processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials. Working with the 
Government Printing Office (GPO) and SCC staff, a process was developed 
last year for the printing of the Executive Journal by creating a PDF 
file. This year the Secretary's Information Systems staff provided the 
Executive Clerk's office with a new HP Digital Sender that has proven 
to be an even faster and more efficient process for sending the PDF 
file of the Executive Journal to GPO for printing.
    In the future, the Senate Computer Center will develop the 
Executive Calendar in a more ``user friendly'' program that will be 
beneficial to our office and the SAA computer support staff. In the 
meantime, the text field for placing unanimous consent agreements on 
the Executive Calendar was redesigned to provide the Executive Clerk 
more control in editing the Calendar in 2004.

                            6. JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal as required by Article 
I, Section V of the Constitution. The Senate Journal is published each 
calendar year.
    In 2003, the Journal Clerk completed the production of the 903-page 
2002 Journal of the proceedings of the Senate, the annual project as 
required by the Constitution. The Journal staff take 90 minute turns at 
the rostrum in the Senate Chamber, noting by hand for inclusion in the 
Minute Book (i) all orders (entered into by the Senate through 
unanimous consent agreements), (ii) legislative messages received from 
the President of the United States, (iii) messages from the House of 
Representatives, (iv) legislative actions as taken by the Senate 
(including motions made by Senators, points of order raised, and roll 
call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Journal at the end of each calendar year.
    Over the past two years, the Sergeant at Arms' Technology 
Development Service Department, under the guidance of the Journal 
Clerk, has developed the LIS Senate Journal Authoring System. This 
system provides a much needed, supportable system for authoring and 
publication of the Senate Journal, in place of the decade-old software 
currently used for production. The system was installed for user 
evaluation in March 2004, and will be released for use by the end of 
April. The system's functionality was successfully exercised during the 
compilation of the 1,146 page 2003 Journal, which was sent to the 
Government Printing Office for printing at the end of March.

                          7. LEGISLATIVE CLERK

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross-training of the 
department's eight offices.
    Underscoring the importance of planning for the continuity of 
Senate business, under both normal and possibly extenuating 
circumstances, cross-training is strongly emphasized among the 
Secretary's legislative staff. Currently, 50 percent of the legislative 
staff have been cross-trained between their specialities.

Summary of Activity
    The first session of the 108th Congress completed its legislative 
business and adjourned sine die on December 9, 2003. During 2003, the 
Senate was in session 167 days, over 1,454 hours and conducted 459 roll 
call votes. There were 352 measures reported from committees, 590 total 
measures passed, and 153 items remained on the Calendar at the time of 
adjournment. In addition, 2,231 amendments were processed.

Legislative Information System (LIS) Enhancement
    In an effort to monitor and improve the Legislative Information 
System (LIS), the Legislative Clerk acts as the liaison between 
legislative clerks and technical operations staff of the Sergeant at 
Arms. The Legislative Clerk also reviews, prioritizes, and forwards 
change requests from the clerks to the technical operations staff. Over 
the past year, 36 change requests submitted by the clerks to improve 
the system have been implemented.

                    8. OFFICIAL REPORTERS OF DEBATES

    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 

Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.

                           9. PARLIAMENTARIAN

    In 2003, the Parliamentarian's Office continued to perform its 
extensive legislative duties. These include advising the Chair, 
Senators and their staff, committee staff, House members and their 
staffs, administration officials, the media and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, unanimous consent 
agreements, as well as provisions of public law affecting the 
proceedings of the Senate. The Parliamentarians work in close 
cooperation with the Senate leadership and their floor staffs in 
coordinating all of the business on the Senate floor. The 
Parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as President of the Senate. The Parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate.
    The Parliamentarians also keep track of the amendments offered to 
the legislation pending on the Senate floor, and monitor them for 
points of order. The Parliamentarians reviewed more than 1,000 
amendments during 2003 to determine if they met various procedural 
requirements. The Parliamentarians also reviewed thousands of pages of 
conference reports to determine what provisions could appropriately be 
included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, and communications 
received from the executive branch, state and local governments, as 
well as private citizens. In order to perform this responsibility, the 
Parliamentarians do extensive legal and legislative research. During 
2003, the Parliamentarian and his assistants referred 2,467 measures 
and 5,747 communications to the appropriate Senate committees. The 
office worked extensively with Senators and their staffs to advise them 
of the jurisdictional consequences of particular drafts of legislation, 
and evaluated the jurisdictional effect of proposed modifications in 
drafting. The office continues to address the difficult jurisdictional 
questions posed by the creation of the massive new Department of 
Homeland Security, which now has responsibility for hundreds of issues 
previously in the jurisdiction of other Senate committees. The 
Parliamentarians have made dozens of decisions about the committee 
referrals of nominations for new positions created in this department, 
nominations for positions which existed before this department was 
created but whose responsibilities have changed, and hundreds of 
legislative proposals concerning the department's responsibilities.
    Additionally, in the last three years, rules relating to 
legislation on appropriations bills, and the scope of conference 
reports on all bills were reinstated. This has opened up hundreds of 
Senate amendments to renewed scrutiny by the Parliamentarians, and has 
meant that the Parliamentarians now have the responsibility of 
potentially reviewing every provision of every conference report 
considered by both Houses of Congress.
    The Parliamentarians have taken the lead in the Senate to analyze 
the need for emergency procedural authorities of Congress generally, 
and the Senate in particular.

                                                                        YEARLY COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1984          1985          1986          1987          1988          1989          1990          1991          1992          1993
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/25           1/3          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5
Senate Adjourned....................................         10/12         12/20         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26
Days in Session.....................................           131           170           143           170           137           136           138           158           129           153
Hours in Session....................................        94025"      1,25231"      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"
Average Hours per Day...............................           7.2           7.4           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3
Total Measures Passed...............................           726           583           747           616           814           605           716           626           651           473
Roll Call Votes.....................................           181           381           359           420           379           312           326           280           270           395
Quorum Calls........................................            19            20            16            36            26            11             3             3             5             2
Public Laws.........................................           408           240           424           240           473           240           244           243           347           210
Treaties Ratified...................................            20             6            12             3            15             9            15            15            32            20
Nominations Confirmed...............................        41,726        55,918        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676
Average Voting Attendance...........................         91.95         94.64         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6
Sessions Convened Before 12 Noon....................           106           119           117           131           120            95           116           126           112           128
Sessions Convened at 12 Noon........................            18            38            25            12            12            14             4             9             6             9
Sessions Convened after 12 Noon.....................             7            13             1            25             5            27            17            23            10            15
Sessions Continued after 6 p.m......................            81           104            92            97            37            88           100           102            91           100
Sessions Continued after 12 Midnight................            11             7            15             6             7             9            13             6             4             9
Saturday Sessions...................................             1             3             2             3  ............             1             3             2             2             2
Sunday Sessions.....................................  ............             1  ............             1  ............  ............             2  ............  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                   YEARLY COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1994          1995          1996          1997          1998          1999          2000          2001          2002          2003
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................          1/25           1/4           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7
Senate Adjourned....................................         12/01        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9
Days in Session.....................................           138           211           132           153           143           162           141           173           149           167
Hours in Session....................................      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"
Average Hours per Day...............................           9.0           8.7           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7
Total Measures Passed...............................           465           346           476           386           506           549           696           425           523           590
Roll Call Votes.....................................           329           613           306           298           314           374           298           380           253           459
Quorum Calls........................................             6             3             2             6             4             7             6             3             2             3
Public Laws.........................................           255            88           245           153           241           170           410           136           241           198
Treaties Ratified...................................             8            10            28            15            53            13            39             3            17            11
Nominations Confirmed...............................        37,446        40,535        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580
Average Voting Attendance...........................         97.02         98.07         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07
Sessions Convened Before 12 Noon....................           120           184           113           115           109           118           107           140           119           133
Sessions Convened at 12 Noon........................             2            15            12            31            17            25            10            12             4             9
Sessions Convened after 12 Noon.....................            17            12             7             7             2            19            24            21            23            23
Sessions Continued after 6 p.m......................           100           158            88            96            93           113            94           108           103           134
Sessions Continued after 12 Midnight................             7             3             1             2             3             8
Saturday Sessions...................................             3             5             1             1             1             3             1             3             1
Sunday Sessions.....................................  ............             3  ............             1  ............  ............             1  ............  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

                FINANCIAL OPERATIONS: DISBURSING OFFICE
                     DISBURSING OFFICE ORGANIZATION

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs in order to provide responsive, personal attention to Members 
and employees on a confidential basis. The Senate Disbursing Office 
also manages the distribution of central financial and human resource 
information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.

               DEPUTY FOR BENEFITS AND FINANCIAL SERVICES

    The responsibility of this position is to serve as the Senate's 
expert on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction among the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is a further responsibility. Ensuring 
that job processes are efficient and up to date, modifying computer 
support systems, implementing regulatory and legislated changes, and 
designing and producing up to date forms for use in all three sections 
are additional areas of responsibility.
2003 Accomplishments and activities
    Normal computer systems do not account for employees over 99 years 
of age, and consequently, the DO life insurance computer data elements 
have been expanded to accommodate 100 years of age. New age bands and 
deduction rates were instituted by regulation and our computer systems 
were modified to accommodate the new requirements.
    OPM mandated that a new calculation routine for the Civil Service 
Retirement-Offset deduction and new reporting requirements took effect 
in January, 2003. Much of the work was performed in late 2002 and the 
retirement record changes, the new deductions, and the new reports ran 
perfectly for the first payroll of 2003. Two new computer screens were 
built to track the new Offset CSRS deductions at 7.5 percent .
    As part of an ongoing effort to prevent payroll errors, an edit was 
added so that an account line with a future stop date cannot be 
deleted. However, this was removed the next month as it was determined 
that the high volume of alterations required due to offices changing 
pay increases, terminations, and transfers, necessitated the ability to 
delete future lines.
    Computer system menus for update and inquiry were altered early in 
the year to accommodate all of the new screens and the many changes 
required for implementation later in the year.
    To fill a critical need of the Continuity of Operations Plan, a 
document imaging project is underway to place employees' Official 
Personnel Folders in an easily accessible electronic format. This new 
system is complete, and procedures are currently being finalized for 
implementation this summer.
    In mid-2003, a reexamination was done of both the Political Fund 
Designee and S. Res. 110 (GS-15 Financial Disclosure) tracking and 
reporting processes. The Office of Public Records and Select Committee 
on Ethics use these reports extensively. By refining and extensively 
updating processes initiated in 1975, reports now provide what each 
office needs on a much more timely basis. Both Public Records and 
Ethics approved of the final product.
    Flexible Spending Accounts were announced in December, and a 
contract was awarded in March 2003. Work began immediately to add the 
two new FSAs (healthcare and dependent care) by the July 1 effective 
date. Automated processes to load the data received by the Senate from 
the FSA administrating agency, to deduct and report the monies on a tax 
exempt basis, and transmit monies and reports to the administrating 
agency, were completed on time.
    New TSP Catch Up contributions for employees over 50 passed in late 
2002 and regulatory requirements were received in February 2003. 
Project planning began immediately. This project required tax deferred 
deductions be withheld separate from the TSP program, reported 
differently and reported separately. A completely new screen was 
required. The project was completed and worked flawlessly on the 
required date of August 1.
    The Payroll Information Notice (pay stub) was completely redesigned 
in mid year to provide much more room to accommodate the many new 
deductions employees might have with the new programs established in 
2003. The various changes provided almost 40 percent more room. New 
deductions include Long Term Healthcare, Student Loan Repayment 
Program, Flexible Spending Accounts, and TSP Catch Up contributions. 
New PINs went out with the May 5 pay date. In October, a project was 
initiated to replace the current payroll system's OLAG programming with 
a completely new and updated version using BMS programming. This will 
eventually ensure continued operations on the newest mainframe 
operating systems, and to enable future payroll enhancements involving 
the web, employee self-service and on-line review of payroll reports by 
Senate offices. Work is scheduled to be completed by July 1, 2004.

          FRONT COUNTER--ADMINISTRATIVE AND FINANCIAL SERVICES

    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers' 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
Counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.

2003 Accomplishments and activities
    The Front Counter processed approximately 2,200 cash advances, 
totaling approximately $1.4 million and initialized check/direct 
deposit advances, totaling approximately $730,000.
    Received and processed more than 30,000 checks, totaling over 
$3,600,000.
    Administered Oath and Personnel Affidavits to more than 3,400 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 11 federal health carriers and distributed 
approximately 5,000 brochures to staff during the annual FEHB Open 
Season and to new employees.
    Provided 33 training sessions to new office managers.
    The major emphasis during this year was the training for the 11 new 
Senate offices into the operations of the Disbursing Office. Training 
was provided to new office managers and guidance provided in their 
business transactions with the Disbursing Office.
    The only reconciliations of the Senate accountability were 
confirmed by a General Accounting Office audit performed in June 2003 
at the request of the Secretary of the Senate. Front Office operations 
continued to provide the Senate community with prompt, courteous, and 
informative advice regarding Disbursing operations.

                            PAYROLL SECTION

    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper Thrift Savings Plan 
(TSP) information to the National Finance Center (NFC), while 
maintaining earnings records for distribution to the Social Security 
Administration, and maintaining employees' taxable earnings records for 
W2 statements, prepared by this section. The Payroll Section is also 
responsible for the payroll expenditure data portion of the Report of 
the Secretary of the Senate.

2003 Accomplishments and Activities
    Funding for Calendar Year 2003 began as a Continuing Resolution. 
This restriction of spending delayed the January 1, 2003 Cost of Living 
increase. In January, the passage of the Legislative Branch 
Appropriations Bill gave the U.S. Senate a 3.1 percent Cost of Living 
increase retroactive to January 1, 2003. The passage of the Omnibus 
Appropriations Bill in March 2003 provided the Senate with a final Cost 
of Living increase of 4.27 percent retroactive January 1, 2003. While 
the multitude of cost of living transactions taxed the resources of the 
Payroll Section for a five month period, all pay adjustments were done 
in an accurate and timely manner.
    In late 2002 and early 2003, Payroll was heavily involved in the 
testing of the new CSRS-Offset deductions and reports. Attention to 
detail from the Payroll Section helped debug programs and streamline 
the new processes.
    During this same time period the Payroll Section maintained its 
schedule of processing TSP Open Season forms. Senate employees for the 
most part were taking full advantage of the increase in the cap for TSP 
deductions, making the most of 13 percent/$12,000 maximums. The TSP 
Catch-Up program was implemented in the fall of 2003. This program 
allowed employees who are 50 or older to deposit additional funds into 
their personal TSP. Payroll staff were involved in all of the testing 
performed with the new screen, new deductions, and reports.
    During the summer of 2003 the National Finance Center implemented 
its EnTrust Financial Management System allowing the agencies to have 
online update and correction abilities. Employees of our Payroll 
Section were trained by the Department of Agriculture to use the on-
line payments and corrections system.
    The Student Loan Program (SLP) continued into 2003. The new year 
brought new challenges to the Payroll Section. The time consuming 
methods of third party loan processing created needless delays of 
notification for loan payoffs. The Payroll Section had to develop 
procedures for returning overpayment of loans to the loan program 
allocation refund, return the respective over- withholding of Federal, 
State, FICA, and Medicare taxes to the employees involved. Regulations 
were enforced to alleviate these problems. Payments for loans to be 
paid off during the Agreement Year of a SLP are now spread out over the 
full year, eliminating these overpayments.
    The Payroll Section also assisted in developing methods for 
processing Long Term Care and in July 2003 implemented the FSA 
deductions system. These additional benefit plans were passed to 
provide additional coverage to our normal FEHB deduction processing 
system. Each of the above new deductions required research into the tax 
implications of each deduction. Once the plan was implemented further 
research was required for the proper modification of W-2s for calendar 
year 2003. Payroll staff were involved in testing and verification 
during the implementation of these systems. The Payroll Supervisor was 
part of the project management team during the planning portions and 
during final installation.
    Payroll filing systems and checking processes were updated to 
improve quality control. These changes help minimize errors in an 
environment where payroll changes are much more common than in most 
other government and private institutions. In addition, with 
considerable staff changes in 2003, new training procedures for the 
Payroll Section were implemented and have resulted in more 
knowledgeable staff and reductions in errors.

                       EMPLOYEE BENEFITS SECTION

    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of benefits laws and regulations. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and once 
Official Personnel Folders and Transcripts of Service are received, 
verifies the accuracy of the information provided and reconciles as 
necessary. Transcripts of Service, including all official retirement 
and benefits documentation, are provided to other federal agencies when 
Senate Members and staff are hired elsewhere in the government. EBS 
processes employment verifications for loans, the Bar Exam, the FBI, 
OPM, and the Department of Defense, among others. Unemployment claim 
forms are completed, and employees are counseled on their eligibility. 
Department of Labor billings for unemployment compensation paid to 
Senate employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.

2003 Accomplishments and activities
    The year began with EBS finalizing retirement estimates and 
processing the many retirement cases associated with outgoing Senators 
and their staffs, as well as those staff on committees who were 
affected by the changes. Approximately 170 retirement cases were 
processed throughout 2003, including 10 death cases.
    During 2003 the new Federal Flexible Spending Account (FSA) Program 
was introduced and implemented government-wide. EBS worked diligently 
to become educated in all aspects of the program. This required 
constant interaction with OPM and the FSA plan administrator, SHPS, to 
establish, understand and implement procedures for the plan. Employee 
Benefits staff worked as part of the Project Team to apply 
modifications and establish parameters for the implementation of the 
program. Effective introduction to and participation in the FSA program 
required extensive notification to employees, which included several 
mail-outs, electronic notifications and use of streaming video on 
Webster. Two Open Seasons were conducted, along with an educational 
seminar on the FSA program and recurring FSA seminar broadcasts on 
Senate Cable TV. EBS also developed and disbursed educational materials 
for employees.
    During our anthrax displacement, EBS discovered that the most 
essential information that could not be accessed off-site was employee 
personnel folders. Based on these lessons, EBS has worked with the 
Deputy for Benefits and Financial Services as part of the Project Team 
to outline the needs and parameters required for development and 
implementation of a document imaging system for use in electronically 
reproducing employee personnel folders. Through extensive meetings, 
testing and feedback, the imaging system has been developed and is 
ready for implementation. This system will allow computer-based access 
to employee personnel folders as well as the ability to access them 
from an off-site facility.
    Based on the continued military operations and the call to active 
duty of military reservists, the volume of Senate employees being 
placed in a Leave Without Pay (LWOP) status and subsequently returned 
to pay status was elevated throughout 2003. Counseling and 
administration of their retirement and benefits was handled by EBS.
    Effective in 2003, OPM announced a modification to the way 
retirement deductions were to be reported for employees subject to 
Social Security and CSRS. Compliance with this change required 
coordination with the Senate Computer Center for programming changes 
and screen development, followed by debugging and subsequent 
implementation of the new withholding and reporting format.
    Based on new legislation, the Thrift Savings Plan (TSP) implemented 
a new provision enabling employees age 50+ to contribute additional 
``Catch-up'' contributions to their TSP accounts. This enhancement 
required a great deal of interaction with the Senate Computer Center to 
apply modifications and establish parameters for the implementation of 
the program. EBS worked to become a resource on the aspects of Catch-up 
contributions and educational materials and notices were created and 
supplied to eligible participants.
    Mid-year, the TSP implemented their long-awaited new record keeping 
system, which created many questions and requests for assistance from 
Senate employees as well as from offices on behalf of their 
constituents. Additionally, there were two TSP Open Seasons in 2003 
during which employees could change their rate of contribution. The 
number of employee changes was higher during the end of year Open 
Season, as the allowable rates of contribution increased.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. This year, the DO offered an exciting new tool 
for Senate employees as the Checkbook on-line Guide to Health Plans was 
made available to research and compare FEHB plans. This tool will 
remain available to staff throughout the year, and may become an annual 
purchase. Feedback received on the Guide was very positive, and as 
awareness increases, more users are anticipated. Once again, the DO 
hosted a FEHB Open Season Health Fair, which was attended by about 600 
employees. As an additional service, it was open to all other federal 
employees on the Hill, including House, Capitol Police, Architect of 
the Capitol and Senate Restaurant employees. In addition to having 
health plan representatives available to provide information and answer 
questions, representatives from FSA Feds and Long Term Care Insurance 
were in attendance as well.
    EBS continues to upgrade the information available on the DO 
Webster site and has added more downloadable forms, routinely making 
use of the newer video technologies and links. In addition, EBS has 
been developing many computer-based forms and calculators for use in 
providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
developed and conducted for interested Senate staff. The seminars were 
well attended and well received. Additionally EBS staff regularly 
provided a panel participant for the monthly New Staff Orientation 
seminars and quarterly Senate Services Fairs held by the Office of 
Education and Training.
    Interagency meetings were attended with time being spent on the 
implementation of the FSA Program, the CLER program, and the continuing 
TSP program changes and enhancements.
    There was a great deal of employee turnover in early 2003. New 
Members appointed numerous employees from the House and Executive 
Branch, and many other employees left with outgoing Members, several of 
whom were appointed to positions in the Executive Branch. This caused a 
dramatic increase in appointments to be researched and processed, 
retirement records to be closed out, termination packages of benefits 
information to be compiled and mailed out, and health insurance 
enrollments to be processed. Transcripts of service for employees going 
to other federal agencies, and other tasks associated with employees 
changing jobs were at a high level this year. These required prior 
employment research and verification, new FEHB, FEGLI, FSA, CSRS, FERS 
and TSP enrollments, and the associated requests for backup 
verification.
    Mortgage rates kept employment verifications coming in at a rapid 
pace, averaging over 100 per month. Unemployment verifications were 
especially high early in the year and remained constant throughout the 
year. Telephone inquiries, though not specifically tracked, continued 
at record levels.

                 DISBURSING OFFICE FINANCIAL MANAGEMENT

    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to process and 
pay expense vouchers within reasonable time frames, to produce an 
auditable consolidated financial statement for the Senate and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Deputy coordinates the activities of 
the three functional departments, establishes central financial 
policies and procedures, acts as the primary liaison to the Human 
Resources Administrator, and carries out the directives of the 
Financial Clerk and the Secretary of the Senate.

                         ACCOUNTING DEPARTMENT

    During fiscal year 2003, the Accounting Department approved nearly 
80,000 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member Offices. The number of vouchers that the Accounting Department 
approves decreased over fiscal year 2002 numbers due to the Senate 
Committee on Rules and Administration authorizing the Accounts Payable 
Department to sanction vouchers of $35 or less. General ledger 
maintenance also prompted the entry of thousands of adjustment entries 
that include all appropriation and allowance funding limitation 
transactions, all accounting cycle closing entries, and all non-voucher 
reimbursement transactions such as payroll adjustments, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement the new approval path for the Rules Committee's 
on-line sanctioning. During January 2003, the Accounting Department 
with assistance from our contractor, BearingPoint, completed the 2002 
year-end process to close and reset revenue, expense and budgetary 
general ledger accounts to zero. At the beginning of 2003 and during 
the month of June 2003, we successfully tested and implemented in 
Federal FAMIS the first two document purge processes. Further, the 
financial file rollover was performed to update FAMIS' tables and 
create the new index codes needed to accommodate data for fiscal year 
2004.
    The U.S. Department of the Treasury changed their end of month 
reporting deadlines for agencies twice during fiscal year 2003; from 
the 7th to the 5th business day and then from the 5th to the 3rd 
business day of the following month. The second change on the Treasury 
reporting deadline was a challenge for DOFM since the Senate's end of 
the month payroll is a paid on the 5th of the following month. In order 
to comply with this requirement, the Accounting Department, assisted by 
BearingPoint, tested and implemented a change in how and when payroll 
is reported with the non-payroll expenses. The changes to comply with 
Treasury's accelerated reporting requirement were implemented in July.
    The Department of the Treasury's monthly financial reporting 
requirements include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also on a monthly basis, 
the Statement of Transactions According to Appropriations, Fund and 
Receipt Accounts that summarizes all activity at the appropriation 
level of all monies disbursed by the Secretary of the Senate through 
the Financial Clerk of the Senate is reported to the Department of the 
Treasury. All activity by appropriation account is reconciled with the 
Department of the Treasury on a monthly and annual basis. The annual 
reconciliation of the Treasury Combined Statement is also used in the 
reporting to the Office of Management and Budget (OMB) as part of the 
submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare, to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan. Every month, all employee withholdings and 
agency contributions for life and health insurance, and federal 
retirement programs were transmitted to the Office of Personnel 
Management. Any adjustment to employee contributions for any of the 
health, life, and retirement plans from previous accounting periods 
were also processed. In April and October, the Accounting Department 
prepared the necessary reports and information to be included in the 
Report of the Secretary of the Senate. All organizations and 
appropriation accounts reported were validated 100 percent to the 
financial system.
    In addition to Treasury's external reporting deadlines there are 
some internal reporting requirements such as the monthly ledger 
statements for all Member offices and all other offices with payroll 
and non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. It is the 
responsibility of the Accounting Department to review and verify the 
accuracy of the statements before Senate-wide distribution.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, is working closely with the Sergeant at Arms' 
(SAA) Finance Department in completing all the corrective actions that 
resulted from the Pro-forma financial statements auditability 
assessment completed in April 2002. Based on the results of this 
exercise, 23 corrective actions were suggested including an action plan 
and proposed schedule to have them corrected within several years. Some 
of the actions were rather simple to implement while others will take 
additional time. Of the 23 corrective actions noted, 6 have been 
completed, 13 are in process, and 4 are still open. As part of this 
project, the Accounting Group drafted the Senate-wide capitalization 
policy which has been reviewed and agreed to by the SAA's Finance 
Department. The Accounting Group also drafted and finalized the travel 
advance and vendor file procedures documents. The Deputy for Financial 
Management is working closely with the SAA's Finance Department in the 
replacement and implementation of the new asset management system, 
Asset Center.
    On a consulting basis, the Deputy for Financial Management has been 
assisting the Senate Gift Shop with the implementation of their new 
accounting system. In addition, the Accounting Group has been working 
with the General Accounting Office (GAO) to provide them with expense 
vouchers and certificate of deposits documentation requested for the 
audits of all the Secretary of the Senate and Sergeant at Arms 
revolving funds.

                      ACCOUNTS PAYABLE DEPARTMENT

    During the Fall of 2003, the Accounts Payable Department was 
restructured and a third section was created to adequately attend to 
the needs of the Senate community. Currently, the A/P Department is 
made up of the following three sections: the Audit group, the 
Disbursement group and the newly created Vendor/SAVI group.

Accounts Payable Vendor/SAVI Section
    The Vendor/SAVI (Senate Automated Vendor Inquiry) group was newly 
created in the fall of 2003. This section is responsible for the prompt 
completion of service requests from within the Senate community for 
access to the Disbursing Office's new Web-based payment inquiry system 
called SAVI, the timely processing of expense voucher payments via 
paper check or ACH wire transfer and for training Senate staff on the 
proper usage of the SAVI Web based system. The section also assists the 
IT Department with daily monitoring of system performance and the 
testing of new SAVI system upgrades. Another major responsibility of 
this group is the daily maintenance of the Senate's central payee file, 
which currently has over 11,000 vendors. Daily requests for new or 
updated vendor addresses are promptly handled and processed within 24 
hours of being requested. The section is in the process of collecting 
ACH wire information on external vendors with the intention of 
reimbursing most vendors electronically instead of by paper check. 
Further, this section is working with the IT Department in the 
selection and testing of a new e-mail notification project to inform 
all external vendors via e-mail that an electronic reimbursement has 
occurred.
    As part of its objectives, this section started to scan the hard 
copy supporting documentation (vendor-supplied remittance instructions) 
for the entire payee file (starting with the most recent ones) on the 
DO network which will enable quick access to necessary information. 
Because of the size of the vendor file (over 11,000 vendors) and the 
usual daily work which must be completed, this scanning project is 
expected to take approximately a year to complete. Ultimately, scanning 
of vendor-supplied supporting documentation will become a routine part 
of file maintenance.

Accounts Payable Disbursements Department
    During 2003, two new staff members were hired and one staff member 
was transferred to the newly created Vendor/SAVI Department. The new 
department now handles all aspects of the FAMIS vendor file which was 
previously tasked to A/P Disbursements. In fact, 133,000 expense claims 
were received and processed by the department. Over 40,000 expense 
checks were written and approximately 25,000 direct deposit 
reimbursements were made.
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments.
    The Accounts Payable Disbursements Department distributes the 
monthly ledgers to the 160 accounting locations throughout the Senate. 
Once produced, they are delivered to Disbursing. They are then sorted 
and delivered or picked up according to a list of special instructions. 
The main objective of this process is to have each office receive their 
ledger statements by the 10th of the month.
    A/P Disbursements also prepares the quarterly state tax returns. 
The amounts are provided by the Accounting Department, and payment 
coupons are prepared for the 43 state jurisdictions. The coupons are 
obtained from each jurisdiction either in hard copy or on-line via the 
Internet. Vouchers are prepared electronically via an uploaded 
spreadsheet, which is used to generate check payments to the taxing 
authorities. Once the checks are written, letters of transmittal are 
prepared and mailed to the appropriate State jurisdictions and the 
District of Columbia.
    The Department also prepares the forms required by the Department 
of the Treasury for stop payments. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming non-receipt of expense checks. During this year, the 
A/P Disbursement Supervisor and the Accounts Payable Manager 
implemented the Department of the Treasury--Financial Management 
Service (FMS) on-line stop pay and check retrieval process known as 
PACER. The PACER system allows us to electronically submit stop-payment 
requests and provides on-line access to digital images of negotiated 
checks for viewing and printing. Once a check is viewed, it is printed 
and may be scanned. Scanned images are then forwarded to the 
appropriate accounting locations via e-mail. This process has been well 
received by Senate offices as well as vendors. This saves time and 
significantly reduces reliance on the postal system. The entire 
Accounts Payable Disbursements staff has Treasury secure ID cards and 
are being trained in the use of PACER. Given its time and money 
savings, as well as its overwhelmingly positive reception, large growth 
in the use of PACER is expected.
    Two major events have helped in centralizing the filing and storage 
of Accounts Payable and Accounting documents. First was new shelving 
which replaced file cabinets for all in-house filing. The documents are 
placed in side-tab folders which display their contents in an easy-to-
read format. The major benefit to the new shelving is space savings. 
The result is that what previously required over 20 feet of wall space, 
now requires a little less than 15 feet, a space savings of 25 percent. 
Second, the new shelving also allows us to keep a year's worth of 
vouchers in-house before sending them to our warehouse facility. 
Previously, only six months' worth of vouchers could be kept on hand.
    The warehousing of documents has improved and is still evolving. 
Vouchers were housed at two facilities, but now all have been 
transferred to a larger location, although there is need for expansion. 
Meetings with the Sergeant At Arms, consultants, and prospective 
vendors continue in an effort to provide state-of-the-art warehousing 
for the entire Senate. Such plans include current space requirements, 
future anticipated space requirements, and the need for ``staging'' 
areas, telephone, copier, and fax access, climate control, and 
security.

Accounts Payable Audit Department
    The third section under the Accounts Payable Department is the 
Audit Department. The Accounts Payable Audit Section is responsible for 
auditing vouchers and answering questions regarding voucher preparation 
and the permissibility of the expense, providing advice and 
recommendations on the discretionary use of funds by the various 
accounting locations, identifying duplicate payments submitted by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and assisting in the production of the Report of 
the Secretary of the Senate. During this year, the responsibility for 
the printing of the semiannual Report of the Secretary of the Senate 
was transferred from the retiring Assistant Financial Clerk to the 
Accounts Payable Manager. This Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Section, currently a group of 11, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. During the first months 
of the year, the Accounts Payable Audit Group had some staff turnover 
and new auditors were hired. The new audit staff is undergoing 
comprehensive training and the section processed approximately 133,000 
expense vouchers during fiscal year 2003. The voucher processing ranged 
in scope from providing interpretation of Senate rules, regulations and 
statute, applying the same to expense claims, monitoring of contracts 
and direct involvement with the Senate's central vendor file. On 
average and as long as the voucher does not have any issues or 
questions and the Audit Section is fully staffed, vouchers are 
received, audited, sanctioned by Rules and paid by DO within the 
required directive of 10 business days.
    During December 2002, the Chairman of the Committee on Rules and 
Administration, delegated the sanctioning authority of vouchers of $35 
or less to the Financial Clerk of the Senate. As a consequence, the 
workload within this group increased by 15 percent. These vouchers are 
sanctioned by the Certifying Accounts Payable Specialists and are being 
received, audited, and paid within 5 business days of receipt. The 
sanctioning authority was subsequently increased in 2003 from items 
totaling $35 and less to items valued at $100 and below. The increase 
in sanctioning authority came as a direct result of our passing two 
post-payment audits performed by the Rules Committee. This additional 
change increased the number of vouchers sanctioned by Audit to 57 
percent of all submitted vouchers.
    Additionally, advance documents and non-Contingent Fund items such 
as Legal Counsel and Legislative Counsel vouchers are now posted in 
Audit. The sanctioning responsibilities allowed for one staff promotion 
to Certifying Accounts Payable Specialist.
    The reduced flow of vouchers to the Rules Committee allowed us to 
proceed with their inclusion in the on-line sanctioning process. 
Initially, four Senators' offices and the Committees comprised the 
pilot group. Currently, all vouchers sanctioned by the Rules Committee 
through the Web-submit process are sanctioned on-line.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section was able to train 21 new Office Managers and 
Chief Clerks and conducted 5 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable group also assisted the IT department in the 
testing and implementation of the new travel advance reporting. The new 
travel advance reporting became effective in September 2002 and with 
this new process, travel advances are accounted for as obligations. The 
Accounts Payable Audit Group has been fully trained in the new travel 
advance system and in the use of the four new WEB inquiries. The group 
also participated in the SAVI (Senate Automated Vendor Information) 
system training to assist Senate staff with any questions related to 
their reimbursements paid either by ACH (Automated Clearing House) or 
by check. The creation of a Vendor/SAVI department allowed for a senior 
staff promotion out of Audit, and two new staff were hired to help fill 
the void caused by this promotion and one staff termination.
    A cancellation process was established for advances. This was 
necessary to ensure repayment of advances systematically for canceled 
or postponed travel in accordance with Senate Travel Regulations.

                           BUDGET DEPARTMENT

    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2003 the budget justification 
worksheets were mailed to the Senate accounting locations at the end of 
February. This deadline was much later than usual due to the late 
passage of the Legislative Branch Appropriations bill. This department 
is also responsible for the formulation, presentation and execution of 
the budget for the Senate and provides a wide range of analytical, 
technical and advisory functions related to the budget process. The 
Budget Department acts as the Budget Officer for the Office of the 
Secretary, assisting in the preparation of testimony for the hearings 
before the Committee on Appropriations and the Committee on Rules and 
Administration. The group is also responsible for reporting the budget 
baseline estimates that were developed for fiscal year 2004 to the 

Office of Management and Budget, via the MAX database.
                disbursing office information technology
                financial management information system
    The Disbursing Office Information Technology (IT) Department, 
currently operating with a staff of four, provides both functional and 
technical assistance for all Senate Financial Management activities. 
Activities revolve around support of the Senate's Financial Information 
System (FMIS) which is used by approximately 140 Senate accounting 
locations (i.e., 100 Senators' offices, 20 Committees, 20 Leadership 
and Support offices, and the Disbursing Office). Responsibilities 
include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities 
        and Continuation of Operations Plan (COOP).
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2003 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
BearingPoint.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. BearingPoint is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work co-operatively.
    Highlights of the year include:
  --Conducting 44 classes, seminars, and demonstrations on Web FMIS;
  --Implementation of three releases of Web FMIS and preparation for 
        two releases during 2004. One of these releases made the online 
        ESR function available to all offices and provided online 
        review and sanctioning capability to the Rules Committee Audit 
        staff;
  --Implementation of two releases of SAVI;
  --Implementation of a post payment audit for the Rules Committee 
        Audit staff whereby they can do a statistically valid sample of 
        vouchers of $35 and under for which sanctioning was delegated 
        to the Financial Clerk;
  --Pilot of direct deposit payments to external vendors;
  --Entering into a new multi-year contract with the FMIS support 
        vendor, BearingPoint;
    and Hiring a new Systems Administrator.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                                                                         SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
             Subsystem                                      Functionality                                       Source                         Primary Users                  Implementation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe).................  Financial general ledger.....................................  Off the shelf federal system     Disbursing Office..................  October 1998
                                    Vendor file                                                     purchased from BearingPoint.
                                    Administrative functions
                                    Security functions
ADPICS (Mainframe)................  Preparation of requisition, purchase order, voucher from       Off the shelf federal system     Sergeant at Arms...................  October 1998
                                     purchase order, and direct voucher documents.                  purchased from BearingPoint.    Disbursing Office
                                    Electronic document review functions                                                            Secretary of the Senate
                                    Administrative functions
Checkwriter (Client-server).......  Prints checks and check registers as well as ACH (Automated    Off the shelf state government   Disbursing Office..................  October 1998
                                     Clearing House) direct deposit payments.                       system purchased from and
                                                                                                    adapted to Senate's
                                                                                                    requirements by BearingPoint.
Web FMIS (Client-server and         Preparation of vouchers, travel advances, vouchers from        Custom software developed under  All Senators offices...............  October 1999
 intranet).                          advance documents, credit documents and simple commitment      Senate contract by              All Committee offices
                                     and obligation documents.                                      BearingPoint.                   All Leadership and Support offices
                                    Entry of detailed budget                                                                        Secretary of the Senate
                                    Reporting functions (described below)                                                           Sergeant at Arms
                                    Electronic document submission and review functions                                             Disbursing Office
                                    Administrative functions
FATS (PC-based)...................  Tracks travel advances and petty cash advances (available to   Developed by SAA Technology      Disbursing Office..................  Spring 1983
                                     Committees only).                                              Services.
                                    Tracks election cycle information
Post Payment Voucher Audit (PC-     Selects a random sample of vouchers for which sanctioning was  Excel spreadsheet developed by   Rules Committee....................  Spring 2003
 based).                             delegated to the Financial Clerk for the Rules Committee to    BearingPoint.                   Disbursing Office
                                     use in conducting a post payment audit.
SAVI (Intranet)...................  As currently implemented, provides self-service access (via    Off the shelf system purchased   Senate employees...................  Pilot--Spring 2002
                                     the Senate's intranet) to payment information for employees    from BearingPoint.                                                   Senate-wide--July 2002
                                     receiving reimbursements via direct deposit.
                                    Administrative functions
Online ESR (Intranet).............  A component of SAVI through which Senate employees can create  Custom software developed under  Senate employees...................  April 2003
                                     on-line Travel Expense Summary Reports and submit them         contract by BearingPoint.
                                     electronically to their Office Manager/Chief Clerk for
                                     processing.
Secretary's Report (Mainframe       Produces the Report of the Secretary of the Senate...........  Custom software developed under  Disbursing Office..................  Spring 1999
 extracts, crystal reports, and                                                                     contract by BearingPoint.
 client-server ``tool box'').
Ledger Statements (Mainframe        Produces monthly reports from FAMIS that are sent to all       Developed by SAA Technology      Disbursing Office..................  Winter 1999
 database extracts, and crystal      Senate ``accounting locations''.                               Services.                       Senate Accounting Locations
 reports).
Web FMIS Reports (mainframe         Produces a large number of reports from Web FMIS, FAMIS and    Custom software developed under  Senate Accounting Locations........  October 1999
 database extracts, crystal          ADPICS data at summary and detailed levels. Data is updated    contract by BearingPoint.
 reports, client server, and         as an overnight process and can be updated through an on-
 Intranet).                          line process by accounting locations.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Accounts Payable 
Disbursements, Vendor/SAVI, and Front Office Sections, and the Rules 
Committee Audit staff. The activities associated with this 
responsibility include:
  --User Support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Chiefs of Staff, 
        Office Managers, Chief Clerks, and Directors of various Senate 
        offices as requested;
  --Technical Problem Resolution--ensure that technical problems are 
        resolved;
  --Monitor System Performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintain user rights for all ADPICS, FAMIS, SAVI, and Web 
        FMIS users. In 2003, we added, deleted and changed user rights 
        for 94 ADPICS, FAMIS and 57 Web FMIS offices and other users as 
        requested by Senators and Chairmen.
  --System Administration--design, test and make entries to tables that 
        are intrinsic to the system. In 2003, this included making 
        changes to reflect Senate organizational changes for the 108th 
        Congress, establishing new offices, changing the Senate-wide 
        privately owned vehicle reimbursement rates, establishing and 
        testing new accounting transaction codes, and creating new 
        approval paths for vouchers of $100 or less;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities. During 2003, the following 
        activities were performed--Upload of files into FAMIS (e.g., 
        budgets, monthly certification charges, state office rental 
        vouchers), Year End Rollover (in March for Committee Funding 
        Resolution 66B, and in August for fiscal year 2004), Year End 
        Close, Document Purge, and Ad hoc queries; and
  --Training--provide functional training to all Senate FMIS users. 
        During 2003, the IT Department conducted 44 classes, seminars, 
        and demonstrations on Web FMIS. The class schedule is issued 
        every other month and the classes offered were:
    --1. Introduction to Web FMIS--conducted 12 times. This hands-on 
            class covers the basics of preparing, printing, and 
            submitting vouchers and travel vouchers, and managing your 
            inbox. Also covered are adding items to an office's lookup 
            tables (e.g., vendor and expense category), using search to 
            find records, and what information goes in the Unique 
            Invoice Number and Account Number fields.
    --2. Web FMIS Travel Class--conducted 15 times. The hands-on class 
            covers all aspects of travel vouchers from both the Office 
            Manager's and the traveler's perspective. It enables the 
            Office Manager or Chief Clerk to prepare travel advance 
            requests, create travel vouchers, create travel vouchers 
            from online ESRs using the Web FMIS import function, train 
            travelers to create on-line travel expense summary reports 
            (online ESRs), train travelers to track direct deposit 
            payments via SAVI; and perform the Web FMIS setup tasks 
            (e.g., establishing a traveler's profile, and establishing 
            office mileage rates). This class was created in 2003 with 
            the Senate-wide implementation of online ESR.
    --3. Web FMIS Budget and Reports Seminar--conducted 12 times. This 
            demo-style seminar covers how to enter and change an 
            office's budget, and how different budgets show on an 
            office's Summary of Financial Status Report. Several 
            budgets, from simple to complex are discussed, based on the 
            interests of the attendees. Also discussed are the on-line 
            reporting functions including refreshing report data and 
            exporting report data into another application (e.g., 
            Excel). In addition, we look in detail at the Analysis by 
            Vendor, Analysis by Expense Category, and Analysis by 
            Office Control Number Reports, at the Changed Document 
            Report, and other reports based on the interests of the 
            attendees.
    --4. Web FMIS Reconciliation Class--conducted 7 times. This hands-
            on class covers how to reconcile an office's Web FMIS 
            balance with the DO's balance on a monthly basis. Also 
            provided individual training sessions for 14 persons who 
            were unable to attend the scheduled class sessions.
    --5. Web FMIS Special Topics--conducted once. Occasionally a 
            ``special topics'' seminar covering different subjects is 
            held. In May the seminar topic was how to use commitments 
            and obligations. This seminar is offered at the points in 
            the year when offices are most likely trying to estimate 
            expenses through the end of the fiscal year.
    --6. User Demos--In advance of each Web FMIS release, a 
            demonstration is conducted at a Joint Office Manager/Chief 
            Clerks meeting of the new functionality included in the 
            release. The demo is repeated for those unable to attend 
            the meeting. For Web FMIS release 7.4, the material was 
            presented twice.

Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2003, the following 
components of this infrastructure were changed:
  --Mainframe hardware and software--Upgrade of the mainframe operating 
        system (OS390/2.10, including CICS and WebSphere upgrades) 
        required that the Disbursing Office extensively test all FMIS 
        subsystems both in a testing environment and in the production 
        environment. Additional testing, although less extensive, was 
        performed when the SAA activated the new Storage Area Network 
        facility (SAN), an essential component of the Alternate 
        Computing Facility;
  --TDF and DHF Partitioning--The Transaction Detail File and Document 
        Header File, which are subsidiary files to the General Ledger, 
        were split into logical divisions in order to improve system 
        performance, especially for inquiries. The IT staff and 
        Accounting section staff created documents and tested all FMIS 
        functions with the partitioned files before the production 
        files were partitioned.
  --Printing online via ``Reveal''--The DO's use of the ``Reveal'' 
        software, which prints reports to a file for online viewing 
        instead of a printer, was expanded to include the weekly 
        Appropriations Summary Reports. This allowed the elimination of 
        a dedicated printer in SH-144.

Managing and Testing New System Development
    During 2003, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online 
ESR; Post Payment Voucher Audit; and Checkwriter.
            Web FMIS
    Three releases of Web FMIS were done in 2003. Work was begun on two 
additional releases which will be implemented in 2004. These 
implemented in 2003 are:
  --Web FMIS r7.4.8.--This release in April 2003 made the import ESR 
        function available to all offices. This function allows Office 
        Managers to create travel vouchers from online ESRs that 
        travelers create in SAVI. This saves a significant amount of 
        time for Office Managers. Previously, this had been used by a 
        pilot of 10 offices. Additionally, this release included online 
        review and sanctioning capability for the Rules Committee Audit 
        staff. The Rules Committee staff elected to implement a pilot 
        of 23 offices (all Committees and Senators whose last name 
        begins with A) in order to become familiar with the software 
        and develop appropriate procedures. (As of January 1, 2004, the 
        Rules Committee staff implemented online review and sanctioning 
        of all Web FMIS vouchers via Web FMIS. This was implemented in 
        conjunction with an increase in the threshold for delegation of 
        sanctioning authority. In December 2002, the Rules Committee 
        Chairman delegated sanctioning authority to the Financial Clerk 
        for vouchers of $35 and less. Effective January 1, 2004, the 
        Rules Committee Chairman increased the threshold to $100.)
  --Web FMIS r7.4.9.--The July 2003 release focused on reports. The 
        most important change was reporting the total trip expense when 
        a travel advance was used. Additionally, several useful 
        formatting changes were made, including adding subtotals for 
        payroll and non-payroll to all of the ``summary'' reports.
  --Web FMIS r7.5.4.--The August 2003 release implemented new 
        underlying technology, including an upgrade to WebSphere 4.0, a 
        new version of mainframe CICS, and a new Cold Fusion server. It 
        included a few functional changes, the most important of which 
        was the ability to create budgets for the new fiscal year prior 
        to October 1 and without regard to whether funding has been 
        authorized. In addition, we created the files necessary for 
        fiscal year 2004. Making it possible for offices to work with 
        their budgets in August was a request from Web FMIS users. The 
        necessary system changes were implemented in this release and 
        the ``new year roll'' was done earlier than in past years. In 
        the future, the new year roll will also be in August.
    In addition, we began work on two projects scheduled for completion 
in 2004, development of Web FMIS ``thin client'' and Web FMIS Imaging 
and Signature Design, Electronic Invoicing and Remittance Enhancement. 
During 2003, a significant amount of staff time was spent to prepare 
for these releases. Activities included requirements analysis, planning 
and consultation with users.
  --Web FMIS ``thin client''.--There have been many functional releases 
        of Web FMIS, since it was implemented in October 1999. With 
        each release, the most appropriate technology available at the 
        time is selected. This has resulted in a complicated 
        architecture that has:
        1. Client/server components on a Cold Fusion server (e.g., 
            Document Entry and Budget Entry functions);
        2. Web components on a Cold Fusion server (e.g., Local list 
            maintenance functions and reports); and
        3. Web components on a WebSphere ``server'' on the Senate's 
            mainframe (e.g., the submit and on-line approval 
            functions).
      Under this project the functions that use Cold Fusion will be re-
        written to use WebSphere, eliminating two different 
        architectural components. This will be implemented in two 
        releases:
        1. Phase I--implemented in early March, 2004--Web FMIS r8--re-
            write the maintenance and administrative functions of Web 
            FMIS to use ``thin client'' technology, upgrade the 
            reporting function to use Crystal Reports version 9, which 
            is ``thin client,'' and revise the reporting function so 
            that it will continue to show data from closed fiscal years 
            (data that we would like to archive from FAMIS). Additional 
            functionality, previously developed but not implemented, 
            will be implemented in this release, the security paradigm 
            based on roles, and administrative contact screens that 
            consolidate information from several subsystems.
        2. Phase II--currently scheduled for August, 2004--Web FMIS 
            r9--re-write the remaining functions that use client-server 
            technology, including the functions most used by office Web 
            FMIS users (e.g., Main Menu, Document Entry, Budget Entry). 
            Additionally, this release will change notification of 
            documents requiring office action from an internal Web FMIS 
            function to e-mail, add a non-travel ESR in SAVI and modify 
            the ESR import function in Web FMIS.
  --Web FMIS Imaging and Digital Signature Design, Electronic Invoicing 
        and Remittance Enhancement.--As articulated in the FMS 
        Conceptual Design, the vision for the FMIS is for paperless 
        voucher processing. This requires implementation of electronic 
        signatures and imaging of supporting documentation. This 
        project begins the exploration of imaging and electronic 
        signatures and will result in a design for this functionality. 
        In addition, the plan is to explore, and if feasible implement, 
        the receipt of invoices electronically from large vendors. This 
        would eliminate the step of imaging paper invoices.
            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    The Online ESR, a subsystem of SAVI, enables Senate staff to 
complete an on-line Travel Expense Summary Report (ESR) and submit it 
so that their Office Manager can ``import'' the data and create a 
voucher, without retyping the ESR data. The April 2003 release of Web 
FMIS made the corresponding ``import'' ESR function available to all 
Office Managers. Office Managers in turn encouraged their staff to use 
the online ESR, thus substantially increasing the number of online ESR 
users.
    The SAVI system enables Senate staff to check the status of 
reimbursements, whether via check or direct deposit, and whether or not 
referencing an online ESR. In June 2003, a serious performance problem 
was encountered in SAVI. Web pages that normally took a few seconds to 
access suddenly required more than a minute. This was due to 
inefficient structure of a few ``calls.'' While they performed 
adequately during testing and during pilot use of SAVI the increased 
use of SAVI after the April 2003 release of Web FMIS highlighted this 
inefficiency. In less than two weeks, DO and BearingPoint staff 
identified the cause of the problem and developed, tested and installed 
the solution, SAVI release 2.02. No substantial performance problems 
have since been encountered.
    In October 2003, SAVI release 2.1 was implemented. This release 
included a number of security features, such as encryption of user 
passwords, removal of Social Security Numbers from the Oracle database, 
masking all but the last three digits of bank account numbers, and 
disabling unused/unnecessary services on the servers. In addition, work 
was conducted on SAVI release 2.2, which is scheduled for 
implementation in 2004, and will include some major functional 
enhancements, conversion to .NET (``dot net'') version of Visual Basic 
and several other security enhancements.
            Post payment Voucher Audit
    In December 2002, the Rules Committee delegated to the Financial 
Clerk the authority for sanctioning vouchers of $35 and less. This 
authorization directed Rules and DO to establish a set of procedures 
for a semi-annual audit of these vouchers. The two offices agreed that 
Rules would conduct a random sampling inspection of these vouchers 
based on industry statistical standards. Under the supervision of the 
IT Group, BearingPoint created tools to determine the sample size, to 
enable selecting the sample from the universe of vouchers of $35 and 
less, and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. The first audit was 
conducted in May 2003 for the six-month period ending March 31, 2003, 
covered 7,270 vouchers, and resulted in a favorable finding of zero 
discrepancies. The second audit was conducted in November 2003 for the 
six-month period ending September 30, 2003, covered 11,502 vouchers, 
and again resulted in a favorable finding of zero discrepancies.
            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check.
  --Direct Deposit.--In 2002 the Disbursing Office began making expense 
        reimbursements to Senate staff via direct deposit (i.e., ACH or 
        Automated Clearing House). In 2003 this was expanded to include 
        external vendors. The initial pilot vendors provided materials 
        to the Keeper of Stationery; and our first payments to them 
        were transmitted on June 3, 2003. After a very successful 
        initial pilot, it was expanded to larger-volume vendors such as 
        FedEx.
  --Laser Checks.--In five years of using the Checkwriter application, 
        it became clear that there are benefits in switching from 
        printing checks on a continuous-feed impact printer to printing 
        checks on a laser printer. The laser version will provide more 
        flexibility for continuance of operations by eliminating our 
        dependence on the harder-to-find printer. It will also produce 
        a higher print quality, which will help the postal service in 
        the delivery of checks. The higher quality print will also 
        prevent checks from being negotiated for an unintended dollar 
        amount. During 2003, the DO held numerous meetings with 
        Checkwriter's designer, BearingPoint, to establish new 
        specifications for the laser version. As a result, a new and 
        substantially different check proof has been established with 
        the Treasury Department. Additionally, the choice of folder/
        inserter machines to use with the laser check stock was 
        narrowed. Testing is currently underway for the implementation 
        of laser checks in 2004.

Planning
    There are two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2003, three meetings continued among the DO, SAA and 
BearingPoint to coordinate schedules and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings);
  --Technical Meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and BearingPoint to 
        discuss coordination among the active projects, including 
        scheduling activities and resolving issues; and
  --``Project Office''--a monthly meeting among senior Senate staff 
        (e.g.,the Financial Clerk, Rules Committee staff), the 
        BearingPoint engagement partner, SAA technical and functional 
        staff, DO IT and functional staff, and BearingPoint staff to 
        discuss progress on each project.
    With progress being made, the decision was made to move more 
activities from the project office meeting to the technical meeting, 
and by the end of 2003, the project office meeting was eliminated. In 
January 2004 one technical meeting is held each month as a joint 
technical/project office meeting.
            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives is the basis for the $5 million in multi-
year funds given to the Secretary's office by the Senate Committee on 
Appropriations for further work on the FMIS project. The five strategic 
initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        again occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.

Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 due to the retirement of the 
Assistant Financial Clerk. These responsibilities include developing 
the task orders with contractors and overseeing their work. In 2003, 
four new task orders were executed with BearingPoint:
  --Web FMIS Thin Client;
  --Web FMIS Imaging and Digital Signature Design and Electronic 
        Invoicing and Remittance Enhancements;
  --Additional Operational Support; and
  --Extended Operational Support (Sept. 2003--August 2004).
    In addition, in August 2003 a new multi-year contract with Bearing 
Point was negotiated and signed. This was a joint effort between the DO 
staff and the SAA procurement staff.

Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office.
            Office-wide LAN maintenance and upgrade
    Existing workstations were maintained with appropriate service 
patches, and security updates including:
  --Conducted Pre-Install meetings for the new DO SQL server--Worked 
        with the Senate support vendor to determine installation 
        strategy and procedures to properly prepare an SQL production 
        server;
  --Supervised DO SQL server installation--Ensured that system was 
        installed in accordance with all agreed upon requirements;
  --Installed SNAP servers--These devices provide an additional means 
        for LAN data backup;
  --LAN Planning--Began planning for the installation of a new LAN 
        server in 2004; and
  --Maintained our Office Information Authorization form log which 
        provides easy access from DO staff desktops to up-to-date 
        information about the authorized contacts for each Senate 
        office.
            Office-wide Technical Skills Improvement
    The Systems Administrator was tasked with improving the DO's 
efficiency with the use of available technology. One example of this 
improvement is how check inquires are processed. Prior to the 
implementation of existing technology, when an office requested 
information about negotiated checks, DO Accounts Payable Disbursements 
staff printed a copy of the front and back of the check via Treasury's 
Pacer system. Then the staff would mail these copies to the office. As 
a result of the training provided by the Systems Administrator, the DO 
staff scan the Pacer copy of the front and back of the check and attach 
the image to an e-mail message to the office, providing better and 
faster responses.
            Projects for the Accounts Payable and Accounting Sections
    The activities of the Accounts Payable and Accounting Sections were 
supported with the development of a Vendor Data Imaging process which 
consists of simple scanning procedures to capture and electronically 
store the paperwork associated with vendors.
            Projects for Payroll and Employee Benefits Sections
    Activities of the Payroll and Employee Benefits sections were 
supported with four specific projects:
  --Assisted in the development of the Payroll Imaging system, which 
        captures payroll documents turned in at the DO front counter 
        electronically, including ordering all required system 
        components. This system is still being implemented;
  --Maintained required software to enable the Employee Benefits 
        section to continue transmitting employee health plan 
        information electronically to the National Finance Center in 
        order to participate in the program called Centralized 
        Enrollment Clearinghouse System (CLER); and
  --Posted Revised Overtime Schedules for different work weeks along 
        with a generic time sheet on the DO website.
            Software for the Report of the Secretary of the Senate
    Several DO staff review and edit data for the Report of the 
Secretary of the Senate. This requires special software and 
dictionaries, with the following performed on this software:
  --Coordinated the update and installation of the ``Toolbox'' software 
        (provided by BearingPoint) on existing PCs;
  --Reviewed existing spell check dictionaries, and worked with 
        BearingPoint to make the required updates; and
  --Implemented procedures to ensure that dictionaries are maintained 
        after each reporting cycle.

Coordinating the Disbursing Office's Disaster Recovery Activities
    The DO's disaster recovery activities include two related 
activities:
  --Disaster Recovery Testing, participating in the computer system 
        disaster recovery tests conducted by the SAA; and
  --Coordinating the Continuation of Operations Plan (COOP), a broadly 
        focused activity, addressing all aspects of DO operations.
            Disaster Recovery Testing
    Since 1995, the SAA has contracted with an offsite contractor for 
backup services in case of a disaster affecting the Senate's main data 
center. The Senate's Payroll system and FMIS are included in this 
recovery process. Since the contract's inception, the Senate has tested 
its ability to restore systems and perform normal activities at least 
once, and often twice each year. Disbursing Office staff and SAA 
Procurement staff are active participants in the planning and execution 
of these tests. In a February 2003, exercise, the mainframe subsystems 
of FMIS (i.e., ADPICS and FAMIS) were tested successfully. Two critical 
subsystems, checkwriter and Web FMIS, were also tested with limited 
success. Due to time constraints, security for Web FMIS was bypassed 
and generating reports was not included in the test. In addition, 
because of the communications architecture, some ADPICS document prints 
(Purchase Orders and Vouchers) could not be created.
    Disaster Recovery Background.--Every night, data and software from 
the Senate's mainframe computer systems are backed up to a magnetic 
cartridge and taken to a secure off-site facility. In the event of a 
disaster in the SAA computing facilities at Postal Square, SAA 
technical staff would immediately arrange to have the data, software, 
and appropriate operating instructions forwarded from the off-site 
facility to one of the contractor's data centers. Senate staff would 
travel to this facility to oversee the restoration of all software and 
data on the contractor's computer. By contract, restoration would be 
complete within 24 hours and systems would then be available to users. 
The contracted-for facilities can currently support up to 48 concurrent 
Senate users.
    Disaster Recovery of the Payroll System.--Several key components 
are necessary for access to the payroll system after the restoration of 
data at the contractor's facility is complete. At least one terminal 
identification (term-ID) must be coded in the payroll system to allow 
CICS access because the payroll application has an internal security 
module that ties a user to a specific term-ID that controls user 
access. Another key component is FTP software that allows the movement 
of files from point to point.
    Most payroll payments are made via Direct Deposit to the Federal 
Reserve Bank using the Automated Clearing House (ACH). After the 
payroll system is closed-out for the payroll period, the SAA 
programmers provide an ACH data set which is transmitted to the Federal 
Reserve Bank in Atlanta, Georgia, via a specially configured PC 
containing an encryption board and a specialized modem. The DO also has 
an open-ended agreement with the Senate Federal Credit Union that 
allows the DO to transmit from their facility in Alexandria, Virginia. 
The Federal Reserve Bank of Atlanta must be notified prior to any 
transmission changes, but this agreement gives us the flexibility to 
transmit from an alternate access point in the event we encounter 
future transmission problems.
    Disaster Recovery for FMIS.--The DO has participated in disaster 
recovery testing of mainframe FMIS facilities since the system was 
implemented in October 1998. For the February 2003 test, DO and SAA 
Procurement staff tested the various modules of the mainframe 
application to ensure they were functioning correctly at the back-up 
site. Using workstations connected to the Senate's fiber network as 
well as laptop computers dialing into the offsite location, users have 
tested various types of document preparation and posting to FAMIS. In 
addition, batch report testing, and system inquiries into both the 
procurement and financial modules were tested. Finally, various batch 
processing tasks were tested to ensure that they perform as expected. 
In the February 2003 testing, these tests were completed 
satisfactorily. However, ADPICS printing of Purchase Orders and 
Vouchers does not work in the disaster recovery mode.
    Two components of FMIS, checkwriter and Web FMIS, were tested for 
the first time with limited success. Testing of the ``checkwriter'' 
process, which generates checks and/or direct deposits in payment to 
vendors, was tested successfully in the February 2003 exercise. The 
disaster recovery testing of Web FMIS was accomplished in the 2003 
effort. This testing required installation of additional hardware and 
software at the contractor's facility. In order to perform the testing 
in the available time frame, security had to be disabled and user 
requested reports were not generated. It was anticipated that problems 
associated with both will be resolved and tested satisfactorily in the 
future.
    Printing of ADPICS purchase orders and vouchers is still not 
possible with the current disaster recovery communications 
infrastructure of ``dial-up'' lines. Workaround facilities or a revised 
infrastructure have not been finalized for this functionality. As a 
result, entities that prepare ADPICS purchase orders and vouchers, 
primarily the Secretary of the Senate and the SAA, would not be able to 
print these documents in the event of a disaster. The proposed 
Alternate Computer Facility should have more advanced infrastructure, 
allowing for the printing of these documents.
            Coordinating COOP
    The DO staff wrote a Continuation of Operations Plan (COOP) in 
2001. This document addresses issues beyond the scope of disaster 
recovery. Normal maintenance is performed on this document to ensure 
that it remains up-to-date and viable.

                         ADMINISTRATIVE OFFICES

                    1. CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This office's initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 110 books and matted and framed 515 items for the Senate 
Leadership. The office is especially proud to be a part of a Senate 
tradition. For more than 22 years, the office has bound a copy of 
Washington's Farewell Address for the annual Washington's Farewell 
Address ceremony. In 2003, a volume was bound and read by Senator Saxby 
Chambliss.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continued to conduct an 
annual treatment of books identified by the survey in need of 
conservation or repair. In 2003, conservation treatments were completed 
for 112 volumes of a 7,000 volume collection of House Hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 4,165 volumes.
    This office assisted the Senate Library with 578 books sent to the 
Library Binding section of the Government Printing Office for binding. 
The Office of Conservation and Preservation also worked with the Senate 
Library on four exhibits located in the Senate Russell building 
basement corridor.
    This office continues to serve Senate offices with conservation and 
preservation of documents, books, and various other items. The office 
is currently monitoring the temperature and humidity in the Senate 
Library, the vault, and the warehouse for preservation and conservation 
purposes, and plans to phase 15 antique books for box conservation for 
storage as well as cross-train a Senate Library staff member to repair 
Senate Library materials.

                               2. CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
architectural features; and exercises supervisory responsibility for 
the chambers in the Capitol under the jurisdiction of the Commission. 
Through exhibitions, publications, and other programs, the Office 
educates the public about the Senate and its collections.
Collections: Commissions, Acquisitions, and Management
    Several important commissioned portraits are currently in progress, 
including paintings of Senators Bob Dole and George Mitchell for the 
Senate Leadership Portrait Collection; Senators Arthur Vandenberg and 
Robert Wagner for the Senate Reception Room; and Senator Margaret Chase 
Smith. The Vandenberg, Wagner, and Smith portraits are scheduled to be 
completed and unveiled in 2004.
    The marble bust of Vice President Quayle was unveiled last 
September. The sculpture was added to the Senate's Vice Presidential 
Bust Collection and installed on the second floor outside the Senate 
Chamber. The Curator's Office also installed a painted canvas state 
seal of Kentucky in the Majority Whip's Office.
    Thirteen objects were accessioned into the Senate Collection this 
year. Objects of note include two porcelain Senate Restaurant plates 
dating to the early 20th century; a rare cigar label from the mid-
1800's depicting Senators Webster, Clay and Calhoun; an historic 
lithograph of George Washington by Rembrandt Peale based on the 
Senate's well-known Patri' Pater painting; as well as several historic 
prints and political cartoons.
    Thirteen new foreign gifts were reported to the Select Committee on 
Ethics and transferred to the Curator's Office. They were catalogued, 
and are maintained by the office in accordance with the Foreign Gifts 
and Decorations Act.
    In response to work on the Capitol Visitor Center (CVC) and other 
projects, the Curator's Office worked with the Architect of the Capitol 
(AOC) to relocate several sculptures in the Capitol. The marble bust of 
Constantino Brumidi was moved to accommodate the restoration efforts in 
the Brumidi Corridors; while the three marble patriot busts in the 
Senate Vestibule and the sculpture of Justice and History were 
relocated to accommodate CVC construction. Due to the size and fragile 
nature of Justice and History, a conservator was contracted to assist 
with the move, and later cleaned and reattached the two pieces in the 
sculpture's new location.
    The 2002 project to professionally photograph the Senate's 
approximately 1,000 historic prints was completed. One set of 
transparencies will be stored off-site for emergency purposes, while a 
second working set will be used for image requests, future 
publications, and new web site postings.
    The office also undertook a new initiative to photograph the 102 
historic Senate Chamber desks (one hundred on the Senate floor and two 
in storage). A contract was awarded to photograph the exterior of each 
desk, as well as the interior desk drawer. The project is phased to 
coincide with the conservation of the desks; a total of 20 desks were 
photographed in 2003, and the project will be completed in 2008. One 
set of transparencies will be stored off-site for emergency 
preparedness, while a second working set will be used for the website, 
image requests, and future publications.
    In keeping with the inventory schedule established by the 
Registration department last year, all prints, drawings, and 
advertising images in collection storage were inventoried in 2003. 
Additionally, all objects on display in the Capitol and Senate Office 
Buildings were inventoried to verify that no changes in location or 
condition occurred in the past year.
Conservation and Restoration
    A total of 19 objects received conservation treatment in 2003. 
These included 15 Senate Chamber desks, a portrait frame and canvas, a 
1909 Russell Senate Office Building partner desk, and two historic ship 
models.
    The initiative to conserve each of the 100 historic Senate Chamber 
desks began in 1999 at the direction of the Senate Commission on Art. 
Twice a year, during Senate recess periods, desks are removed from the 
Senate Chamber and sent out for restoration. Treatment is extensive, 
and follows a detailed protocol developed to address the wear and 
degradation of these historic desks due to continued heavy use. To 
date, 76 desks have been restored and the project is on track to be 
completed in 2005. This year a condition survey of the desks already 
treated was completed. The survey found the desks in good overall 
condition. The survey noted that the Senate Cabinet shop should 
complete the installation of rubber bumpers to the arms of the Senate 
Chamber chairs to protect the front of the desks from damage.
    The gilt frame for the portrait of Pocahontas received conservation 
treatment. While removing the frame from the painting, it was 
discovered that a small section of the canvas had adhered to the liner 
of the frame as a result of a previous conservation treatment. A 
painting conservator separated the frame and painting and performed 
minor conservation treatment to clean, repair, and protect the surface 
of the painting.
    The office of Senate Curator is studying the possibility of 
conserving the canvas and frame for the painting George Washington by 
Gilbert Stuart.
    An historic partner desk, part of the original suite of furniture 
purchased for the Senate Russell Office Building in 1909 and now 
assigned to the Republican Leadership suite, was refinished according 
to a detailed protocol treatment that restores the original type of 
finish and appearance to the Russell Office Building furniture.
    Major renovation of the Rules Committee Hearing Room in the Senate 
Russell Office Building provided the opportunity for conservation 
treatment of two historic ship models in the room. The ships, one 
representing the U.S. Constitution and the other the Santa Maria, are 
part of the original 1913 decorative scheme for the room when it served 
as the Foreign Relations Committee Room. The ships were removed and 
examined by a conservator. Extensive cleaning was necessary, as well as 
repairs to the rigging, sails, and other small associated details.
    The Collections Manager participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol. 
The Curator's staff also continued to educate the housekeeping 
personnel on maintenance issues related to the fine and decorative arts 
collections.
Historic Preservation
    Over the past year the preservation program continued to develop 
the infrastructure systems necessary to support all levels of 
preservation activities. Efforts focused on research (archival and 
physical investigations), documentation, record keeping, and project 
oversight.
    Research projects, in response to Senators' requests, produced room 
histories and chronologies for individual architectural features, some 
of which involved fabric analysis and condition assessments. The office 
initiated documentation projects to capture physical changes of a space 
or object, and to catalogue existing architectural elements through 
surveys. These research and documentation projects, aside from 
contributing to the office's architectural knowledge, provided a forum 
for developing and refining standards for information collection and 
reporting. In addition, various record keeping systems were established 
in order to house the findings, including relational FileMaker Pro 
databases and traditional files. Such systems allow the office to 
easily store and access information, and will continue to evolve as the 
preservation department expands its research, documentation, and 
oversight purview.
    The most significant research-related projects included the 
completion of an historic structures report (HSR) for the Senate 
Reception Room, and the creation of a collections guide to local 
archives. The HSR employed a standard format and will served as a model 
for all future HSR's. Based on this effort, the office worked with the 
AOC to develop a project for an HSR for the Senate vestibule, adjacent 
stairwell, and small Senate rotunda. Regarding the collections guide, 
the office initiated a program of systematic review of all relevant 
local research collections for the purpose of informing future research 
efforts. Through this undertaking, collection content is recorded, all 
crucial materials are copied, and the research path is clearly 
documented.
    Along with establishing internal procedures, the office worked in 
partnership with the AOC and the Sergeant at Arms to monitor all 
relevant Senate side projects and to provide guidance on those with 
potential to impact historic resources. Projects requiring considerable 
time and attention included creation of S-125A in the Brumidi 
Corridors; continued conservation of the Brumidi Corridor walls; 
initiation of a shutter restoration program; development of a plaster 
stability testing project; installation of escape mask hood storage 
units; rehabilitation of the Republican Leadership suite; and 
completion of the rehabilitation of the Democratic Leadership suite.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during three Senate recesses (August, October, and December), the 
historic room was opened to Capitol Guide and staff-led tours. Thirty-
eight requests were received from current Members of Congress for 
after-hours access to the chamber. Of special significance was the re-
enactment swearing-in ceremony for the newly-elected Senators of the 
108th Congress. Thirty-one requests were received by current Members of 
Congress for admittance to the Old Supreme Court Chamber after-hours. 
The office also worked with the AOC to install an electric lift outside 
the Old Court for the use of disabled visitors. The lift was necessary 
due to CVC construction and related accessibility issues.
Loans To and From the Collection
    A total of 69 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate Leadership and officials 
within the Capitol. Throughout 2003, the Curator's staff returned seven 
objects at the expiration of their loan periods to their respective 
owners. At the request of the Republican Leadership, 12 new paintings 
were borrowed this year.
    Of significance was the office's success in locating and securing a 
loan of an historic chair originally presented to Vice President 
Charles Curtis. The chair, which reflects Curtis's Native American 
heritage, is on indefinite loan to the Senate from an anonymous lender.
    The Curator's Office continued to work with CVC staff to assemble 
information on Senate Collection objects under consideration for loan 
to the exhibition in the main gallery of the CVC.
    The Secretary's china was distributed and returned three times in 
2003. The official Senate china was inventoried and used at 34 
receptions for distinguished guests, both foreign and domestic.
Publications and Exhibitions
    This summer the Office of Senate Curator teamed with the Government 
Printing Office to supervise the printing of the United States Senate 
Catalogue of Fine Art. The book marks the first time in its more than 
200-year history that the Senate has showcased its entire collection of 
paintings and sculpture in a publication. Using full-page color images 
and historic photographs, the book provides detailed information on 
both the subject and artist for 160 works of fine art, and is a 
significant resource for those interested in the history of the Senate 
and the heritage of its art. Advance copies of the publication were 
distributed to congressional offices in October, and additional copies 
will be available in 2004. Several brochures were reprinted, and one 
new brochure was published, The United States Capitol, Room S-219.
    The interactive exhibit Take the Puck Challenge! was deinstalled 
after a 5-year run. The office is continuing to work with the Architect 
of the Capitol to develop and install the second phase of the 
Constantino Brumidi exhibit. The Senate Cabinet shop is constructing 
exhibit kiosks to display informational panels for the paintings George 
Washington at Princeton and The Recall of Columbus.
    The Curator's office completed final drafts for the Senate 
Appropriations Committee Room and Isaac Bassett. These drafts have been 
submitted to the Appropriations Committee and the Secretary for final 
review.
    In early 2004, funding was approved to develop internet sites on 
the political cartoons of Puck and the drawings of Lily Spandorf.
Policies and Procedures
    This year saw the passage of important legislation related to the 
Commission on Art, Public Law 108-83, the Legislative Appropriations 
Act of 2004, with several important technical amendments to the 
Commission's enabling legislation, including a provision to permit the 
Commission to impanel advisory boards, and the establishment of the 
Senate Preservation Fund. It also created a Curatorial Advisory Board, 
which will greatly enhance the Commission's ability to care for the 
Senate's collections and to evaluate potential acquisitions on behalf 
of the Senate. Such a board will be composed of respected scholars and 
curators who will assist in the development of policies and procedures, 
and will review important acquisitions to ensure appropriateness and 
validity.
    The office also created several important procedural documents in 
2003. These included standard procedures for portrait unveilings and 
foreign gifts disposition. In response to recent Senate activities, the 
office developed formal guidelines for adding or removing applied and 
fixed fine art in the Senate. The guidelines call for the creation of 
parameters for each space where art has or could be applied, and the 
office developed parameters for the Brumidi Corridors and the Senate 
Reception Room. The guidelines are currently under review. The office 
also assisted in the development of standard contract procedures that 
will be used throughout the Secretary's offices in an effort to 
standardize and safeguard the contracting process.
    Progress continued on a definitive Collections Management Policy. 
The new Curatorial Advisory Board will review the document, which will 
be presented to the Commission on Art. A first draft of the Commission 
on Art's collections management policy has been completed with peer 
review expected in 2004.
Collaborations, Educational Programs, And Events
    As part of the seminar series conducted under the auspices of the 
Secretary of the Senate and the Sergeant at Arms, the Curator's staff 
continued to deliver periodic addresses on various aspects of the 
Senate's art and history. Staff conducted or assisted with several 
sessions, including ``Congress and the Capitol: Tour Guide Series'' and 
``The Vice Presidential Bust Collection.''
    The office contributed numerous articles to Unum, the Secretary of 
the Senate's newsletter. Along with regular features, a new series 
highlights art from the country's four geographic regions.
Office Administration
    The Curator's Office continued to improve office safety and 
emergency procedures. Practice evacuation drills were conducted 
monthly. The office purchased a digital camera for its COOP plan, and 
performed routine updates of COOP documents. The collection object 
files are the primary legal title, research, and management records for 
all art and historical objects in the Senate's collections. Microfiche 
and digital copies of these records will be stored off-site for 
disaster recovery and archival purposes. Additional copies will be used 
on-site for research and public information in order to lessen the 
handling and damage to the original paper records. In this way, these 
unique historical records will be preserved for future generations in 
case of disaster.
    Planning continued with AOC staff regarding both additional storage 
space in the Capitol complex and related construction outside the 
Curator's two archival storage rooms on the fourth floor of the 
Capitol. To ensure that the additional space meets the Curator's needs 
for both temporary and long-term storage for works of art and 
historical objects, a variety of considerations were addressed, 
including access, security, fire prevention, and environmental 
controls. The office worked closely with the AOC to ensure the safety 
and accessibility of these spaces during construction. At the same 
time, as part of a larger security system upgrade for the Capitol, the 
Physical Security Division coordinated replacement of the alarm systems 
for the storage rooms.
    On behalf of the Sergeant at Arms, the Government Services 
Administration (GSA) signed a three year lease with a contractor to 
provide secure, climate controlled, museum quality storage for objects 
in the Senate Collection that are not displayed and cannot be 
accommodated in the storage rooms on the fourth floor. The office 
subsequently relocated 70 objects to the new storage facility, 
primarily historical furniture, rugs, and decorative arts.
    In addition to fulfilling storage requirements, the fourth floor 
construction included renovation of the Curator's space. The changes 
have greatly improved operational efficiency and staff workspace.
Automation
    With the assistance of a consultant, the Senate Collection database 
was restructured and is now configured as a true relational database, a 
feature that will streamline data entry, enhance data recovery and use, 
and facilitate overall maintenance. In addition, data entry screens are 
better organized and more user friendly. Additionally, some staff in 
the office upgraded to a new version of FileMaker Pro 6. This version 
is compatible with XML and already has enabled the Senate website 
information to be updated directly from the collections database.
    In response to a new initiative to publish a catalogue on the 
Senate's historic prints and engravings, clean-up of data related to 
almost 1,000 graphic images began. The Registrar and Associate 
Registrar were tasked with confirming the accuracy and completeness of 
data for the requisite fields in the database which will provide the 
basis of the identification information for the objects in the 
catalogue. In order for this to occur most effectively, each print was 
viewed and its information compared with the data that appears in the 
automated database.
    The office published an exhibit, ``Women in Senate Art,''on the 
Senate web site. This collection of paintings and sculptures 
illustrates the role of women artists in the Senate Collection, as well 
as highlights the women depicted in Senate art. The office also posted 
PDF versions of many of its publications to the web site.
Objectives for 2004
    Conservation and preservation concerns continue to be a priority. 
Projects in 2004 will include the restoration of 15 Senate Chamber 
desks and restoration of an historic mirror in the Capitol. 
Investigation will be carried out to identify appropriate expertise and 
direction for conservation of the painting and frame for a portrait of 
George Washington by Gilbert Stuart, the First Reading of the 
Emancipation Proclamation by F.B. Carpenter, and an historic globe from 
the Senate Rules Committee Hearing Room.
    The office, through the Commission on Art, will be responsible for 
commissioning a new painting. S. Res. 177 directs the Commission on Art 
to commission by the end of the session a scene commemorating the 
Connecticut Compromise for display in the Senate.
    The office will develop regulations, guidelines, and authorities 
for administration of the Senate Preservation Fund and associated 
boards. The Curatorial Advisory Board will be furthered; any additional 
boards that the Commission deems are needed will be established; and a 
plan for the Preservation Fund developed.
    In compliance with S. Res. 178 directing the Senate Commission on 
Art to update every six months a list of art and historic furnishings, 
the office will work closely with the SAA and Senate Superintendent to 
coordinate and submit a complete inventory to the Rules Committee.
    Appropriate disposition of objects in the foreign gift collection 
will be a priority. The office has established procedures for reviewing 
and processing foreign gifts that will allow for quicker transfer of 
objects and alleviate storage issues.
    Microfiching of the fine art collection files and microfilming of 
the Isaac Bassett papers will proceed. The office will continue with 
the photography of the Senate Chamber desks. Clean-up of the historic 
print and engraving data will be a high priority.
    The next major publication will be a catalogue on the Senate's 
graphic art collection. Similar in style to the recent fine art 
catalogue, the United States Senate Catalogue of Graphic Art will 
highlight the approximately 1,000 prints in the collection along with 
essays by the Senate Curator and Associate Senate Historian. Other 
publications scheduled for 2004 include: Bassett: The Venerable 
Doorkeeper, presenting the career of Isaac Bassett and reproducing 
passages from his papers, and a brochure on the Appropriations 
Committee Room.
    The office will begin installing information panels for important 
Senate artworks, and standard labels for all fine art work will be 
developed.
    New internet exhibits will include sites on the Senate Chamber 
desks, Isaac Bassett, and the United States Senate Catalogue of Fine 
Art. The office also plans to begin publishing its historic engravings 
on the web, opening that entire collection to public view for the first 
time.
    Regarding the Senate Preservation Program, the office will expand 
its knowledge of architectural history through research and 
documentation. The office will move forward on historic structures 
reports for the Vice President's Room, Marble Room, and President's 
Room, and work with the AOC on an HSR for the Senate Vestibule and 
small Senate Rotunda. In the area of physical preservation, the office 
will continue project oversight and documentation, and will move into 
project development by identifying appropriate preservation treatments 
and sequential tasks for the Senate Reception Room and S-238. In 
conjunction with the AOC, the office will follow the existing AOC 
project development procedure to accomplish the preservation goals for 
these spaces.

               3. JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff both in 
Washington D.C. and the states. There are three branches within the 
department. The technical training branch is responsible for providing 
technical training support for approved software packages. This staff 
provides instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training, computer based training; and 
informal training and support services. The professional training 
branch offers courses for all Senate staff in areas including 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and four 
blood drives each year.
Training Classes
    The Joint Office of Education and Training offered 694 classes in 
2003 with 6,916 Senate employees participating. The registration desk 
handled 15,390 requests for training and documentation.
    Of the above total, in the Technical Training area, 335 classes 
were held with a total attendance of 1,799 students. An additional 
1,126 staff received coaching on various software packages and other 
computer related issues. Training was provided to virtually the entire 
Senate community as the new Senate Mail Infrastructure was rolled out 
through the year.
    In the Professional Development area 359 classes were held with a 
total attendance of 5,117 students. Individual managers and supervisors 
were also encouraged to request customized training for their offices 
on areas of need.
    The Office of Education and Training is available to work with 
offices on issues related to team performance, communication or 
conflict resolution. During 2003, 40 requests for special training or 
team building were met. Professional development staff also traveled to 
State offices to conduct specialized training/team building during the 
year.
    In the Health Promotion area, 774 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,300 staff participated in the 
Annual Health Fair held in October.
    The Office of Education and Training also works with the Office of 
Security and Emergency Preparedness to provide security training for 
Senate staff. In 2003 the office coordinated 23 sessions of Escape Hood 
Training for 1,359 Senate staff. The office also worked with the Office 
of Security and Emergency Preparedness to mount a safety and security 
curriculum, comprised of numerous topics related to security and 
emergency preparedness.
State Training
    Since most of the classes offered are only practical for 
Washington, D.C. based staff, the Office of Education and Training 
continues to offer the ``State Training Fair'' which first began in 
March 2000. In 2003, three sessions of this program were offered to 
state staff. There were 134 state staff participants. This office also 
offered a State Directors Forum for the first time. This program was 
designed specifically for the senior leaders in the Senators' state 
offices. There were 42 participants. The office continues to offer 
``Virtual Classroom,'' which is an internet based training library of 
300+ courses. To date, 164 state office staff representing 59 Senators 
are using this training option.

                    4. CHIEF COUNSEL FOR EMPLOYMENT

Background
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of 11 
employment laws. The SCCE is charged with all legal defense of Senate 
offices in all employment law cases at both the administrative and 
court levels. Also, on a day-to-day basis, the office provides legal 
advice to Senate offices about their obligations under employment laws. 
Accordingly, each of the 180 offices of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: Litigation (Defending Senate Offices in Federal 
Court); Mediations to Resolve Lawsuits; Court-Ordered Alternative 
Dispute Resolutions; Preventive Legal Advice; Union Drives, 
Negotiations and Unfair Labor Practice Charges; OSHA/Americans With 
Disability Act (``ADA'') Compliance; Layoffs and Office Closings In 
Compliance With the Law; and Management Training Regarding Legal 
Responsibilities.

Litigation, Mediations, Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handled all work in 2003 
internally without the assistance of outside attorneys.

Union Drives, Negotiations And Unfair Labor Practice Charges
    In 2003, the SCCE handled one union drive. The Office did the 
following with respect to the union drive: trained managers and 
supervisors regarding their legal obligations during a union campaign, 
advised the client in selecting its representatives for the election, 
conducted training sessions for the employer representatives regarding 
improper conduct at elections, and conducted an investigation to 
determine whether ground rules exist to challenge the election results.

OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices in 
complying with the applicable OSHA and ADA regulations; representing 
them during Office of Compliance inspections; advising State offices on 
the preparation of the Office of Compliance's Home State OSHA/ADA 
Inspection Questionnaires; assisting offices in the preparation of 
Emergency Action Plans; and advising and representing Senate offices 
when a complaint of an OSHA violation has been filed with the Office of 
Compliance or when a citation has been issued. In 2003, the SCCE 
handled 5 OSHA complaint procedures.

Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws. In 2003, the SCCE 
gave 75 legal seminars to Senate offices. Among the topics covered 
were:
  --Preventing and Addressing Sexual Harassment in the Workplace;
  --The Congressional Accountability Act of 1995: What Managers Need to 
        Know About Their Legal Obligations;
  --Managers' Obligations Under the Family and Medical Leave Act;
  --The Legal Pitfalls of Hiring the Right Employee: Advertising, 
        Interviewing, Drug Testing and Background Checks;
  --Disciplining, Evaluating and Terminating an Employee Without 
        Violating Employment Laws;
  --Management's Obligations Under the Americans With Disabilities Act;
  --Equal Pay for Equal Work: Management's Obligations Under the Equal 
        Pay Act;
  --The Immigration Reform and Control Act of 1986 (IRCA): Steps Your 
        Office Must Take to Verify Employment Eligibility;
  --Enhancing Diversity and Avoiding Discrimination in the Workplace; 
        and
  --Workplace Violence.

Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Administrative Directors, Office Managers, Staff Directors, Chief 
Clerks and General Counsels at their request. The purpose is to prevent 
litigation and to minimize liability in the event of litigation. For 
example, on a daily basis, the SCCE advises Senate offices on matters 
such as disciplining and terminating employees in compliance with the 
law, handling and investigating sexual harassment complaints, 
accommodating the disabled, determining wage law requirements, meeting 
the requirements of the Family and Medical Leave Act, and management's 
rights and obligations under union laws and OSHA.

                          5. SENATE GIFT SHOP

    Pursuant to 2 U.S.C. 121(d), the Senate Gift Shop was established 
in 1992 under administrative direction and supervision of the Secretary 
of the Senate. With each successive year since its establishment, the 
Senate Gift Shop has continued to provide outstanding products and 
services that maintain the integrity of the Senate as well as increase 
the public's awareness of the mission and history of the U.S. Senate. 
The Gift Shop provides services to Senators, staff and employees of the 
Senate, as well as constituents, and the many visitors to the U.S. 
Capitol complex. Products include a wide variety of souvenirs, 
collectibles, and fine gift items created exclusively for the U.S. 
Senate. Services include special ordering of personalized products and 
hard-to-find items, custom framing, gold embossing, engraving, and 
shipping. Additional special services include the distribution of 
educational materials to tourists and constituents visiting the Capitol 
Building and Senate Office Buildings.

Facilities
    For several years, the services offered by the Senate Gift Shop 
were over-the-counter sales to walk-in customers at a single location. 
Today, after more than ten years in operation, and as a result of 
extended services and continued growth, the Gift Shop now provides 
service from three different locations. Services from these locations 
include walk-in sales, telephone orders, fax orders, mail orders, and a 
variety of special order and catalog sales.

Sales Activity
    The Senate Gift Shop recorded sales of $1,516,594.88 for fiscal 
year 2003. Cost of goods sold during this same period were 
$1,114,899.59, accounting for a gross profit of $360,172.97. Records 
show total sales in fiscal year 2002 were $1,418,065.88. This 
represents an increase in sales of $98,529.00 from fiscal year 2002 to 
fiscal year 2003.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2003, the balance in the revolving fund was $1,109,717.22 
with on-hand inventory valued at $2,304,772.88.
    A General Accounting Office (GAO) audit of the gift shop's fiscal 
year 2002 sales transactions, requested by the Secretary, is in 
progress and will be completed this year.

Additional Activity
    One of the most important objectives for 2003 was replacing point-
of-sale and accounting software, Basic Four, which is more than 20 
years old and no longer meets the increasingly unique needs of the Gift 
Shop. (This old application was shared with the Stationery Room). A 
contractor was selected to perform the system installation including 
the required hardware for the new retail and financial management 
system. The contract is nearing completion and cut-over to the new 
system occurred in February 2004. The system is now in an acceptance 
stage to ensure that all aspects are functioning properly.
    The selected software package, Microsoft Retail Management Systems: 
Headquarters, Store Operations and Great Plains Financial, was 
purchased in late 2002. It is an off-the-shelf package that requires 
little modification to meet the special technical requirements of 
Senate Gift Shop operations. Currently, Gift Shop staff are creating 
the necessary databases that will serve as the foundation for the new 
retail system including inventory details, financial data and other 
information required for detailed reports. Contractors are now training 
Gift Shop staff on the new system and will continue to provide hardware 
and software support after the cut-over date.
    The installation of the required hardware--servers, computers, 
monitors, and point of sale terminals--and software, is mostly 
complete. The majority of hardware and software along with the support 
services necessary for full implementation of the new system were 
funded through fiscal year 2003 appropriations allocated to the 
Secretary of the Senate. A few additional items, i.e., application user 
fees, required funds which were appropriated in fiscal year 2004.
    It is important to note that the new system will not only meet the 
Gift Shop's current and near-future requirements, but it will also 
accommodate potential add-on features.

Accomplishments and New Products in 2003
            Official Congressional Holiday Ornaments
    In 2003 the Senate Gift Shop introduced the second ornament in the 
2002-2005 series, the third consecutive ``four-year ornament series.'' 
Each ornament features an architectural milestone of the Capitol 
building and is packaged with corresponding historical text taken from 
the book, History of the United States Capitol: A Chronicle of Design, 
Construction, and Politics by William C. Allen, architectural historian 
in the office of the Architect of the Capitol.
    Our 11th annual ornament, released in 2003, pictures a watercolor 
of the Capitol as it appeared in 1834 as depicted by New York architect 
Alexander Jackson Davis. In keeping with a Gift Shop tradition, the 
authentic colors of the original watercolor were reproduced onto a 
white porcelain stone and set with a brass frame finished in 24kt gold.
    Holiday sales of the 2003 ornament were very good with additional 
sales expected throughout 2004. Revenue from selling nearly 35,000 of 
these ornaments has generated more than $40,000 in scholarship funds 
for the Senate Child Care Center.
            Porcelain ``Legislation'' Box
    ``Legislation'' was the second in a series of four porcelain boxes 
that displays different images from the Constantino Brumidi fresco 
painted on the ceiling of the President's Room in the Senate Wing of 
the United States Capitol. The first box in the series, ``Liberty'' was 
released in 2002. Each of the final two porcelain boxes will display 
one of the two remaining allegorical figures, Executive and Religion, 
in Brumidi's painting. The boxes will be released in late 2004 and late 
2005, respectively.
            Capitol Visitor Center (CVC) Coin Products
    To better promote the CVC and to better showcase the CVC coins, the 
Gift Shop incorporated coins into a variety of unique gift items. While 
we have noticed an increase in coin sales due to the creation of these 
items, we do not anticipate any substantial reduction of inventory 
until the actual opening of the CVC. The items developed to date 
include:
  --CVC coins encased in Lucite paperweights, which have sold well 
        since their development last year.
  --A variety of ladies' and men's wristwatches and pocket watches with 
        CVC coins serving as the face (developed by the Gift Shop and a 
        vendor/manufacturer).
  --Introductions of additional items currently in development are 
        expected in 2004.
            Senate Seal Watches
    The ``official Senate watch'' is now provided by a different 
manufacturer. The new men's and ladies' watches have the same look and 
feel as the discontinued watches, with additional space on the 
backplate for personalized engravings. The first shipment of watches 
was received in December and is expected to be a popular gift item.

Projects and New Ideas for 2004
            United States Senate Catalogue of Fine Art
    The Gift Shop is working with the Senate Curator in order to secure 
copies of the new publication, United States Senate Catalogue of Fine 
Art.
            Capitol Complex Trees
    During the early construction stages of the CVC the Senate Gift 
Shop arranged for the recovery of the felled trees from the grounds of 
the Capitol complex. The recovered trees have been milled and kiln 
dried. The resulting 12,000 board feet of cut lumber are being 
temporarily stored in a warehousing facility.
    While the Gift Shop continues researching ideas for products that 
can be produced from the recovered trees, the general thought is to 
create presentation pieces for official use and a variety of 
collectors' items available for sale to the general public.
            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development, and manufacture of the 108th 
Congressional Plate. As in previous years, the Gift Shop will rely on 
Tiffany & Co. to produce the plates.
    In addition we are creating a library of complementary designs and 
artwork from which designs for future Congressional plates could be 
chosen. This library will include mock-ups produced in conjunction with 
the selection for the artwork chosen for the 108th Congressional Plate.

                          6. HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,775 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of most former Senators, as well 
as news photographs, editorial cartoons, photographs of committees in 
session, and other images documenting Senate history. The Office 
develops and maintains all historical material on the Senate website.

Editorial Projects
    Executive Session Transcripts of the Permanent Subcommittee on 
Investigations, 1953-1954.--The Historical Office completed editing, 
annotating, and indexing 3,800 pages of previously unpublished 
executive-session hearing transcripts produced by the Senate Permanent 
Subcommittee on Investigations (PSI) under the chairmanship of Senator 
Joseph R. McCarthy (1953-1954). In May 2003, the PSI released the 
resulting five-volume work in both printed and electronic editions. The 
transcripts received extensive national media attention.
    The Senate Leader's Lecture Series.--From 1998 through 2002, the 
Senate Majority Leader hosted a series of lectures on Senate 
leadership. These talks, featuring former Senate presidents and party 
floor leaders, were held in the Capitol's historic Old Senate Chamber 
before an audience of current Senators and invited guests. The 
Historical Office provided production and publication support for the 
series, including a 188-page volume containing all nine lectures and 
separate remarks by President Pro Tempore Strom Thurmond. That book, 
entitled Leading the United States Senate, was published by the 
Government Printing Office in September 2003.
    The Documentary History of the United States Senate.--The 
Historical Office is conducting an ongoing documentary publication 
program to bring together in edited volumes fundamental source 
materials that will help explain the development of the Senate's 
constitutional powers and institutional prerogatives. Currently in the 
research and writing stage are volumes on Senate impeachment trials, 
the Senate's consideration of controversial treaties, and the evolution 
of the Senate's standing rules.
    Administrative History of the Senate.--During 2003, the assistant 
historian continued the research and writing of this historical account 
of the Senate's administrative evolution, taking advantage of newly 
discovered archival resources and improved search capabilities for 
contents of nineteenth century newspapers and periodicals. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers nineteenth and twentieth century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified over the past two centuries.
    Biographical Directory of the U.S. Congress, 1774-present.--In May 
2003, both Houses of Congress adopted H. Con. Res. 138, authorizing 
printing of the sixteenth edition of the Biographical Directory of the 
United States Congress, 1774-2005. The first edition of this 
indispensable reference source was published in 1859; the most recent 
edition appeared in 1989. Since 1989, the assistant historian has added 
many new biographical sketches, has expanded bibliography entries, and 
has revised and updated most of the database's 1,875 Senate entries. 
The assistant historian has updated the Congress-by-Congress listing of 
members through the 108th Congress, in preparation for the new print 
edition, and has completed the editing and proofing of existing 
information to allow for expanded search capabilities on the online 
version at http://bioguide.congress.gov.
    Capitol Visitor Center Exhibition Content Development.--The Senate 
historian assisted in preparing detailed plans for the exhibition 
gallery of the Capitol Visitor Center. Three staff historians 
contributed to exhibition scripts that set forth the chronological 
history of the Senate and describe the role of Congress in helping to 
realize the nation's basic aspirations.

Member Services
    Senate Historical Minutes.--At the request of the Senate Democratic 
Leader, the Senate historian prepared and delivered a ``Senate 
Historical Minute'' at thirty-one Senate Democratic Conference weekly 
meetings during the year. These four-hundred-word Minutes are designed 
to enlighten members about significant events and personalities 
associated with the Senate's institutional development, and with 
familiar objects and places within the Capitol. They subsequently 
appear each week in The Hill newspaper. The nearly 200 Minutes prepared 
since 1997 are available as a feature on the Senate website.
    Members' Office Records Management and Disposition Assistance.--The 
Senate archivist continued her program of assisting members' offices 
with planning for the preservation of their permanently valuable 
records, with special emphasis on archiving electronic information from 
computer systems and transferring valuable records to a home state 
repository. The archivist completed and the Senate published a 
comprehensive revision of Records Management Handbook for United States 
Senators and Their Archival Repositories together with a revised 
pamphlet for Senate staff entitled ``Senators' Papers: Management and 
Preservation Guidelines.'' The archivist assisted in the production of 
an ``Opening an Office Handbook'' and produced a brochure, ``New 
Senators Briefing: Your Historical Records.'' The archivist updated the 
archival sections of the handbook, ``Closing a Senate Office.''
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance in preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. 3,530 feet of 
records were transferred to the Archives. The archivist completed a 
review of records disposition guidelines for the offices under the 
Secretary's jurisdiction. The Office's archival staff continued to 
provide processing assistance to committees and administrative offices 
in need of basic help with noncurrent files.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office joined with the National Archives' Center for 
Legislative Archives, and the Robert C. Byrd Center for Legislative 
Studies to conduct a conference designed to establish an association of 
university-based research centers devoted to the study of Congress. The 
Association of Centers for the Study of Congress will conduct its first 
meeting in May 2004. Among the centers involved are those associated 
with the public careers of former Senators Howard Baker, Bob Dole, 
Everett Dirksen, Margaret Chase Smith, George Aiken, Thomas Dodd, 
Wendell Ford, Hubert Humphrey, Richard Russell, John Stennis, and John 
Glenn.

Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, oral history interviews were completed with J. Stanley Kimmitt, 
former Secretary of the Senate; C. Abbott Saffold, former Democratic 
Secretary; Jade West, former staff director of the Republican Policy 
Committee; Tom C. Korologos, former staff of Senator Wallace Bennett 
and White House congressional liaison; Arthur Rynearson, deputy Senate 
Legislative Counsel; Alphonso Lenhardt, former Senate Sergeant at Arms; 
and Martin Gold, procedural counsel to the Majority Leader.

Photographic Collections
    The photo historian continued to expand the Office's 40,000-item 
photographic collection, acquiring images of former Senators not 
previously represented in the collection and photographing historically 
significant Senate events, including hearings of Senate committees. 
Digital images of frequently used photographs were created to promote 
their use and safeguard the originals. Images are now being transmitted 
to patrons via e-mail or CD, and can be printed onto photographic paper 
in the Historical Office. The photo historian also continued to catalog 
photographic negatives into an image database in order to increase 
intellectual control over the Office's image collection. An exhibition 
of Capitol photographs (1900-1950) was developed for display on the 
Capitol's second floor.

Educational Outreach
    In coordination with the Senate Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, women Senators, and Senate floor leadership. Office staff also 
participated in seminars and briefings for specially scheduled groups.
    On April 18, 2003, the Washington Post published a highly 
complimentary feature-length article, ``Ensuring a Senate Inscribed in 
History,'' on the operations of the Historical Office.

                           7. HUMAN RESOURCES

    The Office of Human Resources (HR) was established in June 1995 as 
a result of the Congressional Accountability Act. The Office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that not only 
fulfill the legal requirements of the workplace but which complement 
the organization's strategic goals and values. This includes recruiting 
and staffing; providing guidance and advice to managers; training; 
performance management; job analysis; compensation planning, design, 
and administration; leave administration; records management; employee 
handbooks and manuals; internal grievance procedures; employee 
relations and services; and organizational planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.

Classification and Compensation Review
    For the Secretary of the Senate's operation, the Office of Human 
Resources has conducted a complete classification and compensation 
study which includes, for the first time, a comprehensive collection of 
current job classifications and specifications for every position. 
Furthermore, the pay plan and bands reflect the accurate and equitable 
layout of all staff within the organization. Needs for the upkeep of 
the system are being drafted to afford the Secretary the opportunity to 
keep the system current.

Policies and Procedures
    HR will continue to update and revise the Employee Handbook of the 
Office of the Secretary. With nuances in employment law and other 
advances, policies need to be reviewed, revised and updated annually.
    In regard to potential violations of said procedures, the 
Secretary, through HR and the Senate Chief Counsel for Employment, has 
developed an effective method to coordinate inquiries.

Attraction and Retention of Staff
    HR is responsible for the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates and 
assisting with all phases of the hiring process. The office works 
closely with the applicable department to ensure the process moves 
smoothly and expeditiously. HR presents to the Secretary the 
recommendations of department heads concerning payroll and hiring 
actions.

Training
    In conjunction with the Senate Chief Counsel for Employment, HR 
prepares training for department heads and staff. Some of the training 
topics include Sexual Harassment, Interviewing Skills, Conducting 
Background Checks, Providing Feedback to Employees and Goal Setting.

Orientation of New Staff
    Since first impressions make such a lasting impression, HR has 
developed a new consistent means of orienting new staff joining the 
Office of the Secretary. This new system allows for a seamless 
transition from the orientation of HR, policies, parking, and metro 
subsidy, to the particular department the staff member is joining and 
fosters a greater overall understanding of the Secretary's operation.
Interns and Javits Fellows
    HR coordinates both the Secretary's internship program and the 
Javits and Heinz Fellowship programs. The Javits program is due to 
terminate in September 2004. The Heinz Fellowship is also due to 
terminate at the end of this fiscal year. HR is aware that the Heinz 
Foundation is currently working to secure reauthorization for the 
program.

Employee Outreach, Feedback and Development
    HR acts as a liaison for staff of the Secretary in soliciting and 
receiving feedback, suggestions and insight in an effort to continually 
improve processes and procedures.
    A key to maintaining and improving performance standards, as well 
as ensuring completion of organizational objectives, is providing 
employee feedback. HR continues to work with the Executive Office and 
department heads to establish objectives that reflect the mission of 
the Senate and the Secretary's Office.
    HR is in the process of obtaining feedback on the current Employee 
Feedback and Development Program (EFDP) process. A new modified tool 
will be created to encompass the recommendations and efficiencies 
brought to light over the past two years.
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff.

Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records kept by HR. 
Staff and managers can also access leave records and reports through 
this system. The ability to review and update this information is 
instrumental to maintaining accurate contact lists for emergencies or 
other contingencies.

New Leave Tracking System
    In the past, employees of the Secretary of the Senate had to 
maintain ``timesheets'' for each day of work throughout the year. This 
system was maintained by each employee and signed off on by the 
supervisor and/or department head. The accrual rates for both sick 
leave and annual leave, in conjunction with the manual attendance 
tracking, proved a tedious task for all. HR has created a new leave 
tracking system whereby attendance is only recorded by the exception, 
or absence. Leave slips have been created for staff to complete and 
submit prior to taking leave. The supervisor approves the request and 
forwards it to HR to be entered into the system. Staff will then have 
access to their leave balances which will be accrued and maintained by 
HR.

                         8. INFORMATION SYSTEMS

    The staff of the Department of Information Systems provide 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also work closely with the 
application and network development groups within the Sergeant at Arms 
(SAA), the Government Printing Office (GPO), and outside vendors on 
technical issues and joint projects. The Department provides computer 
related support for the all LAN-based servers within the Office of the 
Secretary of the Senate. Information Systems staff provide direct 
application support for all software installed workstations, evaluate 
new computer technologies, and implement next generation hardware and 
software solutions.

Mission Evaluation
    The primary mission of Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Office of Secretary of 
the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies.
    As in fiscal year 2002, improved procedures were adopted to stretch 
support across all Secretary departments. With one exception, which 
should be completed in June, all offices have been updated to the 
Senate Mail Exchange Application as the principal e-mail application. 
Individual offices that previously maintained cc:Mail post offices, 
namely Public Records, the Stationery Room, and Page School, were 
combined into one central Secretary Microsoft Exchange server located 
at Postal Square.
    For security reasons, the Secretary of the Senate network is a 
closed local area network to all offices within the Senate. Information 
Systems staff continue to provide a common level of hardware and 
software integration for these networks, and for the shared resources 
of inter-departmental resources. Information System staff continue to 
actively participate in all new project designs and implementations 
within the Secretary of the Senate operations.

Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The Senate standard will shift to Microsoft Server 2000 
operating system software in fiscal year 2004.
    The continuing support strategy is to enhance existing hardware and 
software support provided by the Information Systems Department, and 
augment that support with assistance from the Sergeant at Arms whenever 
required. The Secretary's network supports approximately 300 staff, 
intern, and patron accounts in the Capitol, the Senate Hart, Russell, 
Dirksen buildings, and the Page School.

Fiscal Year 2003 Highlights
    Installed 3 LIS major production releases on all Legislative 
workstations and laptops. In conjunction with the SAA Office of 
Application Development, legislative software applications are updated 
and revised on a continual basis. One notable enhancement in fiscal 
year 2003 was the continuing design and development of the Senate 
Journal application.
    Replaced all Captioning Services workstations with improved 
hardware and software applications and installed Secretary-Judiciary 
workstation pilot hardware and software to support voice-to-text speech 
recognition applications.
    Renovated Gift Shop hardware and software workstations and servers 
to implement improved point-of-sales operation.
    Added Quantum Snap Server for existing Stationery server emergency 
data backup operation.
    Updated Official Reporter workstations to Windows 2000 operating 
systems and improved high speed printing operations.
    Installed new Library Oracle server and Web server on schedule in 
July 2003; Senate Library catalog database deployment for intranet 
operation is scheduled for 2004.
    Deployed enterprise-wide virus-patch installation process to 
automatically download Norton anti-virus definition files to Secretary 
workstations. No legislative workstations were affected by the August 
2003 outbreaks of the Blaster and Welchia viruses which distributed 
security vulnerabilities for servers and workstations.
    Deployed three major hardware COOP LIS operational upgrades. In May 
2003, all legislative department heads were provided a laptop with 
secure-id/VPN access to the Senate Network that mirrors their office 
desktop operation. In October, a second set of laptops was deployed 
off-site. In December a third mirrored set was installed at the 
Alternate Chamber facility. The setup and installation of the January 
2004 Alternate Chamber exercise utilized equipment from outside the 
perimeter of the exercise site.
    Installed and replaced original Secretary intranet development web 
server. This server will function as the primary data warehouse for the 
Office of Human Resources' People-Trak database. Networking routes have 
been established for all Secretary department access to this web 
server.
    The Historical Office completed the McCarthy publication project 
marking the 50th anniversary of these hearings. Digital scanning 
techniques implemented and adopted three years ago by our office 
continue to be utilized in all Secretary departments.

Fiscal Year 2004 Objectives
    Implementation of the SAA Active Directory Redesign project in 2004 
will present a rapid change in server-client hardware and software 
functionality for all Secretary offices. System requirements have been 
developed and forwarded to SAA to meet and provide continual 
application growth for all departments. This change in networking 
structure will allow Information System staff to migrate from a SINGLE-
LAN support group to an Enterprise-Level support organization--as 
extending the flexibility of available support to all departments is 
vital to the IT growth within the Office of the Secretary.

                     9. INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
22nd year of operation. IPS is responsible for administrative, 
financial, and protocol functions for all interparliamentary 
conferences in which the Senate participates by statute, for 
interparliamentary conferences in which the Senate participates on an 
ad hoc basis, and for special delegations authorized by the Majority 
and/or Minority Leaders. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; and British-American 
Interparliamentary Group.
    Two additional interparliamentary conferences were created in 2003 
which will meet for the first time this year. The new conferences are 
United States-Russia and United-States China Interparliamentary Group.
    In June, the 42th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Tennessee. In July, the British-
American Interparliamentary Group meeting was held in Virginia. 
Arrangements for both of these successful events were handled by the 
IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 45nd Annual Meeting of the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2004. 
Advance work, including site inspection, will be undertaken for the 
44nd annual Mexico-U.S. Interparliamentary Group meeting to be held in 
the United States in 2005. Preparations are also underway for the 
spring and fall sessions of the NATO Parliamentary Assembly.

                              10. LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library 
collection encompasses legislative documents beginning with the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Collection resources also include a 
wide array of online systems used to provide nonpartisan, confidential, 
timely, and accurate information services to the Senate.
Notable Achievements
    Information Services inquiries increased more than 14 percent over 
2002 totals.
    Significant progress made toward making online catalog available 
Senate-wide.
    Submitted proposal to Sergeant at Arms for off-site storage 
facility.
    XML-generated tables posted on Senate.gov, LIS, and Webster from a 
single file.
    Senate Floor Schedule on Senate.gov posted nightly by Library 
staff.
    Deaccessioned and transferred to the Federal Depository Program 
24,293 outdated, superseded, and surplus government documents.

Information Services
            Senate.gov and the Legislative Information System (LIS)
    The Senate Library's role in the production of www.senate.gov 
significantly expanded in 2003. The Information Services Team focused 
on increasing their knowledge and skills with the latest Internet 
technologies. Each librarian accepted additional responsibility to 
research, write, edit, and post time-sensitive information on the 
Senate's official public Internet site. Reference Librarians worked 
closely with the Webmaster to coordinate and plan the rapidly growing 
site.
    The Senate Library is dedicated to creating an Internet site that 
provides up-to-the-minute, well-organized information to dual 
audiences, both Senate offices and the general public. Presentation of 
timely information on Senate.gov, enhanced by Library-authored 
navigational guides, significantly improves the Senate's ability to 
disseminate information. The most popular Senate Library-authored pages 
on Senate.gov and LIS had 348,198 visitors in 2003.

      VISITORS TO SENATE LIBRARY--AUTHORED SENATE.GOV AND LIS PAGES


------------------------------------------------------------------------
Active Legislation on Senate.gov...........................       95,301
Reference on Senate.gov....................................      192,725
Virtual Reference Desk on Senate.gov.......................       41,301
Hot Bills List on LIS......................................       12,353
Appropriations Tables, Fiscal Year 1987-2004 on LIS........        6,518
                                                            ------------
      TOTAL................................................      348,198
------------------------------------------------------------------------

    Librarians are critical in the development of information 
architecture, which is the underlying organization system for an 
Internet site. Well-designed information architecture greatly improves 
the workflow of adding new information and also makes it easier to 
locate existing information. Examples are numerous, but they include 
Active Legislation and the Virtual Reference Desk. These pages provide 
valuable gateways to thousands of legislative documents, articles, 
biographies, statistical tables, and works of art categorized by key 
topics. The addition of the important ``teasers,'' help visitors 
navigate through more than 10,000 pages of information on Senate.gov.
    The Library continues to serve as the official LIS Help Desk for 
Senate staff and provides LIS training sessions in conjunction with the 
Office of Education and Training. Reference Librarians participated in 
15 LIS training events for Senate staff during 2003.

Patron Services and Document Delivery
    Inquiry statistics for phone, fax, e-mail, and walk-in visitors 
increased more than 14 percent in 2003 (46,234), surpassing the target 
of a 3 percent increase over 2002 totals (40,359). Visitors to Library-
produced pages on Senate.gov and LIS are factored into the inquiry 
statistics this year for the first time, having both the effect of more 
accurately reflecting and dramatically increasing the 2003 inquiry 
total (394,432).

                 INFORMATION SERVICES INQUIRY STATISTICS


------------------------------------------------------------------------
Phone, Fax, E-mail Requestors..............................       34,081
Walk-in Visitors...........................................       12,153
Visitors to Senate Library-Authored Senate.gov and LIS           348,198
 Pages.....................................................
                                                            ------------
      TOTAL................................................      394,432
------------------------------------------------------------------------

    Library activity is also reflected by the number of photocopies 
produced (156,891) and the number of pages printed (6,945) in the 
Micrographics Center. Technology that scans documents from the 
Library's extensive microform collection of congressional and executive 
materials, newspapers, and magazines has become a popular tool. It 
enables staff to post copies of historic documents on Senate.gov or e-
mail them directly to researchers. Use of these technologies decreased 
the number of information packages hand-delivered to Senate offices 
(4,078), loaned books and documents (1,664), and outgoing faxes 
(2,747).

Webster
    The librarians have forged a well-deserved reputation on Capitol 
Hill as authorities in the field of information service and are 
frequently asked for consultation. In 2003 administrators of the 
Sergeant at Arms' Senate Information Services (SIS) program relied upon 
the Senate Library to thoroughly review the online version of the 
Leadership Directories before purchasing a Senate-wide license. A 
second major project involving the reference librarians was their 
participation in a SIS project to identify a replacement for the 
outdated News Edge system on Webster. The Library also agreed to serve 
as the Search Help Desk to assist all Senate staff in the use of 
commercial research tools provided by SIS via the Front Page on 
Webster. Serving as the Search Help Desk requires that each member of 
the Information Services Team maintain expert search skills for 
LexisNexis, WestLaw, ProQuest, Leadership Directories, Congressional 
Quarterly, Bureau of National Affairs, National Journal, Federal 
Document Clearinghouse, Associated Press, and Reuters.

Client Relations
    The Library hosted 27 client relations staff events during 2003, 
including quarterly Services of the Senate Library Seminars, a State 
Fair, five District-State Seminars, monthly New Staff Seminars, and a 
reception for office managers and chief clerks. The Library also 
conducted two special seminars for the Senate Page School. New 
borrowing accounts established for 350 Senate staff during 2003 reflect 
the success of the Library's public relations program.
    The Senate Library is proud to have a reputation among information 
professionals and researchers. Tours and demonstrations during 2003 
brought 68 individuals from organizations including the annual 
Depository Library Conference, University of North Carolina, Federal 
Library and Information Center Committee, and the University of 
Maryland. Tours and research assistance was extended to foreign 
visitors from Brazil, Japan, Russia, Egypt, England, and Hong Kong.
    This is the sixth year that the Library hosted National Library 
Week activities. This year's book talk featured Senator Dale Bumpers 
who spoke about his autobiography, The Best Lawyer in a One-Lawyer 
Town: A Memoir. More than forty staff enjoyed his candid reminiscences 
of past and current political figures. The annual dessert reception 
brought an additional 115 Senate staff to the Library. These annual 
events are excellent public relations tools that are enjoyed by 
frequent Library users and by new Senate staff.
    Library staff produced three new display cases in the Russell 
Building corridor in 2003. The new displays included What Hath God 
Wrought: Communication Technology in the Senate. The display documents 
the use of television, radio, telephone, and telegraph in the Senate 
since Samuel F.B. Morse transmitted the first official telegraph 
message from the Capitol in 1844. A second display was the Signers of 
the Declaration of Independence. The display features a first-edition 
copy of Annual Register, or a View of the History, Politics, and 
Literature, for the Year 1776--significant because the first printing 
of the Declaration of Independence in a book is in this edition. The 
recently unveiled portrait and historic accomplishments of Senator 
Blanche Kelso Bruce, the second black Senator in history and the only 
former slave to serve in the United States Senate, was the third 
display for 2003.

Technical Services
            Acquisitions
    Two significant collections of historic congressional documents 
were added to the permanent collection in 2003. The Unpublished U.S. 
House Committee Hearings 1969-1972 and 1945-1968 Supplement, produced 
by the Congressional Information Service, is a microfiche collection of 
1,180 hearing transcripts that were previously only available at the 
National Archives. In addition, copies were made of legislative 
calendars for the Senate Committee on Rules and Administration and the 
Senate Committee on Veterans Affairs, dating from the mid-1930s, which 
had previously only been available in committee libraries.
    A book acquisitions committee has been established to implement a 
collection development policy in the Library. Members of the committee 
include the Acquisitions Librarian, several members of the Information 
Services team, and the Librarian. The committee meets monthly to review 
each potential acquisition for content, cost, scholarliness, and value 
to the permanent collection.
    The Library added 11,698 books, congressional and executive branch 
documents, and microforms to the permanent collection in 2003. New 
materials include 1,034 books, 7,188 congressional documents, and 3,476 
executive branch publications. Statistics for books and standing orders 
are reported in a single category as of 2003, which more accurately 
reflects the cataloging and processing workload.
            Cataloging
    Major progress was made in 2003 that will enable the Senate 
community to access the Library's online catalog via Webster. Two 
Windows 2000 catalog servers were received in August and the Oracle 
catalog database was transferred to the primary server on December 3, 
2003. The new technology significantly upgraded system administration 
by improving backup and remote management functions. Software and 
licenses have been ordered for the secondary server that will reside at 
the Senate Computer Center in Postal Square. The Library's online 
catalog provider, the Library Corporation (TLC) installed the secondary 
server in early January 2004. The secondary server will provide patron 
access to the online catalog, and will be available by the fourth 
quarter of 2004.
    The Library's catalog database was rebuilt and significant 
workstation upgrades were completed in early 2003. Improvements include 
automated temporary circulation record deletion; expanded printer 
support; integrated e-mail notification; catalog support of search 
history, new title searches, and results sorting; full authority record 
editing; multiple ISBN (International Standard Book Numbers) indexing; 
and the ability to mask collections from public display. Additional 
databases improvements made during 2003 are the correction of improper 
title truncation, and a rebuild of the keyword title index that 
provides greater flexibility in the modification and display of 
records.
    There are a total of 151,930 searchable bibliographic items in the 
Library's online catalog. The cataloging team added 7,524 new items to 
the catalog, and deleted 11,225 items. The item total represents 4,355 
new titles and 3,169 updates to existing collections. To maintain 
quality control standards, 50,367 maintenance transactions were 
completed during 2003. Those transactions include creating and editing 
authority records, editing existing records, barcoding new volumes, 
editing PURLs (Persistent Uniform Record Locators) for electronic 
resources, withdrawing records for discarded materials, and deleting 
temporary loan records.
    The multi-year project focusing on the cataloging of rare 
congressional materials continued during 2003. These nineteenth and 
early twentieth century Senate treaty documents, executive reports, and 
committee publications may be the only copies in existence. The large 
number of original cataloging records and subject headings required for 
this project led to Senate Library participation in the Library of 
Congress' National Authorities Cooperative Program (NACO). NACO 
establishes the official subject headings used in catalogs for the 
majority of the academic, public, and professional libraries in the 
United States. The Senate Library is one of 179 institutions, including 
the largest and most prestigious academic institutions in the country, 
that participates in NACO. The Library contributed 489 new subject 
headings related to congressional committees, subcommittees, 
nominations, and treaties during 2003.
            Government Documents Collection
    This is the third year of the Library's review of documents 
received through the Government Printing Office's (GPO) Federal 
Depository Library Program (FDLP). The review team includes staff from 
all Library departments and the goal is to deaccession outdated, 
superseded, and surplus government documents. In 2003, 24,293 items 
were withdrawn from the collection. Items withdrawn from the Senate 
Library collection are offered to FDLP libraries throughout the United 
States. 20,818 (88 percent) of those have been accepted by other 
institutions.
    The review team also deselected 293 publication series from FDLP in 
2003. Documents selected to remain in the collection will be cataloged 
according to the Library of Congress classification system, replacing 
of Superintendent of Documents system. The cataloging team reclassified 
179 titles in 2003, and looks forward to completely integrating 
classification of the primary book and government document collections.
    Access to core government documents formerly received through FDLP 
has not been compromised by these cancellations. Increased availability 
to these materials through agency and department Internet sites allows 
libraries to print information on-demand. The reduction of GPO-issued 
items in tangible formats is evident by the 180 percent decrease in 
government documents received in 2003. The positive impacts of this 
technological advance include increased physical space, reduced staff 
time processing materials, and the Library's online catalog serving as 
a gateway to government-wide information.
            Collection Maintenance and Preservation
    On April 17, 2003, a water leak was discovered that caused 
significant damage to several hundred books in SR-B14. The damaged 
books were immediately moved to alternate sites to be dried. Sheet 
plastic from the Library's disaster kits was used to protect adjacent 
areas from additional damage. Judging from the extent of the wicking, 
the leak probably began several days earlier. The Superintendent's 
Office replaced a section of pipe, but the original source of the leak 
was never determined. Several dozen volumes were purchased to replace 
the unsalvageable items. Installation of water detection alarms and 
containment trays by the AOC is anticipated in fiscal year 2005.
            Warehouse
    Library staff met with SAA staff and their consultants concerning 
the Library's off-site storage requirements. The initial June 23, 2003 
meeting set the framework for a draft warehouse plan that met the 
Library's needs. The Library's proposal for a new facility calls for 
added security, increased shelving, and improved environmental 
conditions. In anticipation of a move from the existing warehouse, 
Library staff and summer interns packed 14,000 books. Volumes 
determined to be in poor condition were set aside for cleaning and 
repair by the Office of Conservation and Preservation. Several excess 
collections were transferred to the Regional Depository Library at the 
University of Maryland.

Administrative
            Budget
    The seventh year of budget reviews delivered minimal reductions 
totaling $1,285. This is the lowest amount since the annual reviews 
began in fiscal year 1997. During that time, the reviews have 
eliminated duplicate copies, titles available through online services, 
and materials not meeting the Senate's current needs. This has resulted 
in $59,930.34 in cancellations, which have been critical in offsetting 
annual cost increases for core materials. The collection and 
acquisitions program now better meet the information demands of today's 
Senate. The goal is to provide the highest level of service using the 
latest technologies and best resources in the most cost-effective way.
            Professional Staff Development
    During 2003, Library staff participated in 142 training sessions, 
workshops, and professional development seminars. New Library staff 
have a particularly active training schedule and veteran staff are 
required to maintain and upgrade skill levels. In addition to classes 
on news and legal databases, technical training sessions included 
Microsoft Excel, CQ Online, CQ Votes, Homesite, Wilson Web Bio, Dialog, 
Data Harmony, XML, Newswire, Powerpoint, and Writing for the Web. 
Technical Services staff attended several skill enhancement classes 
including MARC content designation, taxonomy, and OCLC authorities. 
Research classes included courses on legislation, law, treaties, 
copyrights, and the CRS Advanced Legislative Process Institute. Other 
staff activities included tours to the National Archives, Pentagon 
library, Senate Recording Studio, Senate Legal Counsel, Senate 
Judiciary Committee library, the United Nations library, Computers in 
Libraries conference, and the annual Special Libraries Association 
conference.
            Interns
    Summer interns completed several key projects. These included 
boxing 11,500 volumes of the Congressional Serial Set and copying 
historic Senate committee calendars for the permanent collection. The 
interns also identified House hearings and committee prints missing 
from the Library collection. Copies of missing titles were received 
from the committees.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    The Secretary's quarterly newsletter was established in October 
1997 and has been produced by Senate Library staff since May 2000. With 
a distribution to approximately 1,000 readers, Unum serves as an 
historic record of accomplishments, events, and personnel in the Office 
of the Secretary of the Senate. The Summer 2003 issue of Unum was the 
first full-color issue.
Major Library Goals for 2004
    Provide Senate-wide access to the Library's catalog via Webster.
    Implement navigation and organization design improvements on 
Senate.gov.
    Prepare updates to Senate Votes on Cloture Motions (Senate Print 
99-95) and ANecrology of United States Senators.

                                                2003 ACQUISITIONS
----------------------------------------------------------------------------------------------------------------
                                     Books           Government          Congressional Publications
                              -------------------     Documents    -------------------------------------
                                                 ------------------                              Repts/   Total
                               Ordered  Received   Paper    Fiche   Hearings   Prints   Bylaw     Docs
----------------------------------------------------------------------------------------------------------------
January......................       23        57      310       77       301       23       41      202    1,011
February.....................       23        48      242       56       261       23       23      133      786
March........................       25        61      169       35       233       37       37      200      772
                              ----------------------------------------------------------------------------------
      1st Qtr................       71       166      721      168       795       83      101      535    2,569
                              ==================================================================================
April........................       67       110      182      145       333       37       39      274    1,120
May..........................       40       135      165       71       248       32       43      284      978
June.........................       22        82      163      115       313       21       60      277    1,031
                              ----------------------------------------------------------------------------------
      2nd Qtr................      129       327      510      331       894       90      142      835    3,129
                              ==================================================================================
July.........................       32        78      227       71       191       15       58      525    1,165
August.......................       20        62      150       89       318       16       60      270      965
September....................        3        57      248       88       178       14       52      349      986
                              ----------------------------------------------------------------------------------
      3rd Qtr................       55       197      625      248       687       45      170    1,144    3,116
                              ==================================================================================
October......................       41        74      244       82       296       17       48      263    1,024
November.....................       33       177      139       52       225       14       64       99      770
December.....................       26        93      245      111       274       17       71      279    1,090
                              ----------------------------------------------------------------------------------
      4th Qtr................      100       344      628      245       795       48      183      641    2,884
                              ==================================================================================
      2003 Total.............      355     1,034    2,484      992     3,171      266      596    3,155   11,698
      2002 Total.............      263       628    2,287    1,083     3,094      152      576    1,977    9,797
                              ==================================================================================
Percent Change...............    34.98     64.65     8.61    -8.40      2.49    75.00     3.47    59.59    19.40
----------------------------------------------------------------------------------------------------------------


                                                 2003 CATALOGING
----------------------------------------------------------------------------------------------------------------
                                                              New Titles Cataloged
                                    LIS   ------------------------------------------------------------
                                  Hearing                Government       Congressional Publications     Total
                                  Numbers                 Documents     ------------------------------   Titles
                                   Added     Books  --------------------                       Docs/   Cataloged
                                                       Paper     Fiche   Hearings   Prints     Pubs
----------------------------------------------------------------------------------------------------------------
January........................        21        25        14         4       261        10        29        343
February.......................        30        30        14        10       222        14        16        306
March..........................        38        32        16         4       272        21         2        347
                                --------------------------------------------------------------------------------
      1st Qtr..................        89        87        44        18       755        45        47        996
                                ================================================================================
April..........................  ........        46        21        10       144         4        49        274
May............................        33        30        21  ........       138        54  ........        243
June...........................         3        66        12        18        88        92        15        291
                                --------------------------------------------------------------------------------
      2nd Qtr..................        36       142        54        28       370       150        64        808
                                ================================================================================
July...........................         2        45        20         2       548        32        40        687
August.........................        39        37        10         1       105        42        13        208
September......................  ........        58        13        31       375       113        55        645
                                --------------------------------------------------------------------------------
      3rd Qtr..................        41       140        43        34     1,028       187       108      1,540
                                ================================================================================
October........................         5        70         6  ........       305        63        33        477
November.......................  ........        78         9  ........       101        43        16        247
December.......................        50       101         3         1       154         2        26        287
                                --------------------------------------------------------------------------------
      4th Qtr..................        55       249        18         1       560       108        75      1,011
                                ================================================================================
      2003 Total...............       221       618       159        81     2,713       490       294      4,355
      2002 Total...............        99       430       488       183     2,873       123       461      4,558
                                ================================================================================
Percent Change.................    123.23     43.72    -67.42    -55.74     -5.57    298.37    -36.23      -4.45
----------------------------------------------------------------------------------------------------------------


                                             2003 DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                      Micrographics  Photocopies
                                                 Volumes     Materials      Faxes      Center Pages     Pages
                                                  Loaned     Delivered                   Printed       Printed
----------------------------------------------------------------------------------------------------------------
January......................................          141          404          202           637        11,718
February.....................................          102          219          200           560         9,989
March........................................          146          274          300           651         9,648
                                              ------------------------------------------------------------------
      1st Qtr................................          389          897          702         1,848        31,355
                                              ==================================================================
April........................................          167          403          300           286        14,293
May..........................................          162          507          223           323        15,204
June.........................................          190          522          309         1,774        20,349
                                              ------------------------------------------------------------------
      2nd Qtr................................          519        1,432          832         2,383        49,846
                                              ==================================================================
July.........................................          136          423          260           921        20,551
August.......................................          119          206          169           232         9,376
September....................................          130          334          199           276        12,484
                                              ------------------------------------------------------------------
      3rd Qtr................................          385          963          628         1,429        42,411
                                              ==================================================================
October......................................          137          293          254           144        15,767
November.....................................          115          250          209           781        10,408
December.....................................          119          243          122           360         7,104
                                              ------------------------------------------------------------------
      4th Qtr................................          371          786          585         1,285        33,279
                                              ==================================================================
      2003 Total.............................        1,664        4,078        2,747         6,945       156,891
      2002 Total.............................        1,952        4,467        7,148         4,421       132,903
                                              ==================================================================
Percent Change...............................       -14.75        -8.71       -61.57         57.09         18.05
----------------------------------------------------------------------------------------------------------------

                         11. SENATE PAGE SCHOOL

    The United States Senate Page School provides a smooth transition 
from and to the students' home schools, and offers those students a 
sound program, both academically and experientially, during their stay 
in the Nation's Capital, balancing a unique work situation with the 
Senate's demanding schedule.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 6, 2003, and January 23, 
2004, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2003 and Fall 2003 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty 
field trips, four guest speakers, opportunities to compete in writing 
contests, to play musical instruments and vocalize, and to continue 
foreign language study with the aid of tutors of four languages were 
all afforded pages. Sixteen field trips to educational sites were 
provided for summer pages as an extension of the page experience. 
National tests were administered for qualification in scholarship 
programs as well.
    Effective and efficient communication and coordination among 
Sergeant at Arms, Secretary of the Senate, Party Secretaries, Page 
Program, and Page School continues and policies of the program have 
been reviewed.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan, Kuwait, Iraq, and the USO 
in Frankfurt, Germany (where distribution of the boxes to troops 
enroute to war zones take place). Pages included letters of support to 
the troops participating in Operation Enduring Freedom.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites. Staff, tutors and pages participated in escape hood training.
    Staff were retrained in CPR and certified in First Aid and AED use.
    Updated materials/equipment were purchased. These included a DVD 
player, calculus textbooks and support software, English and history 
textbooks, chemistry and physics probeware kits, textbooks with support 
software and site license, and teacher resource material.
Summary of Goals
    For the coming year, the goals of the administration and staff of 
the Senate Page School include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, and Latin.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance.
  --Staff development options will include attendance at a ``Learning 
        and the Brain'' conference, seminars conducted by Education and 
        Training, and subject matter conferences conducted by national 
        organizations.
  --Facility re-design to maximize space will be completed.
  --Upgrading science laboratory equipment will continue allowing micro 
        labs and reducing quantities of supplies used.
  --Review of technology applications for classroom use will be 
        completed.
  --Continuation of the community service project.

                   12. PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.
    During fiscal year 2003, the OPDS prepared 5,334 printing and 
binding requisitions authorizing GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS is able to review and assure accurate GPO 
invoicing as well as play an active role in helping to provide the best 
possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates job scheduling, proof handling and job tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, 
including the Curator, Historian, Disbursing, Legislative Clerk, Senate 
Library as well as the U.S. Botanic Garden, U.S. Capitol Police and 
Architect of the Capitol. Last year's major printing projects included 
the Report of the Secretary of the Senate, an expanded Leader's Lecture 
Series book, as well as a 500 page four-color case bound book the 
``U.S. Senate Catalogue of Fine Art.'' Current major projects for the 
office include a new full color version of the ``History of the U.S. 
Botanic Garden 1861-1991.''

Hearing Billing Verification
    Billing verifications are how reporting companies request payment 
from a Senate committee for transcription services.
    During 2003, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 975 billing verifications of 
Senate hearings and business meetings. This translated to an average of 
51.3 hearings/meetings per committee, a 2.6 percent increase over 2002 
and also represented over 70,000 transcribed pages at a total billing 
cost of over $460,000.
    OPDS utilizes a program developed in conjunction with the Sergeant 
at Arms Computer Division that (a) provides more billing accuracy and 
greater information gathering capacity and (b) adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2003, the office increased the 
efficiency and accuracy of the system by sending files and billing 
verifications electronically between committees and reporting 
companies. Department staff continue training to apply today's 
expanding digital technology to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       PERCENT
                                                                  2001         2002         2003     CHANGE 2003/
                                                                                                         2002
----------------------------------------------------------------------------------------------------------------
Billing Verifications.......................................        1,004          952          975          2.4
Average per Committee.......................................           48           50         51.3          2.6
Total Transcribed Pages.....................................       72,799       71,558       70,532         -1.5
Average Pages/Committee.....................................        3,467        3,766        3,712         -1.5
Transcribed Pages Cost......................................     $479,921     $471,807     $461,807         -2.2
Average Cost/Committee......................................      $22,853      $24,832      $24,288         -2.2
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within OPDS is staffed by 
experienced GPO detailees who provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
Document Services Distribution, Inventory and On Demand Publication
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands.

                                     DOCUMENT SERVICES--CONGRESSIONAL RECORD
----------------------------------------------------------------------------------------------------------------
                                                                       2001            2002            2003
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          25,051          29,690          33,094
    For the Senate..............................................          14,084          14,489          16,835
    For the House...............................................          10,967          15,201          16,259
Total Copies Printed and Distributed............................       1,300,000       1,268,603       1,199,402
    To the Senate...............................................         318,572         439,953         307,917
    To the House................................................         459,477         301,383         441,735
    To the Executive Branch and the Public......................         492,915         532,813         449,750
Total Production Costs..........................................     $15,428,530     $13,488,381     $20,143,538
    Senate Costs................................................      $7,452,933      $6,339,539      $9,886,805
    House Costs.................................................      $7,333,134      $6,609,307      $9,563,592
    Other Costs.................................................        $642,462        $539,535        $693,141
Per Copy Cost...................................................          $12.14          $12.14          $16.79
----------------------------------------------------------------------------------------------------------------

    In 2003, a total of 33,094 pages were printed in the Congressional 
Record. Of this total, 16,835 pages were printed for the Senate, and 
16,259 pages were printed for the House of Representatives. These page 
counts are comprised of the Proceedings of the Senate and the House of 
Representatives, Extension of Remarks, Digest and miscellaneous pages. 
This is 3,404 pages more than were produced in 2002, an increase of 
11.4 percent. A total of approximately 1.2 million copies of the 
Congressional Record was printed and distributed in 2003. The Senate 
received 307,917 copies, the House 441,735, with the remaining 449,750 
delivered to the Executive Branch agencies and the public at large.
    OPDS continually tracks demand for all classifications of 
Congressional legislation. Twice a year the office adjusts the number 
of documents ordered by classification. The goal is to adjust numbers 
ordered in each classification to closely match demand and thereby 
reduce waste. In recent years with the advancement of document 
availability online, the OPDS has taken a more aggressive approach to 
reducing waste of less requested legislation. The office supplements 
depleted legislation where needed by producing additional copies in the 
DocuTech Service Center which is staffed by experienced GPO detailees 
that provide Member offices and Senate committees with on-demand 
printing and binding of bills and reports. In 2003, the DocuTech Center 
produced 803 tasks for a total of 971,077 printed pages, a production 
increase of 22 percent over 2002.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility and this 
office's dedication and assistance to the general public, the press, 
and other government agencies is virtually indistinguishable from the 
services provided to the Senate. Requests for material are received at 
the walk-in counter, through the mail, by fax, phone, and online. 
Recorded messages, fax, and e-mail operate around the clock and are 
processed as they are received, as are mail requests. The office 
stresses prompt, courteous and accurate answers to the various public 
and Senate requests.

                                          SUMMARY OF ANNUAL STATISTICS
----------------------------------------------------------------------------------------------------------------
        CALENDAR YEAR          CONGRESS/SESSION    PUBLIC MAIL     FAX REQUEST       E-MAIL      COUNTER REQUEST
----------------------------------------------------------------------------------------------------------------
2.00020e+15..................  106/2nd.........           4,066           3,129             112  9.51869e+19
                               107/1st.........           3,449           2,093             621
                               107/2nd.........           3,637           1,866             662
                               108/1st.........           1,469           2,596             735
----------------------------------------------------------------------------------------------------------------

Online Ordering
    The past year brought significant changes in providing new services 
and improving existing ones. For example, OPDS has continually sought 
to improve the efficiency and utility of the Secretary of the Senate's 
homepage. Beginning in late 2000, Senate offices, by way of a link to 
the Webster, could order legislative documents online. Via the same 
link, it is also possible to confirm arrival of printed copies of the 
most sought after legislative documents. The site is updated several 
times daily and each time new documents arrive from GPO in the Document 
Room. In 2003 that process was expanded to provide the capability of 
online ordering of blank paper. This is but one model of OPDS 
continuing to seek new ways to use technology to assist Members and 
staff with added services and enhancements.

                           13. PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; and the Senate Code of Official 
Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate Gift 
Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, Political 
Fund Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2002, through September 2003, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone, and assistance given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 95,314 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.

Fiscal Year 2003 Accomplishments
    The office developed a manual detailing the policies and procedures 
of the Public Records revolving fund for the purpose of producing a 
financial statement. At the Secretary's request, GAO also performed an 
audit of the revolving fund which revealed no discrepancies. Public 
Records also completed a transition to the next generation of scanning 
technology by replacing old hardware, and updating software.

Plans for Fiscal Year 2004
    The Public Records office is revising and improving the lobbying 
pages on senate.gov based upon recommendations of an independent survey 
of North American disclosure web sites.

Automation Activities
    During fiscal year 2003, the Senate Office of Public Records 
automated the Gift Rule filings and the Mass Mailing registrations. In 
the event of an emergency, these filing registrations are easily 
accessible off site. The office also started a project to automate the 
foreign travel reports required by the Mutual Security Act of 1954.

Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports. 
Filings totaled 4,238 documents containing 232,442 pages.

Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2003, 6,112 registrants represented 15,317 
clients and employed 24,872 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports was 40,877.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2003. The reports were available to the public by June 13, 2003. Copies 
were provided to the Select Committee on Ethics and the appropriate 
State officials. A total of 2,545 reports and amendments was filed 
containing 14,481 pages. There were 316 requests to review or receive 
copies of the documents.

Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received over 1,233 reports 
during fiscal year 2003.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 487.

                          14. SENATE SECURITY

    The Office of Senate Security (OSS) is responsible for the 
administration of classified information programs in Senate offices and 
committees. In addition, OSS serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.

Personnel Security
    Five hundred fifty Senate employees held one or more security 
clearances at the end of 2003. This number does not include clearances 
for employees of the Architect of the Capitol or clearances for 
Congressional Fellows assigned to Senate offices, which are also 
processed by OSS.
    In the past year, OSS processed 2,418 personnel security actions, a 
31.9 percent increase from 2002. One hundred twenty investigations for 
new security clearances were initiated last year, and 87 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past year, reinvestigations were initiated 
on 58 Senate employees. OSS processed 71 routine terminations of 
security clearances during the reporting period and transmitted 322 
outgoing visit requests. The remainder of the personnel security 
actions consisted of updating access authorizations and compartments. 
The length of time required for the Department of Defense (DOD) and the 
Federal Bureau of Investigation (FBI) to process Senate staff for 
security clearances has increased by 66.7 percent relative to 2002.

Security Awareness
    OSS conducted or hosted 79 security briefings for Senate staff. 
Topics included information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents an 
increase of 1.3 percent from 2002.

Document Control
    OSS received or generated 2,668 classified documents consisting of 
79,931 pages during calendar year 2003. This is an increase of 10.3 
percent in the number of documents received or generated in 2002. 
Additionally, 60,873 pages from 3,263 classified documents no longer 
required for the conduct of official Senate business were destroyed. 
This represents a 0.6 percent increase in destruction. OSS transferred 
754 documents consisting of 30,149 pages to Senate offices or external 
agencies. These figures do not include classified documents received 
directly by the Appropriations Committee, Armed Services Committee, 
Foreign Relations Committee, and Select Committee on Intelligence, in 
accordance with agreements between OSS and those Committees. Overall, 
Senate Security completed 6,685 document transactions and handled over 
170,953 pages of classified material in 2003, an increase of 5.5 
percent.
    Secure storage of classified material in the OSS vault was provided 
for 106 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.

Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,375 occasions 
during 2003. In July, the smallest OSS conference room was converted to 
a computer and storage room. This was necessitated by changes in office 
space and loss of computer connections previously supplied by the House 
Permanent Select Committee on Intelligence, both due to the Capitol 
Visitor Center (CVC) construction. This has somewhat limited the number 
of people who could be allowed to read or use classified computer 
systems when other rooms were in use. Even with the loss of this room, 
use of OSS conference facilities increased 77 percent over 2002 levels. 
Eight hundred thirty-eight meetings, briefings, or hearings were 
conducted in OSS' three conference rooms. Of those, forty were ``All 
Senators'' briefings. OSS also provided secure telephones, secure 
computers, secure facsimile machine, and secure areas for reading and 
production of classified material on 537 occasions in 2003 to Senators 
and staff.

                          15. STATIONERY ROOM

    The Senate Stationery Room's principal functions are to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, including:
  --selecting a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items;.
  --purchasing supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules;
  --maintaining individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate;
  --rendering monthly expense statements;
  --insuring receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process;
  --making payments to all vendors of record for supplies and services 
        in a timely manner and certifying receipt of all supplies and 
        services; and
  --providing delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                           Fiscal Year      Fiscal Year
                                               2003            2002
                                           Statistical      Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales............................      $4,843,716       $4,628,342
Sales Transactions.....................          61,140           61,479
Purchase Orders Issued.................           7,545            6,218
Vouchers Processed.....................           8,689            7,376
Metro Fare Media Sold..................          52,279           41,558
    $20.00 Media.......................          46,260           36,943
    $10.00 Media.......................           3,023            1,978
    $5.00 Media........................           2,996            2,637
------------------------------------------------------------------------

Operational Growth
    As indicated in the above statistics, the Stationery Room operation 
continues its progressive growth pattern with an increase in gross 
sales of $213,000 over fiscal year 2002.
    It should be noted that current staffing level of twelve employees 
for the operation remain at the same level as fiscal year 1974 when 
sales were approximately $944,000.

Fiscal Year 2003 Activities
    During the first quarter of the fiscal year, the Stationery Room 
assisted ten Senator-elect offices. In addition, the Stationery room 
assisted the new Majority Leader and his staff with their transition.
    Members of Stationery Room staff were tasked as part of a Senate-
wide working group to assist the Sergeant at Arms (SAA) in the 
development of an ``Emergency Go Bag.'' The finalized bag should 
support each office in an emergency with a variety of supplies as 
recommended by the Department of Homeland Security, Federal Emergency 
Management Agency and the American Red Cross. Offices will be able to 
purchase additional ``Go Bags'' on a Special Order basis through the 
Stationery Room.
    The Stationery Room made initial inquiries regarding a state-of-
the-art Retail Point-of-Sale system and back-office accounting system 
during April 2003. A professional consultant was subsequently hired to 
draft a requirements document, which will be finalized this spring. 
Baseline estimates for application software are between $131,500 and 
$133,000. This price structure does not include add-ons that will be 
needed for automated flag ordering/tracking; an internal e-commerce 
website for automated office product ordering capabilities; or other 
custom system software modifications.
    Working together, the Stationery Room and the Committee on Rules 
and Administration began a review of the applicable Rules and 
Regulations for the Mass Subsidy Program. On November 3, 2003, a 
provision was added to the regulations to authorize the purchase of 
media one week in advance of the month in which the media is to be 
used. The Stationery Room was also tasked to provide a means in which 
offices could order transit media electronically via e-mail. This 
project is currently in beta testing with thirteen offices as a pilot 
group.
    As part of the Secretary's efforts to ensure financial 
responsibility, the General Accounting Office began an audit of the 
Stationery Room's operation. The final report may be issued in the 
summer of 2004.
    To fulfill emergency preparation needs, Stationery Room personnel 
devised a mechanism--scanning--for data storage and retention of all 
critical documents for the operation. Fiscal year 2003 records are 
nearing completion of scanning. Once records have been scanned, that 
information is available locally and paper copies are removed to a 
National Archive facility storage and final disposition. This project 
has been a joint effort by the Stationery Room, Historical Office and 
Sergeant at Arms.
    In an effort to establish an effective communication link with the 
SAA IT product line, a process was devised to notify the Stationery 
Room of new IT equipment being introduced into the Senate. Notification 
now allows the Stationery Room to be proactive in supporting office 
equipment.
    Stationery Room staff regularly meets with Administrative Office 
Managers to more effectively understand their needs and requirements. 
In addition, the office is currently looking at creating (i) a Product 
Review Committee to ensure the office carries the products it needs and 
(ii) a working group regarding necessary emergency supplies in case 
Continuity of Operations Plans are implemented.
    The Stationery Room is part of a Flag Process working group being 
guided by the Office of the Sergeant at Arms. The mission of this 
working group is to streamline the flag procurement process for 
constituents with a focus on timely processing and delivery. This is an 
on-going project and is currently in its early stages.

                             16. WEBMASTER

    The Webmaster is responsible for the three web sites that fall 
under the purview of the Secretary of the Senate: the Senate Web site, 
www.senate.gov (except individual Senator and Committee pages); the 
Secretary web site on the Senate intranet, Webster; and an intranet 
site currently under construction for Secretary staff only.
    The Senate Web site (www.senate.gov) was completely redesigned and 
the new site was launched in the fall of 2002. At that time the 
Documentum Web Content Management System was implemented which allows 
content providers to create and post information to the web site 
without knowing HTML, the format language of the web.
    Development work on the Documentum content management system 
continued throughout 2003 as content providers identified changes that, 
when implemented, would make their work easier. Adjustments were made 
to the application that allows the curator to update the web site 
directly from their database. This application has been working 
effectively for almost a year.
    An XML application was built for the Senate Library to allow them 
to update the Active Legislation information one time and then 
disseminate the information in different formats, such as publishing in 
HTML to two separate web sites and creating a PDF version for printing. 
The Active Legislation web page on www.senate.gov is consistently in 
the top 10 most visited content items on the main site, drawing more 
than 12,000 visitors a month.
    Throughout 2003, senate.gov content providers became more cohesive 
as a group. Monthly meetings were held where new ideas were shared. 
Collaboration increased throughout the year and the posting of feature 
articles in the major areas of the site were coordinated in terms of 
timing and subject matter. The editing and creation of content 
continued at a steady pace incorporating feedback received from staff 
and the public.
    In 2003 the web site averaged over 115,000 visitors a day. 
Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. The main Senate homepage and 
the home pages of the six subject areas (buckets) receive the most 
visits as people navigate around the site. Within the buckets we find 
that visitors are drawn to the following content items in order of 
popularity: 1. Roll Call Votes; 2. Active Legislation List; 3. Senate 
Leadership Page; 4. Senate Organization Chart; 5. Committee Hearing 
Schedule; 6. Session Schedule for 2003; 7. Virtual Tour of the Capitol; 
8. Bill and Resolutions; 9. Calendars and Schedules; 10. Nominations; 
11. Individual State Pages; 12. Historical Office Page; 13. 
Congressional Record; 14. Virtual Reference Desk; and 15. 
Appropriations Bills.
    E-mail traffic to the webmaster has shown a dramatic decrease in 
questions about where to find information on the web site. The new web 
site navigation structure makes finding information much easier. In 
previous years the webmaster received on average 15 messages a day 
asking for the location of some specific information on the site. In 
2003 that number dropped to less than 5 requests a day.
    A major effort in 2003 was the installation, configuration, and 
testing of the Verity Search Engine for senate.gov. Based on the 
initial round of tests, changes were made to the search engine 
configuration resulting in greatly improved relevance ranking of search 
results. Testing is now focusing on how to improve the search results 
by adding or editing metadata associated with the content items. More 
relevant and standardized keywords, and better descriptions and titles 
will improve the relevance ranking and display of the search results. 
Secretary staff assisted SAA staff in conducting briefings for Senate 
Systems Administrators on how to use the search feature on their own 
sites. Systems Administrators were encouraged to review how their data 
displays in search results prior to final implementation of the search 
feature for the public.
    A continuing problem encountered in 2003 was that some web pages 
were not always available when the public tried to access them. 
Specifically, the problem was with pages that accessed a database using 
Cold Fusion to populate the page with information. SAA staff spent a 
tremendous amount of time and attention trying to solve this stability 
problem, including calling in Macromedia engineers to work onsite. In 
addition to making changes to the Cold Fusion settings, it became 
obvious that architectural changes were required which would affect the 
way Senate offices used databases to publish information to senate.gov. 
These changes are being made and the stability of the Cold Fusion pages 
on senate.gov has improved dramatically.
    Training on the Documentum system continued in 2003. The Webmaster 
took online courses in WebPublisher Administration, DQL (the Documentum 
Query Language), and XML as implemented in Documentum, as well as 
attending seminars on Authoring in XML, XML and Content Management, and 
Search Engine Development. The Webmaster represented the Office of the 
Secretary at meetings of the LegBranch Multimedia Group and Executive 
Branch meetings on improving Citizen Participation through E-Government 
Initiatives.
    In the fall of 2003 a Web Developer was hired to assist the 
Webmaster, and the Office of Web Technology was enhanced within the 
Office of the Secretary, an acknowledgment of the growth in workload 
and responsibility in disseminating information and providing services 
to the public, and internally to the Senate, via websites.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LIS
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, and the transfer of operations and maintenance 
of the LIS to the Office of the Sergeant at Arms (SAA) in March 2000, 
the LIS Project Office shifted its focus to procuring system 
development services in support of an LIS Augmentation Project (LISAP). 
The LISAP is focused on the data standard component to provide a 
Senate-wide implementation and transition to XML for the authoring and 
exchange of legislative documents.
    A database of documents in XML format and an improved exchange 
process will result in quicker and better access to legislative 
information and will provide documents that can be more easily shared, 
re-used, and re-purposed. Parts of one XML document can be re-used in 
another XML document because the document structure is similar and the 
format of the data (XML) is standard. As more and more documents are 
created in the XML format, the necessity for re-keying or converting 
from one format to another (HTML to WordPerfect or XyWrite locator to 
Word or Word to WordPerfect, etc.) will disappear.
    The LISAP incremental development approach has helped the LIS 
Project Office build user acceptance, manage costs and adjust quickly 
when needed. The initial focus for the LISAP is to develop an XML 
authoring system for the Office of the Senate Legislative Counsel (SLC) 
and the Office of the Enrolling Clerk for bills, resolutions and 
amendments. Collaboration of Secretary of the Senate and Sergeant at 
Arms staff, augmented with strong contractor support, provides a great 
team effort and great progress has been made in the past year.
LISAP: 2003
    During 2003 Senate staff continued to develop the Legislative 
Editing in XML Application (LEXA) focusing on the Office of the Senate 
Legislative Counsel and the production of bills, resolutions and 
amendments in XML. LEXA features many automated functions that provide 
a more efficient and consistent document authoring process. The SLC has 
worked very closely with the LEXA development team to strengthen and 
refine the application and provide a list of future enhancements. At 
this time LEXA can be used to create introduced and reported bills and 
resolutions and most amendments. Creation of conference reports and 
compilations will be completed in the coming months.
    In late 2003, a contractor developed a two-day training course on 
LEXA that was held three times between January 6 and January 15 for the 
39 attorneys and staff assistants in the SLC. It takes several months 
for a drafter to learn to use XyWrite and the locator formatting codes. 
Following the LEXA training, SLC staff immediately began producing 
bills and resolutions using LEXA, and the first XML draft to become a 
bill was introduced on January 22, 2004. The SLC will work gradually 
toward creating all legislative documents in LEXA and will use XyWrite 
only when necessary.
    The document management system (DMS) for the SLC was also completed 
in 2003. The DMS is integrated with LEXA and will be implemented in 
2004 once the SLC has completed the transition from XyWrite to LEXA. 
The DMS will provide the ability for the SLC to track and manage all 
work requests, legislative drafts, and internal office documents 
prepared in a variety of formats including XML, Word, WordPerfect, e-
mail, and PDF. The DMS will also provide search and retrieval, delivery 
of documents to clients, and exchange of documents with the Senate 
Enrolling Clerk, the GPO, the House Office of the Legislative Counsel, 
and the Senate Appropriations Committee. The expansion of a DMS 
approach into other Senate offices will facilitate greater 
accessibility to legislative documents.
    With the implementation of LEXA and the DMS for the SLC, support 
becomes an important issue. The 2004 Legislative Branch Appropriations 
Act directed the GPO to provide support for LEXA much as they have for 
XyWrite for many years. With help from the LEXA development team, the 
GPO is working toward achieving that goal. As LEXA becomes more widely 
used in the SLC and other offices drafting legislation, the support 
load will increase. The Systems Development Services group of the 
Office of the Sergeant at Arms provides support and maintenance for the 
LIS/DMS, and that group will also support the DMS for the SLC. The 
training contractor is also developing a comprehensive printed and 
online reference manual for LEXA and the DMS and will also produce 
computer-based training for new hires.
    Also in 2003, a contractor completed work on converting bills, 
resolutions, and SLC drafts from the 106th and 107th Congresses to an 
XML format for use in LEXA. In early 2004, the contractor converted the 
documents from the first session of the 108th Congress. The conversion 
software has been incorporated into LEXA providing the ability to 
convert a locator-coded document to an XML document. The contractor 
also developed software (also in LEXA) to convert an XML document back 
to locator codes for printing through the Government Printing Office's 
Microcomp software. This conversion will also be used to supply 
locator-coded versions of documents to those offices and organizations 
still working in XyWrite.
    The conversion contractor also began work on converting the 
compilations of current law to XML format for use by the SLC and the 
House Legislative Counsel in drafting bills and amendments. This 
contractor has also developed an XML component to assist in the 
creation of tables and columnar data in legislation that will be used 
by the Senate, House, GPO, and Library of Congress. This component 
provides assistance and a visual display to the drafter during the 
creation of a table. The XML tagging in the table provides a readable 
display in the editor and on the Web and accurately prints the table 
through Microcomp--all without manual intervention to change the 
underlying tagging or data.

LISAP: 2004
    The LEXA development team will continue to work with the SLC to 
refine and enhance LEXA including developing software to create and 
print conference reports and to edit and update the compilation 
documents created and maintained by the House and Senate Legislative 
Counsels. LEXA, as developed for the SLC, will establish a framework on 
which to build applications for other offices producing other types of 
legislative documents. The team will next address the specific needs of 
the Office of the Enrolling Clerk. Additional functionality to produce 
engrossed bills and amendments and enrolled bills will be added to 
LEXA, and the office will receive training and the LEXA reference 
manual.
    The SLC's DMS will be implemented in 2004. Prior to implementation, 
transition training will be developed for the office and the reference 
manual will be expanded to include information on the use of the DMS. 
The DMS will be integrated with LEXA and will provide a powerful 
tracking, management, and delivery tool. Technology-based training 
(TBT) will also be prepared for the SLC that will combine training on 
LEXA and the DMS for new attorneys and staff assistants in the SLC. The 
TBT, coupled with the standards-based LEXA and DMS applications, will 
shorten the time needed for new hires to learn the drafting technology. 
The SLC will be able to focus on teaching the legislative drafting 
process and new hires will no longer have to spend months training on 
entering printing codes using out-dated DOS-based technology.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

       ACQUISITION OF ARTIFACTS THAT ONCE BELONGED TO THE SENATE

    Senator Campbell. What particularly interests me, as you 
mentioned, as well as Senator Stevens, and that is the 
acquisition of former artifacts that belong to the Senate. Is 
it my understanding that you can get these on permanent loan or 
buy them, but that things cannot be donated to the Senate? Is 
that true or not?
    Ms. Reynolds. I am going to defer, as I did last year, to 
our Senate curator on that, and ask her to educate us a little 
bit on----
    Senator Campbell. If she would come up to the table, and 
identify herself for the record, please.
    Ms. Reynolds. Diane Skvarla, our Senate curator.
    Ms. Skvarla. The question I understand was whether items 
could be donated to the Senate. They actually can be donated to 
the Senate and we continue to get items donated to the Senate; 
several every year. As Emily pointed out, we hope with the 
Preservation Fund and new knowledge that we will get more of 
those in the future.
    Senator Campbell. Of the things that are donated, I suppose 
some have real historic value; and who knows, maybe some do 
not. Does this advisory board that you mentioned, are they ones 
that determine what to accept and what not to accept?
    Ms. Skvarla. They will assist us. Yes. We normally get a 
piece, and find out the history of it, of why it might be 
important. For example, a couple of years ago, we got as a gift 
a snuff box once owned by Isaac Bassett, who was the assistant 
doorkeeper here in the Senate. The snuff box was actually a 
gift to Bassett from the Senators themselves in the 19th 
century.

                       CURATORIAL ADVISORY BOARD

    The curatorial advisory board will assist us. They will 
also note, if it is a fine piece of silver, we might ask the 
curatorial board for their advice. So yes, it very much will 
help us in determining the appropriateness of that gift to the 
Senate.
    Senator Campbell. How many people are on that board?
    Ms. Skvarla. We are having 11.
    Senator Campbell. Eleven. Emily did mention some of the 
acquisitions that have been made. Those will eventually all be 
in the Visitor Center, like Vice President Curtis' chair. Is 
that the long-range goal that--that's where they will be?
    Ms. Skvarla. We are still in the process of that exhibit 
design and development. That will be an issue that obviously 
will be presented to leadership and the Capitol Preservation 
Commission, as time goes forward.

                            SENATE WEB SITE

    Senator Campbell. Thank you. Did I hear you properly when 
you said we are getting 150,000 hits per day on the web site?
    Ms. Reynolds. Right. It's 115,000.
    Senator Campbell. 115,000 per day. Are most of those 
students or do you have any way of knowing?
    Ms. Reynolds. I am not certain that we have a way of 
knowing. That would be an interesting figure to track. I can 
tell you, though, just some anecdotal evidence that came in 
recently that was fun for us to see, and that is, a university 
instructor in Indiana was nice enough to send us his core 
syllabus on public law in the United States Senate. He had 
encouraged his students to use Senate.gov, and had developed 
his syllabus around some of the material on Senate.gov.
    If there is a way to track those statistics or to conduct 
some sort of a survey of our users, let me get with our 
webmaster on that. I will be happy to get back to you. That is 
a good question.
    Senator Campbell. I thought it might be students. I know 
when my own son was in college a few years ago, he was using 
different web sites, the Library of Congress, and a number of 
opportunities back here to write a lot of his college papers.
    Ms. Reynolds. Right. Exactly.
    Senator Campbell. It is a wealth of information.
    Ms. Reynolds. The other thing, if I might just add one more 
note on the web site usage, is we were averaging about 15 
requests a day for assistance in navigating the site. Our very 
skilled webmaster now, in rearranging the site and making it 
more user-friendly, we are now getting to an average of just 
about five requests a day for assistance in navigating the 
site.
    So, this is another area where your committee has been 
generous to us in helping us expand the site, some added 
enhancements. You will see some additional enhancements even 
this year.

                             RICIN INCIDENT

    Senator Campbell. Okay. We will move on to a couple of 
other things. How did the February's ricin incident impact your 
operation?
    Ms. Reynolds. Our office was not most immediately impacted. 
But there were a variety of ways in which we responded. The 
first is, Senator Frist asked the Sergeant-at-Arms and I to set 
up a leadership coordination center, which actually ended up 
being physically housed in my office for that week. It was very 
helpful for all of us because our staff and the Sergeant-at-
Arm's staff were working in conjunction with each other on that 
response.
    In addition, as I mentioned, we exercised part of our COOP 
plan with the stationery operation, also part of our COOP plan 
with public records, and we maintained--they were long days, 
but in the evenings then, we would flip over the operation to 
the Sergeant-at-Arms emergency operation center for any 
questions that came in during late evening hours through 
individual offices. But most especially, having that leadership 
coordination center, so that we could work hand-in-glove 
together to respond, was very helpful.
    Senator Campbell. So, you did not feel that you were out of 
the loop on anything that you couldn't keep up----
    Ms. Reynolds. No, sir.

                         CAPITOL VISITOR CENTER

    Senator Campbell. Okay. And then the last question on the 
Visitor Center. I look at it almost every day once or twice. 
We're certainly picking up progress on that. I wish it were 
faster, very frankly. But what is your assessment of the status 
of that? Do you think we are going to have some challenge that 
we cannot confront?
    Ms. Reynolds. That is a good question. I certainly do not 
want to steal Mr. Hantman's thunder, since he is----
    Senator Campbell. I am going to ask him the same question.
    Ms. Reynolds [continuing]. Our day-to-day person out there. 
My role in this has been, and I will tell you, I have been 
amazed in the course of my time in the job, even though I 
certainly am not the Architect of the Capitol, anything close 
to an engineer or a construction person, or an architect 
myself, I have been amazed at the time that the leadership 
staff and staff from the Capitol Preservation Commission spent 
on this, in conjunction with the Architect's Office. Again, it 
is a very collaborative effort.
    Clearly, we have had some challenges, be it weather-
related, obviously, in the construction of this or even some 
construction challenges. I know Alan will address all of that.
    The project is making enormous progress, as you said. I 
reflected that, Mr. Chairman, 1 year ago, at this time, when 
you and I talked about those trucks coming up the hill every 
day but coming up to load up dirt, they were excavating and 
removing that dirt each and every day.
    It is incredible progress in 1 year when you think you can 
now actually look out there and see that there is a top going 
on. It gives us all a sense, and particularly for those of us, 
or laymen, like myself, who do not understand construction 
necessarily. But it comes alive all of a sudden, and you begin 
to see all of those drawings, and diagrams, and everything we 
talked about during the previous year begin to unfold.
    There is no doubt that within the course of the next couple 
of years, whether it is weather-related issues or other 
challenges, that the architect will presumably continue to face 
those challenges; but face them well, as they have. We all make 
those adjustments together.
    That is why it is very important, I dare say, that there is 
a weekly meeting that I help to facilitate, along with my 
colleague on the House side, the Clerk of the House, so that we 
come together in a bicameral, bipartisan way to look at any 
issues on the Architect's plate, to address how they impact our 
community, both on the Senate and the House side, and hopefully 
afford solutions together.

                       CVC OPERATIONAL DECISIONS

    In addition to that, we are also at a time, and it is a 
particularly exciting time, as we reference the exhibit design 
coming up for the Capitol Visitor Center, where we can begin to 
turn our focus to the operational side of the Capitol Visitor 
Center. That is when you know there is light at the end of the 
tunnel, that it is an exciting place to be.
    Clearly, while we are not making strict operational 
decisions, we are having very good dialogue, and hopefully 
setting some parameters that we can take back to the leadership 
and the Capitol Preservation Commission. In adding over 500,000 
square feet to the Capitol itself with this Visitor Center, 
there are enormous operational issues. But we all keep in mind 
the three primary goals, the very reason this center is being 
constructed in the first place, and that is to enhance our 
security, to improve our visitor amenities, and just as we talk 
about on our public web site, to provide greater visitor 
education opportunities for those who come here to learn about 
this Capitol and this Congress.
    Senator Campbell. Thank you.
    Ms. Reynolds. Thank you.
    Senator Campbell. Senator Durbin, did you have questions of 
Ms. Reynolds?

                      SENATE STUDENT LOAN PROGRAM

    Senator Durbin. Very briefly. You have recently conducted a 
survey on student loan programs?
    Ms. Reynolds. Yes.
    Senator Durbin. This is an issue that I initiated several 
years ago and found that no one wanted to administer it. We 
basically decided to let 1,000 flowers bloom and see what 
happened, with some basic guidelines. I have lived in fear ever 
since that, not only some wonderful things but some not so 
wonderful things, may have occurred under the name of student 
loan incentives for recruitment and retention. What have you 
found in your survey?
    Ms. Reynolds. Our survey, which we conducted last summer, 
and we had roughly 58 offices that responded, and I will tell 
you a quick summary, obviously. Those offices that responded, 
and all 58 participate in the program, the feedback was very 
positive about the program.
    As you know, and I was not here at the time; but as you 
know, the administration of the program was given to us but not 
with really a strict set, if you will, of rules and 
regulations. Of course, then each office was able to create 
their own rules and regulations, if you will.
    I will balance with what we found in that survey with 
regard to the offices and the administration of the program, is 
that some offices, Senator Durbin, will actually set parameters 
of service before an individual qualifies for the student loan 
repayment program. Others have an open enrollment period. So, 
you are not necessarily, as a new hire, automatically entitled 
to the program. But everyone does have a little bit of a 
different variation on that theme.
    One of the questions we asked the offices in that survey 
is, would it be helpful to you if there was some additional 
guidance. I think about two-thirds of those in the survey said, 
leave it as it is. We like making our own determination.
    That having been said, I do think--and, again, most of this 
is anecdotal evidence, because as you know, the program is now 
only about 2 years old, but the anecdotal evidence is still 
overwhelmingly positive, in terms of offices who have strong 
candidates, and particularly, young lawyers, strong candidates, 
who very much wanted a job on the Hill, but because of the size 
of their student loans, salary was obviously a real issue. In 
more than one instance, offices cited that having the 
availability of that program enabled them to attract very top-
flight candidates.
    The retention piece of it, again, because the program is 
not very mature, and it still somewhat remains to be seen, we 
can continue to go back, obviously, and pull those statistics 
for you all. I did notice because I know this was one concern 
this year at this hearing, that it does not appear as if, from 
last year to this year, we dropped--we had a fairly high number 
of those who terminated before their year was up, that they 
were required of service. It looks like from last year to this 
year, that number dropped by about one-third or better. So from 
a retention standpoint, you could extract that--that is 
obviously a positive going forward.
    But we will continue to monitor that program and provide 
you with feedback. But again, from the office's standpoint, the 
ability to make their own determination and to use it as a tool 
to attract and retain, was very positive.
    Senator Durbin. Well, we give considerable latitude to 
members of the Senate and other offices, within certain 
guidelines, to decide salaries, and promotions, and work 
assignments. I like that part of the flexibility of it, because 
I think each office tries to create its own office atmosphere.
    I am going to ask, and I have asked the General Accounting 
Office to take a look at this, and see if they have any 
recommendations, whether we should be more specific in terms of 
guidelines to avoid some things that we did not anticipate. But 
thank you for your work on this.
    Ms. Reynolds. Thank you very much.
    Senator Durbin. Thank you for your testimony today. Thanks, 
Mr. Chairman.
    Senator Campbell. Thank you. This will be the last hearing 
that you appear while I am still here. I just wanted to, for 
the record, tell you how much I have enjoyed working with you, 
your professionalism, and your friendship, too. When I go back 
out West to find different kinds of mountains to climb, I will 
be thinking of you here.
    Ms. Reynolds. Keep thinking of us. We appreciate it. Thank 
you, sir.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN H. HANTMAN, ARCHITECT OF THE CAPITOL
ACCOMPANIED BY:
        DICK McSEVENEY, CHIEF OPERATING OFFICER
        AMITA POOLE, CHIEF OF STAFF
        GARY GLOVINSKY, CHIEF FINANCIAL OFFICER
        HECTOR SUAREZ, CHIEF ADMINISTRATIVE OFFICER
        BOB HIXON, PROJECT EXECUTIVE FOR THE CAPITOL VISITOR CENTER

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Now, we will hear from Mr. Hantman.
    If you would just come up here, and go ahead, and proceed. 
Your complete testimony will be included in the record, Mr. 
Hantman. I think you can abbreviate your verbal presentation as 
you would like.
    Mr. Hantman. Thank you, Mr. Chairman, Senator Durbin. Thank 
you for this opportunity to testify here today. I would just 
like to introduce a few people who are joining me here today. 
Our Chief Operating Officer, Dick McSeveney; our Chief of 
Staff, Amita Poole; our CFO, Gary Glovinsky; Chief 
Administrative Officer, Hector Suarez; Bob Hixon, our Project 
Executive for the CVC; and several other key people who have 
supported me in preparing for this hearing and throughout the 
year.
    What I would like to do, Mr. Chairman, as you indicated, is 
just have a few words in terms of an oral review here.
    Senator Campbell. Your complete testimony will be in the 
record. Just go ahead and summarize as you please.

                    FISCAL YEAR 2005 BUDGET SUMMARY

    Mr. Hantman. As we prepared this budget request, we worked 
very closely with our clients to ensure that we were addressing 
their needs and those of the Capitol complex in planning for 
necessary projects and programs.
    This budget request for fiscal year 2005 directly relates 
to my responsibilities for facilities management, project 
delivery, and the stewardship of the Capitol complex. Over the 
past few years, as directed by the Congress, additional 
buildings have been added to the AOC's responsibilities. This 
includes the new Alternate Computer Facility, the Fairchild 
Building, the National Audio-Visual Conservation Center, the 
book depositories at Fort Meade, and, of course, the Capitol 
Visitor Center.
    All told, this amounts to an additional 1.5 million square 
feet of buildings and another 91 acres or so under the AOC's 
custodial care. That brings us to some 15 million square feet 
of building space, Mr. Chairman.
    We are requesting $585 million for fiscal year 2005 to 
support the maintenance, the care, and operations of all the 
buildings and grounds of the Capitol complex. This includes a 
number of projects to support and enhance life safety and 
security which, as you know, Mr. Chairman, are my top priority. 
It also reflects a number of major projects valued at $177 
million that have been requested by our clients, including the 
Library of Congress and the U.S. Capitol Police. You alluded to 
that in your opening statement.
    This 2005 request represents a 41 percent increase over the 
enacted amount for fiscal year 2004. However, if our client 
projects were counted separately from our basic AOC budget, the 
fiscal year 2005 request would be less than my fiscal year 2004 
budget.
    On another note, Mr. Chairman, I am pleased to report that 
the AOC has once again cut its total injury/illness rate. We 
reduced fiscal year 2002's rate by more than 5 percent, for an 
annual rate of 7.9 percent in fiscal year 2003. Since fiscal 
year 2000, we have reduced the injury/illness rate by a total 
of 56 percent and we still continue to improve. Our goal 
basically is to get it down as close to zero as is humanly 
possible. We thank you for your support in this.
    Many life safety and security improvements have been 
implemented or are ongoing in the Senate office buildings. For 
example, all Dirksen building entrances have been upgraded to 
meet ADA requirements. Mechanical and electrical updates have 
been or are being completed on all Senate building elevators.
    We also continue to upgrade or install new sprinkler 
systems, smoke detection systems, and are making egress 
improvements in buildings across the Capitol complex.
    In this calendar year, Mr. Chairman, one of our highest 
priorities is preparing for the inauguration. We have bid out 
the construction of the inaugural stands, which we will be 
awarding shortly; and we are in various stages of design, 
specification, and bidding for other requirements, such as the 
sound system, ramps, and chairs for the swearing-in ceremony.

                         CAPITOL VISITOR CENTER

    Another major undertaking will be the planned start-up of 
building systems for the Capitol Visitor Center. At the 
direction of the Capitol Preservation Commission, I have 
requested as an interim measure, funding for facility 
operations and maintenance until it is decided how and by whom 
the CVC will be operated and maintained. Ms. Reynolds referred 
a little bit to that process that is going on right now.
    Construction on the CVC has been progressing at a strong 
pace, as crews are increasingly working under the roof deck, 
which now covers the entire western half of the project area. 
It might be helpful, Mr. Chairman, to just take a look at a 
photo showing the progress we made last August on the Visitor 
Center, and a photo that was taken just 2 weeks ago.
    On the left, of course, you see that the excavation was 
well underway. The foundation walls were being put in just last 
August, since last summer, completed to what we see basically 2 
weeks ago. The deck, again, is fully in place with respect to 
the area between the major skylights and the east front of the 
Capitol.
    All of that area will be part of the plaza that is 
necessary to support the inaugural activities. We will have a 
completed roof deck. We will have it covered by granite pavers, 
from the House steps to the Senate steps; and in May we expect 
to see stone masons start to lay granite pavers beginning on 
the north side, near the Senate steps. Some 200,000 pavers will 
be laid.
    Over the past year, the AOC has undergone significant 
change. We have added key people. We have reaffirmed our 
commitment to providing high-quality service to Congress and 
the American people with the implementation of a new strategic 
plan. I am dedicated to providing a safe, secure, and 
productive environment for all who work at and visit the 
Capitol complex each year, as well as for all AOC employees.
    We have completed tens of thousands of work orders to our 
clients' satisfaction--about 48,000 work orders just in the 
Senate buildings this year. We have achieved many of our goals 
due to the hard work and dedication of the AOC employees. I am 
very privileged and honored to lead such a professional team.

                           PREPARED STATEMENT

    This committee's support in helping us achieve these goals 
is greatly appreciated. Once again, I thank you for this 
opportunity to testify today. I will be happy to answer any 
questions you might have.
    Senator Campbell. Thank you.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, members of the Subcommittee, I thank you for this 
opportunity to testify before you today. The Office of the Architect of 
the Capitol (AOC) has been undergoing tremendous change over the past 
year as we have finalized and begun implementing our five-year 
Strategic Plan. Our Strategic Plan is the blueprint that we are now 
following to help us carry out our responsibilities to preserve and 
enhance the United States Capitol and the other facilities located 
across the Capitol complex as well as guide us as we provide high-
quality service to Congress and the American people.
    Our Strategic Plan is linked to our Performance Plan which outlines 
specific actions and milestones we will use to achieve our goals. We 
also have established a reporting protocol that is tracking the 
Agency's strategic initiatives, the General Accounting Office's 
recommendations, and the Chief Operating Officer's Action Plan items on 
a monthly basis. In addition, we have identified a number of measures 
to monitor and evaluate the success of our work efforts over the next 
year.
    Last July, we added a Chief Operating Officer to the team. Richard 
McSeveney is responsible for much of the AOC's day-to-day operations 
including programs and initiatives associated with strategic planning, 
performance management, worker safety, customer satisfaction, and 
service quality. He has submitted his Action Plan to Congress that 
outlines how we are implementing change and moving the AOC to the next 
level of client service excellence.
    As we prepared this budget request, we worked closely with all of 
our clients to ensure that we were addressing their needs and those of 
the Capitol complex in planning for numerous projects and programs. 
This budget request for fiscal year 2005 will allow me to meet my 
responsibilities for facilities management, project delivery, and the 
stewardship of the Capitol complex. But just as importantly this budget 
responds to the needs of our customers, the requirements for improved 
fire and life safety, security, and future obligations.
    Over the past few years, per the direction of Congress, additional 
facilities and projects have been added to the AOC's responsibilities. 
A short list of facilities includes the Alternate Computer Facility, 
the Fairchild Building, the National Audio Visual Conservation Center 
in Culpeper, Virginia, and of course, the Capitol Visitor Center. All 
told, this amounts to an additional 1.5 million square feet and 91 
acres under the AOC's custodial care. Our budget has been structured 
and increased to support the new requirements and responsibilities this 
Agency has for these new facilities.
    Over the past several weeks, we have worked with the respective 
committee staffs and our clients to address possible budget 
resolutions. We re-examined priorities and studied how holding our 
budget to fiscal year 2004 funding levels would impact our day-to-day 
work as well as major projects. We have met the challenge of building a 
budget request that balances both fiscal responsibility and my office's 
mission to preserve, maintain, and enhance the national treasures and 
properties entrusted to us. I want to thank the Subcommittee for its 
generous support over the years without which we could not have 
completed many critical projects, continued to provide exemplary 
service, and assured continuity of operations at the Capitol, in the 
Senate Office Buildings and throughout the Capitol complex.
    We are requesting $479.3 million (not including items specific to 
the House) for fiscal year 2005 to support the maintenance, care, and 
operations of the buildings and grounds of the Capitol complex. This 
includes a number of projects to support and enhance life safety and 
security--my top priority. It also reflects a number of major projects, 
valued at more than $136 million that have been requested by our 
clients including the Library of Congress (LOC) and the U.S. Capitol 
Police (USCP).
    The most significant requests are $59.2 million for the 
construction of the Library's Copyright Deposit Facility; $39.5 million 
for the construction of the third and fourth increments of the 
Library's collection storage modules at Fort Meade; $18.4 million to 
accommodate office and storage space at the Fairchild and GPO buildings 
for the Capitol Police; and another $18.4 million for a USCP firing 
range and off-site delivery facility.
    This is a $138.7 million or 41 percent increase over the enacted 
amount of $340.5 million for fiscal year 2004. This does not reflect 
the $12 million transfer of fiscal year 2003 appropriations into the 
AOC budget for fiscal year 2004 for the Capitol Visitor Center.
    If these specific client requests were not counted in the AOC 
budget request, budget growth for fiscal year 2005 for my Agency would 
actually show a negative growth from fiscal year 2004.
    Other key items in my budget request include $20.1 million for 
sprinkler and smoke detector upgrades in the Library of Congress 
buildings; $3.7 million for the Hart modular furniture replacement 
program; $1.3 million to renovate Senate Office restrooms; $4.5 million 
to implement Phase III of the U.S. Capitol Master Plan; $14.5 million 
for the preparation of the opening of the Capitol Visitor Center; $5.1 
million for the restoration of Bartholdi Park and Fountain; $1.5 
million to design the upgrade of the Capitol complex cable television 
system; $955,000 for wayfinding signage, renovation and restoration of 
street lights and other decorative items on the Capitol grounds, and 
$1,065,000 for installation and operations of emergency defibrillators 
across the Capitol complex.

                          PROJECT DESCRIPTIONS

Copyright Deposit Facility--$59.2 million
    This new, centralized, 180,200 square foot facility would house all 
existing and projected copyright collections in a secure, specialized 
environment for the Library of Congress. The Copyright Office of the 
Library of Congress is required by law to retain all the post-1977 
unpublished deposit materials for the full term of the copyright 
protection and published deposits for the longest period considered 
practicable and desirable by the Register of Copyrights. The design 
work has been completed on this two-story building and, if funded, 
construction will begin in 2005. If the facility is not built, the 
storage of existing and future copyright collections will continue to 
be housed in decentralized, privately leased records facilities with 
questionable abilities to provide for the future growth of deposits and 
records. In addition, the collections will continue to be at risk due 
to the inability of existing mechanical systems to provide for the 
specialized requirements regarding temperature and humidity.
Fort Meade Book Storage Modules 3 and 4--$39.5 million
    This project for the Library of Congress entails the construction 
of two buildings to alleviate a shortage of collection storage capacity 
at the Jefferson, Adams, and Madison buildings on Capitol Hill. The 
third and fourth storage modules are designed to maintain environmental 
conditions of 50 degrees Fahrenheit and relative humidity of 30 
percent. Scheduled to be constructed in late 2004 and 2005, the 
buildings will have two loading docks, a quarantine room, and a vacuum 
equipment room, as well as mechanical and electrical rooms to 
accommodate the necessary equipment. If construction of these modules 
is delayed, the Library's ability to accept new materials into its 
collection will be compromised.

U.S. Capitol Police Support (USCP)--$30.9 million
    The AOC has recently signed a 10-year lease to occupy a little more 
than four floors of the Fairchild Building located at 499 South Capitol 
Street, S.W., that will accommodate the interim office space needs of 
the U.S. Capitol Police. Funds have been requested for the annual lease 
and to cover the costs to fit out the available space. This includes 
fixtures, furnishings, equipment, telecommunications, and information 
technology infrastructure.
    In addition, the AOC is nearing agreement with the Government 
Printing Office to utilize some space for the Capitol Police logistical 
and storage functions, such as property management and warehousing. 
Relocating the USCP to these spaces will free existing space occupied 
by the USCP for Congressional use.

Capitol Visitor Center Start-up Support--$14.5 million
    In preparation for the opening of the Capitol Visitor Center (CVC), 
$6.3 million is requested to procure equipment and supplies, contract 
for custodial services, and support, operate, and maintain the 
structural, architectural, and utilities infrastructures.
    An additional $8.2 million is being requested to cover the 
transitional stand-up costs for the operations, administration, and 
management supporting guide services, visitor services, food services, 
and gift shop services for the CVC.
    In addition, the AOC is requesting 35 Full Time Equivalents (FTEs) 
in preparation for the opening of the CVC. Eighteen FTEs are being 
requested in the Capitol Building appropriation for facility 
maintenance; 16 FTEs in the CVC appropriation for project and 
operations support necessary for an orderly startup (tour guide 
services, restaurant management and gift shops); and one FTE to support 
the Office of the Attending Physician.

                            EMPLOYEE SAFETY

    For the third consecutive year, the AOC has cut its injury/illness 
rate. According to year-end figures from the Occupational Safety and 
Health Administration, we reduced fiscal year 2002's rate of 8.35 by 
more than five percent for an annual rate of 7.91 in fiscal year 2003. 
Since fiscal year 2000, we have reduced the total injury/illness rate 
by 56 percent. These achievements would not have been possible without 
the efforts of all AOC employees. In January, we conducted an Agency-
wide survey asking employees about their perceptions, opinions, and 
attitudes about safety. The response rate to the survey was 62 percent 
when typically these surveys receive a 30 percent response rate.
    When asked if they agree with the statement, ``Workplace safety is 
very important to AOC,'' 90.8 percent of AOC employees agreed with the 
statement. Nearly ninety-four percent of employees stated that they 
``think about the safety of my customers and the public,'' and 96.2 
percent said they ``think about their own safety on the job.'' Over the 
past several years, our workforce has made a commitment to work in a 
safe and healthy environment. This commitment has lead to consistent 
and notable reductions in our injury/illness rate.
    However, any single injury is one too many. I am committed to 
providing a safe environment on Capitol Hill. I set high expectations 
and communicate them to my Superintendents and employees. I perform 
unannounced visits to worksites to observe and discuss safety and 
ensure that personal protective equipment is available and worn. Mr. 
Chairman, I have requested $64.7 million in project funding to support 
life/safety and security projects. It includes upgrading or installing 
new sprinkler systems and smoke detection systems; upgrading elevators; 
renovating restrooms to comply with ADA requirements; installing 
defibrillators across the Capitol campus; and making egress 
improvements.

                  SENATE OFFICE BUILDING IMPROVEMENTS

    Many life/safety and security improvements have been implemented or 
are ongoing in the Senate Office Buildings. For example, all Dirksen 
Office Building entrances have been upgraded to meet ADA requirements, 
and all mechanical, electrical, and cab refurbishing upgrades to the 
elevators in the Russell Building have been completed. All mechanical 
and electrical updates are completed on the Dirksen Building elevators, 
and the cab upgrades are scheduled to be completed this fall. The Hart 
Building elevators modernization will begin in May and the completion 
date for this project is spring of 2005.
    In the area of client services, Senate offices now have a new way 
to submit and track work requests, learn about on-going projects, order 
furniture, or request assistance from the Senate Superintendent's 
Office. The tool is a new intranet site: http://Senate.AOC.gov. This 
site is the first AOC client-specific web site focused on customer 
service. In addition, building alerts are regularly posted on the site 
and updated to provide information about projects such as elevator or 
restroom upgrades.
    Our new Senate site was rolled out during a demonstration for 
Senate staff in December and we have been providing training classes 
for office managers. Senate staff members have also been providing us 
with suggestions on how to add value to the site and we are making 
adjustments to better meet their needs. The site will continue to grow 
and evolve in the upcoming months, for example, a client feedback form 
was recently added. Similar sites for the House and Capitol 
Superintendent's Offices will be online soon.
    The AOC continues to make significant improvements in the Senate 
Office Recycling Program. Contamination rates have plummeted from a 
high of 75 percent in fiscal year 2000 to zero for the first quarter of 
fiscal year 2004. We attribute this tremendous progress to three 
things: we simplified the program, we have initiated coordination 
efforts with the Senate Sergeant at Arms and Senate staff to further 
educate them about the program, and we have modified our own work 
practices and operations to ensure efficient and effective collection 
and separation of recyclable materials. We have also increased the 
types of recyclable materials we collect to include items such as toner 
cartridges and rechargeable batteries. Ninety-three office suites, 
eight committee suites and a number of other Senate offices are 
actively participating in the recycling program.

                            CAPITOL BUILDING

    In fiscal year 2005, one of our highest priorities concerning the 
Capitol Building will be the preparations for the Presidential 
Inauguration. We have been updating plans from the last inauguration 
and have begun planning the construction of Inaugural stands and 
identifying other requirements, such as a sound system, ramps, 
crossovers, and chairs for the swearing-in ceremony. We are also 
working closely with the U.S. Capitol Police on security issues.
    Mr. Chairman, I am pleased to report that as of February 17, 2004, 
the Capitol Dome was re-opened for special Member-led tours. As you 
know, tours were suspended following the terrorist attacks on September 
11, 2001. Since that time, my office completed a number of safety 
upgrades in the Dome that included installing exit signs, bump guards, 
fire alarms, an evacuation system, improved handrails, and new stair 
treads. We also improved the tour route lighting and emergency 
lighting. I would like to note, however, that the scheduling and 
conducting of these tours now falls under the responsibility of the 
Capitol Guide Service.
    We have completed a number of other projects throughout the Capitol 
over the past year including installing numerous additional life and 
fire safety devices throughout the building; continuing to restore and 
conserve frescos, historical artwork, chandeliers, and the Brumidi 
murals; and upgrading 24 of 28 elevators. The remaining four are 
scheduled to be completed between fiscal year 2004 and fiscal year 
2006.
    Mr. Chairman, a popular service we provide for the American public 
is the opportunity to purchase, through Members' offices, flags flown 
over the U.S. Capitol. Last fall, my office discovered that several web 
sites existed that were reselling flags flown over the Capitol at a 
much higher cost than if the consumer had requested one through their 
Member's office. We sent out notices to all Congressional offices to 
alert Members to this practice and have been developing a web site that 
would provide information on flags flown over the Capitol and directing 
consumers to contact their respective Senators or Representatives. I am 
pleased to report that as a result of our actions, many of these web 
sites have ceased reselling flags or have changed their web sites to 
clarify their business practices.
    As I mentioned earlier, another major undertaking will be the 
start-up of the Capitol Visitor Center facility. At the direction of 
the Capitol Preservation Commission (CPC), I have requested funding 
under the Capitol Building fiscal year 2005 appropriation, as an 
interim measure to fund facility operations and maintenance until it is 
decided how and by whom the CVC will be operated and maintained.

                      CAPITOL VISITOR CENTER (CVC)

    Construction on the CVC has been progressing at a strong pace, 
especially over the last several months as crews are increasingly 
working under cover below portions of the roof deck which now covers 
the entire western half of the project area. Sequence 1 and Sequence 2 
contractors have been jointly working to coordinate and fully integrate 
their schedules to ensure that the project proceeds in the most 
efficient manner possible. Additionally, we have augmented our 
management team to facilitate the efficient sequencing and execution of 
the more than 3,000 project line items that need to be accomplished.
    Over the next year, Members will witness the completion of the 
western half of the plaza at a level sufficient to support inaugural 
activities. That entails the ability of the plaza deck to accommodate a 
Presidential motorcade and, if necessary, the landing of a helicopter 
on the deck. Specifically, the portion of the plaza supported by the 
steel framing will have a completed roof deck covered by granite pavers 
from the House Steps to the Senate Steps. In May, Members can expect to 
see stone masons on the plaza laying granite pavers on the East Front 
Plaza deck beginning on the north side of the deck near the Senate 
Steps. A plan describing the plaza finishes and the accessible areas of 
the CVC site for the Inauguration has been presented to the CPC and 
Rules Committee staff. Other landscape elements will be in place and 
some portions of the hardscape elements, including the retaining walls 
around the House and Senate grassy oval areas, will be partially in 
place. At the same time, all the interior facilities will continue to 
be worked on and ultimately commissioned and turned over so those 
operating the facility will have time to adapt to the facility and 
establish operating procedures before the CVC opens to the public.
    The current estimated completion date for the CVC is spring 2006. 
After a long and thorough review of project activities and the line-
item schedules of both Sequence 1 and 2 contractors by my office, our 
construction manager, and the General Accounting Office, we have 
determined this more accurate opening time frame.
    The overall base project budget stands at $351.5 million. This 
amount includes the $265 million appropriated for the core CVC space 
and the shell for House and Senate expansion space; $38.5 million for 
additional security enhancements funded after September 11, 2001; and 
$48 million to accommodate higher than expected bids, additional 
changes in scope and design due to unforeseen site conditions and 
weather impacts, and the management and construction costs associated 
with the scope and design changes, as well as contingency funds. 
Additionally, $70 million has been appropriated for the build-out of 
the House and Senate expansion spaces.
    As construction continues, we continue to plan the exhibits that 
will be featured inside the CVC and work with representatives of the 
Capitol Preservation Commission to determine how services such as food 
service, gift shops, guide services, and first aid to our visitors will 
be provided. Because our 16,500 square foot gallery will be the only 
one in the country dedicated to the history and accomplishments of the 
Congress and the growth of the Capitol, it will feature a number of 
interesting and educational exhibits. It will include a 10-foot tall 
touchable model of the Dome with cutaway interior; a curving marble 
wall inset with state-of-the-art document cases featuring historic 
documents from the Library of Congress and the National Archives 
chronicling legislative achievements; a set of six alcoves covering the 
history of the House, the Senate, and Capitol Square; virtual House and 
Senate theaters allowing historical programs and live access to floor 
proceedings; a ``Behind the Scenes'' area covering everything from 
subways to grounds-keeping; a photo exhibit featuring the Capitol as a 
national stage for important ceremonies; and an interactive area where 
visitors can access touch screen programs about ``Your Congress/Your 
Capitol.''
    Mr. Chairman, I know that we all eagerly await the opening of this 
unique, historic, and very necessary visitor center that will offer 
free and open access to all people in a safe and secure environment so 
that they may witness and learn about the workings of democracy and the 
legislative process.

                            PROJECT DELIVERY

    As the example of the CVC illustrates, in recent years the number 
and complexity of our projects has greatly increased. Therefore, the 
AOC has worked to develop core and technical competencies for its 
project managers and contracting officers. Specifically, we have 
established a competency framework and training assessment for both AOC 
contracting officers in line with the Defense Acquisition Workforce 
Improvement Act (DAWIA) and AOC project managers in the engineering and 
architectural series that mirrors the Project Management Institute Body 
of Knowledge.
    We are also working more closely with our clients to design and 
control the scope of our projects to assure high quality drawings and 
specifications, to minimize changes during construction, and to deliver 
quality projects on time and on budget. All current projects have been 
prioritized and the more critical projects have been assigned to the 
Project Management Division. Appropriate levels of support are being 
provided to these project managers to assure that they have the 
resources necessary to move these high priority projects forward.
    The Capitol Complex Master Plan that is under development will help 
facilitate consistent management and oversight of all our projects and 
assist us in setting priorities. Its key objectives are to document 
existing conditions; provide context for site selection and site 
development within and near the Capitol Grounds; address cross-
jurisdictional questions of historic preservation, sustainability, 
infrastructure renewal, permanent security measures, visitor management 
strategies, traffic and parking issues, and landscaping; and identify 
facility needs and future building trends, and coordinate planning 
efforts with local, regional, and Federal development plans.
    The existing master plan is nearly 25 years old and does not 
address present-day issues such as increased security, new and 
advancing technologies, and future needs. As you know, since September 
11, the AOC has undertaken substantial new projects to adjust to a 
demand for heightened security. Chief among these projects is perimeter 
security which has seen significant progress.
  --Capitol Square.--All work on the Senate side of Capitol Square is 
        complete except the outer perimeter work along Constitution 
        Avenue, N.W., and the work which is currently impacted by the 
        Capitol Visitor Center project. The portion near 1st Street and 
        Constitution Avenue, N.W., which is part of the Capitol 
        Complex's outer perimeter, is also ongoing. The north entry 
        will be constructed following the completion of the tunnel work 
        on the CVC. The work along the Northeast Drive and 1st Street, 
        N.E., will be completed following the completion of the CVC 
        itself. The portion of the outer perimeter near 1st Street and 
        Constitution Avenue, N.W., will be completed as part of the 
        later phases of the Senate Office Building Perimeter Security 
        program.
      The work on the House side of Capitol Square is largely complete 
        with the major exception of the work which is currently 
        impacted by the CVC project and the portion near 1st Street and 
        Independence Avenue, S.W., which is part of the Capitol Complex 
        outer perimeter.
  --Senate Office Buildings.--A contract has recently been awarded for 
        the perimeter security work along Constitution Avenue between 
        Delaware Avenue and 2nd Street, N.E. This work is currently 
        planned to be completed in November 2004. The remainder of the 
        perimeter security around the Senate Office Buildings will be 
        completed in phases over the next two years.
  --House Office Buildings.--The work along Independence Avenue in the 
        front of the House Office Buildings is largely complete with 
        full completion anticipated this spring. The remainder of the 
        perimeter security around the House Office Buildings will be 
        completed in phases over the next two years.
    Another project underway that will address the current and future 
needs of the Capitol Complex is the expansion of the West Refrigeration 
Plant at the Capitol Power Plant. This project replaces the aging and 
outmoded East Plant refrigeration machines and provides for additional 
heating and cooling requirements. The project is approximately 25 
percent complete and, when finished, will enable the Capitol Power 
Plant to reliably meet cooling requirements through 2025 and will 
significantly increase overall plant efficiency, thereby lowering 
annual energy consumption.

                             HUMAN CAPITAL

    Because the AOC is a service-based organization, our workforce is 
our most valuable asset. We continue to look at new and innovative 
approaches to better attract and retain highly qualified employees so 
that we continue to be in a position to meet the needs of all our 
clients.
    We have hosted in-service Federal Employees Health Benefits Days to 
assist employees with any problems they may have or to answer questions 
about various health plans. We plan to host sessions twice a year. We 
have also developed a new Leadership Development Program that we plan 
to roll out soon. It expands the existing framework to address all 
leadership levels of AOC to develop the skills needed to achieve 
competencies that are considered to be government-wide standards. In 
addition, we have invested in employee training and provide other 
incentives, such as transit subsidies.
    This past year we established a new Office of Workforce Planning 
and Management (WFPM) as approved in our fiscal year 2003 full time 
equivalent appropriations request. This office is responsible for 
position management, organizational analysis, and succession planning. 
WFPM staff has conducted an Administrative Study in which they 
evaluated the need of administrative positions, the duplication of 
positions, and whether AOC's positions and functions align with the AOC 
Strategic Plan.
    In September 2003, the AOC launched AVUE, a Digital Services 
Recruitment and Staffing Module that lists all AOC vacancy 
announcements and allows job applicants to apply online. In addition, 
all position descriptions are developed in AVUE. Its implementation has 
significantly reduced the time it takes to generate and issue a 
referral list of qualified candidates to managers, thereby reducing the 
time to fill vacant positions.
    With the assistance of the Office of Information Resources 
Management, kiosk computer stations were established in every 
jurisdiction so AOC employees can have access to computers to develop 
their employment profiles, view vacancies, and apply for AOC vacancies 
at any time. In conjunction, we opened an AOC Employment Center. The 
center is open every Tuesday and Thursday and by appointment. AOC Human 
Resources staff members are available to assist employees in developing 
their employment profiles and providing instruction to apply for 
positions online.

                         INFORMATION TECHNOLOGY

    Our budget request for the Office of Information Resources 
Management (OIRM) has increased as a result of our efforts to 
centralize all information technology (IT) functions under OIRM. In the 
past, individual jurisdictions controlled some portions of IT funds.
    In addition to bringing AVUE online, OIRM successfully managed a 
number of projects this past year including: developed and published 
the AOC's Enterprise Architecture; completed the foundation for the 
upgrade to AOC's network, AOCNET; completed the infrastructure build-
out at the Alternate Computer Facility (ACF); implemented the Financial 
Management System fixed assets module on schedule which provides the 
AOC with automated records of its fixed assets and enables the 
Accounting Division to record automated depreciation entries in the 
general ledger (proper accounting of fixed assets is required to 
receive an unqualified audit opinion); developed and launched the 
Senate's web site; and completed the AOCNET Fiber-optic Ring Project.

                           SENATE RESTAURANTS

    Another area in which we provide client service is in the Senate 
Restaurants. We have been making strides in reducing economic 
dependency over the past few years through cost reductions and the 
marketing of our services.
    Our management has taken a number of steps to help resolve some 
issues regarding its billing procedures including: sending out bills to 
collect unpaid balances; implementing a detailed code system to explain 
charges and verifying who authorized such charges; and billing on a 
more regular cycle.
    The Senate Restaurants offer services designed to provide Senate 
Offices with new menu options when planning small, in-office functions 
that are less expensive than fully catered events. Senate staffers can 
log on to our expanded web site and check out the daily specials in 
each restaurant and look for special events. The site is registering 
more than 5,000 hits per month.
    This year we upgraded our cash registers in both the North Servery 
and Senate Chef to accept credit cards. Shortly we hope to institute a 
discount debit card for use in the North Servery as well.
    Finally, I am especially pleased to inform you that for the sixth 
straight year, independent auditors have found no reportable conditions 
or material weaknesses in financial controls.

                               CONCLUSION

    The Office of the Architect of the Capitol has been serving 
Congress since 1793 and continues to provide client services through 
hurricanes, ice storms, anthrax, and ricin incidents.
    Over the past year, we have undergone significant change and have 
reaffirmed our commitment to providing high-quality service to Congress 
and the American people. Our request for funds is in direct response to 
our customers' requests for important projects and programs. In 
addition, we continue to strive to achieve the level of safety, 
security, preservation, and cleanliness, expected across the Capitol 
Complex.
    I am dedicated to providing a safe, secure, and productive 
environment for all who work at the AOC and for those who work and 
visit the Capitol Complex each year. We have completed thousands of 
work orders, have met our clients' expectations, and have achieved our 
goals due to the hard work and dedication of all our AOC employees. I 
am very privileged and honored to lead such a professional team.
    The Subcommittee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'd be happy to answer any questions you might have.

                            CVC LANDSCAPING

    Senator Campbell. Once the pavers are on the plaza, is 
there going to be an automobile parking lot, or is that going 
to be a garden look?
    Mr. Hantman. Certainly, from the perspective of the front 
yard to the Capitol, Mr. Chairman, my recommendation would 
certainly be that parking would be extremely limited to those 
people who really need to bring cars up onto the east plaza. 
But that is clearly an administrative decision for the----
    Senator Campbell. Are we going to replant the grass and 
some of the trees that were there?
    Mr. Hantman. Absolutely. Absolutely. We will, in fact, have 
more trees----
    Senator Campbell. There will be enough soil, on top of the 
roof of that, to be able to hold trees?
    Mr. Hantman. The areas that have been directly adjacent to 
the Capitol, say, between the central rotunda steps and the 
Senate steps, between the central rotunda steps and the House 
steps, those panels will be there. We will be having grass, 
just as Mr. Olmstead originally planned it. The concept was not 
to have heavy trees or gaudy planting that would detract from 
the building itself at those locations.
    So, those will be replaced. We will have adequate room for 
growing the grass that we need in those panels, as well as on 
the eggs. The House and the Senate eggs will be replanted. 
Trees, the alle of trees leading down East Capitol Street will 
be fully replaced with trees that are in line with the original 
design of Mr. Olmstead.
    Senator Campbell. And you feel confident that the surface 
is going to be done before the 2005 inaugural activities?
    Mr. Hantman. We will have that surface ready for--if there 
is a motorcade for the President, if the helicopter, the 
Presidential helicopter has to land, it will be in place, the 
troops need to pass in review, that will be all ready for that.

                  FISCAL YEAR 2005 FUNDING REDUCTIONS

    Senator Campbell. We have big problem with money this year, 
as you know. AOC has requested a 41 percent increase. That is 
large and it may be very well needed, but it will be tough to 
accommodate. I have asked everyone who has come before our 
committee, what happens if we cannot fund that request? Have 
you prioritized what is the most important thing that we need 
to be aware of if we need to trim some money from your request?
    Mr. Hantman. Well, within my agency, Mr. Chairman, I have 
really reviewed both operations and the capital improvement 
requirements that were requested by the superintendents of each 
of our jurisdictions; a separate jurisdiction for the Senate 
office buildings, the House, the Capitol, Library of Congress. 
And we balanced their priorities for fire, life safety, 
security, and operational requirements, against the fiscal 
realities; to ensure that we could fulfill our responsibilities 
without significant budget increases.
    In addition to refining the AOC needs for maintenance 
operations and funding for capital projects, we also worked 
very closely with our clients to ensure that we were addressing 
their needs as part of the requirements of the overall Capitol 
complex.
    I recently requested that the Library of Congress and the 
Capitol Police review and formally reconfirm their needs and 
requests, and they have done so. I have letters for the record 
submitted on March 23, from Dr. Billington, and April 5, from 
Chief Gainer, which really talk to their projects and the need 
for those very important projects.
    [The information follows:]

                                 The Librarian of Congress,
                                    Washington, DC, March 23, 2004.
The Honorable Alan M. Hantman, FAIA,
The Architect of the Capitol,
Washington, DC.
    Dear Alan: In response to your March 10 letter, I am writing to 
reaffirm the Library's mission-critical need for the following projects 
in the Architect of the Capitol (AOC) fiscal year 2005 budget.
Fort Meade Modules 3 and 4: $39,500,000
    There has already been a delay of more than five years in obtaining 
this desperately needed space.
    Failing to fund Modules 3 and 4 in fiscal year 2005 would adversely 
affect library materials.
  --The special format collections that are scheduled to fill Modules 3 
        and 4 and the four specially designed cold vaults total 
        approximately 26.2 million items, and include: 500,000 reels of 
        microfilm masters, many of which are in imminent danger of 
        deterioration that will render them unusable unless they are 
        transferred to cold storage; 10 million manuscripts; 340,000 
        maps; 750,000 print and photographic negatives; and 500,000 
        boxes of special collections from the collections of Prints and 
        Photographs, Music, Law, Rare Book and Special Collections, 
        Folklife and rare bound volumes from Serials and Government 
        Publications.
    Many of these materials are stored in conditions that do not meet 
preservation standards. Others are stored in better environmental 
conditions, such as Iron Mountain, but are not readily retrievable for 
processing or consultation by researchers, seriously hampering core 
Library activities.
Copyright Deposit Facility: $59,200,000
    A delay in funding would: add more time of storing copyright 
deposits in unsuitable conditions, further advancing the deterioration 
of these deposits; and continue the risk of public criticism that 
copyright deposits are not being preserved to meet the requirements of 
the law.
    We are currently storing more than 135,000 cubic feet of copyright 
deposits.
    Copyright's capacity requirements will grow, particularly with the 
1999 Copyright term extension, which means the Office will have to 
store unpublished deposits for an additional 20 years.
Collections Security (Secure Storage Rooms): $860,000
    In compliance with the Library's congressionally approved 
Collections Security Plan, funding is needed for the construction of 12 
secure storage vaults within the Library's three Capitol Hill buildings 
to house all ``platinum'' and ``gold'' collections.
    Current funding allowed the construction of five vaults; fiscal 
year 2005 funding will support an additional three vaults, with the 
remaining four vaults built in fiscal year 2006.
    A delay in the construction of the vaults could result in a life 
expectancy of about 20 percent of what it would be if the collections 
were stored under proper environmental conditions.
Cafeteria Equipment: $210,000 (Price Correction from Memo)
    The continued maintenance problems of current cafeteria equipment 
(dishwashing machine) add service cost through staff downtime and 
additional use of paper products.
    If not funded, the condition of the equipment will continue to 
deteriorate, consuming additional AOC maintenance labor hours needed 
elsewhere.
    With machinery not fully operational, it creates a safety hazard 
with operators and health concerns with Library staff and patrons.
Study--Book Conveyor Integration/Upgrade: $400,000
    Without this funding to study the alternatives for correcting 
numerous deficiencies with the existing book conveyor systems, service 
levels will continue to decrease. This may ultimately lead to a 
complete failure of the book conveyor systems.
    The decreased service levels will impact the Library's ability to 
efficiently deliver materials to its staff and other customers, and 
severely impact staff resources by eventually forcing the manual 
delivery of books and research materials.
    Funding is not required for the Madison Loading Dock Expansion 
($125,000), and should be deleted from the fiscal year 2005 budget 
request.
    If you have any questions regarding the Library's fiscal year 2005 
AOC budget requirements, please contact Budget Officer Kathryn Murphy 
on 707-5186.
    The Library appreciates the AOC's continued support with its 
buildings and grounds requirements.
            Sincerely,
                                       James H. Billington,
                                         The Librarian of Congress.
                                 ______
                                 
                      United States Capitol Police,
                                       Office of the Chief,
                                     Washington, DC, April 5, 2004.
The Honorable Alan M. Hantman, FAIA,
Architect of the Capitol, SB-15, The U.S. Capitol, Washington, D.C.
    Dear Mr. Hantman: This is in response to your letter of March 10, 
2004, requesting that we validate the inclusion, and provide a 
statement as to the effect on our operations of deferring the three 
USCP facility projects contained in your fiscal year 2005 budget.
Firing Range Design and Construction $12,000,000
    The original partnership with the Federal Law Enforcement Training 
Center (FLETC) on the new training facility in Cheltenham, Maryland 
included 26 agencies. With the creation of Department of Homeland 
Security and subsequent merger with Treasury/FLETC, the facility now 
serves 70 plus agencies but the size of the range has not grown 
proportionally. We continue to work with FLETC regarding issues on 
availability of the facilities as well as funding requirements. We have 
also been working with the Appropriations Committees regarding the 
resolution of the issues. However, the issues remain unresolved. If the 
scheduling requirements for all USCP firearms training and re-
certification can be accommodated by the FLETC, the USCP will not 
require the facility requested by the AOC. However if the facility 
availability issues are not worked out to our satisfaction, the 
construction of a new firing range is critical to the operations of the 
USCP.
Fairchild and GPO Build-Out $12,500,000
    It is our understanding that the AOC only has funding for fit-out 
of one of the four plus floors leased on behalf of the USCP in the 
Fairchild building. Without the $12.5 million, renovations necessary to 
occupy the remaining three floors could not be made. Without occupying 
this space, the USCP cannot relieve exiting overcrowded conditions and 
provide for current growth of personnel and equipment. We therefore 
request that this item remain in your budget.
Off-Site Delivery $6,400,000
    The current off-site delivery facility at P Street S.E. is in 
dilapidated condition. It no longer sufficiently meets the operational 
needs of the Congressional community nor does it address the growing 
security requirements of the Congress. A new facility is critical to 
the operations of the Congress. Given the current real estate market, 
we need to be ready to immediately respond when an acceptable site is 
identified. Therefore, we request that you continue to support this 
funding in fiscal year 2005.
    Thank you for requesting our input in these facility related issues 
that so critically impact our operations. If you have any operational 
questions please do not hesitate to contact Captain Morris, on 224-
4161.
            Very Respectfully,
                                        Terrance W. Gainer,
                                                   Chief of Police.

                    FISCAL YEAR 2004 SPENDING LEVELS

    Mr. Hantman. Our goal, Mr. Chairman, would be to maintain a 
steady state of operations at the same level as fiscal year 
2004, providing essential services, as expected, levels of 
safety and security throughout the Capitol complex. Our new 
capital projects requested by our clients, which are valid and 
important needs, would have to be deferred, if we, in fact, 
were left at the fiscal year 2004 level.
    Senator Campbell. Okay. I interpret that to mean they are 
all high priorities?
    Mr. Hantman. All of them, sir.
    Senator Campbell. I understand that you have unobligated 
funds from last year and prior years. Can we reprogram any of 
those unobligated funds to projects planned for fiscal year 
2005?
    Mr. Hantman. We do have a large balance of unobligated 
funds, as you mentioned. This includes a number of long-term 
projects, some of them being built in phases, some of them 
allocated towards the Power Plant, towards the CVC. But there 
are several parts of that unobligated balance that could be 
reprogrammed and reused, assuming that they would be 
replenished in future years.
    For instance, there is some $63 million to purchase the 
Alternate Computer Facility. If we wanted to continue renting 
for a period of time, that might be a possibility. There is $16 
million in unobligated funds for the National Audio-Visual 
Conservation Center. That is the Government's share of the 
funding that is being provided by the Packard Foundation. If 
that were replenished in a timely way to give that money 
towards that project, that might potentially be used.
    We do have other large unobligated balances for security, 
and for the Cheltenham training facility, all of these issues. 
But there would be things we certainly could talk to for 
possible reprogramming, if, in fact, they were replenished in a 
timely way.
    Senator Campbell. We have given you an awful lot of work to 
do. Should we consider perhaps a 1-year moratorium in on any 
new projects?
    Mr. Hantman. Mr. Chairman, we have effectively, in our 
budget preparation timeframe, pretty well scrubbed--we 
essentially incorporated a moratorium within the AOC for our 
basic projects, already. When our superintendents came to us 
with their requests, we basically said we are going to have--
and I think you referred to it in your comments--about an 18 
percent increase in cost of living, in life-safety projects, 
and the cost of utilities. We have absorbed that within our 
total budget amounts.
    By doing that, by absorbing that 18 percent, we essentially 
already cut back on capital projects that we were trying to 
achieve within our fiscal year 2004 levels. So, we have started 
doing that already, sir. But as you have indicated, we 
certainly do have a very significant workload, and we are 
trying to work through that.

                          CAPITOL POWER PLANT

    Senator Campbell. Okay. Thank you. You also mentioned the 
Capitol Power Plant. Eighty-two million dollars has been 
provided in the last several years for that. What is the status 
of the project? I did not remember hearing if it is on time or 
on budget.
    Mr. Hantman. We are definitely on budget. That project is 
proceeding well. There have been delays. The delays are the 
same issues that we faced on the Visitor Center: weather-
related delays, utility-related delays; about 120 days, to 
account for that.
    But one of the things that we are doing, because the east 
plant--the east refrigeration plant is in such poor shape right 
now and that is, of course, why you have granted us the ability 
to expand the west refrigeration plant and upgrade it, is we 
are taking two 3,000-ton chiller units and putting them 
temporarily in the east refrigeration plant; so that we can, in 
fact, make sure that we meet all the requirements for heating 
and cooling at the Capitol.
    Those two refrigeration units will be moved into the west 
plant as we move ahead. So, the fact that we are behind 
schedule should not impact the operation and supply of 
utilities to the facilities themselves; and if we want to buy 
back some of that lost time, it would be fairly expensive. So, 
we think that the solution of having these temporary machines 
put into the existing east plant, moving them over is the more 
financially appropriate way to proceed.
    Senator Campbell. Okay. Thank you. Senator Durbin, I will 
yield to you for some questions.

                   CAPITOL VISITOR CENTER MANAGEMENT

    Senator Durbin. Thank you very much, Mr. Hantman. We thank 
you and your staff for being here today, and I want to 
particularly thank Matt Evans, the landscape architect, for his 
cooperation and work with our staff on the Rain Garden project, 
which we talked about last year. They are giving me good 
reports and I thank all of you for your work in that regard.
    I would like to make a statement for the record that there 
have been some suggestions that the Capitol Visitor Center 
needs a new bureaucracy, that we need to create a new office to 
manage the Capitol Visitor Center. I think that is a very bad 
idea. I think the Capitol Visitor Center should be administered 
by your office. There may be a particular element that requires 
someone on your staff to be assigned to that. But to make that 
a separate operation, as someone suggested, I just think adds 
another layer of bureaucracy and confusion that is expensive 
and unnecessary.

                             WORKER SAFETY

    I would like to ask you about a few things that have been 
recurring topics. One was worker safety. Several years ago, the 
reports were not too good in terms of workers' compensation and 
injuries on the job. We brought in some people to give some 
advice on that. What is the status today?
    Mr. Hantman. Senator Durbin, I think with your impetus and 
the help with this committee, we have really addressed that 
tremendously. As you probably recall, we essentially had the 
worst safety record in the Government at that point, something 
like 17.3 percent injury rate per year. We have cut that down 
tremendously with a very active life-safety program going on; 
and every year, we continue to make more progress on that.
    As of now, again, since the year 2000, we have cut down 56 
percent in terms of the injury rates. We are down to 7.9 
percent, which puts us approximately in the middle of Federal 
governmental agencies. Again, given the fact that we are 
largely a blue-collar, shop-oriented organization, that is 
saying an awful lot compared to some of the white-collar 
oriented groups. But I share your concerns. I continue to make 
this a very high priority and make sure that all of our people 
have the right protective gear, and that they have training.
    We are about to initiate a new program, in fact, where we 
have all of our supervisors and front-line people with new 
buttons that they have to put on and wear in the field every 
day to assure that they recognize that safety is one of our 
highest priorities, and that they talk to their people about it 
on a day-to-day basis. So it is very active, a lot of good 
movement, and we still have a ways to go.

                           RECYCLING PROGRAM

    Senator Durbin. On the recycling program, it is my 
understanding that there were 90 offices that were involved in 
the recycling program.
    What are we doing to encourage offices to enroll in the 
recycling program?
    Mr. Hantman. We have a dedicated team, Senator, that goes, 
essentially, to visit every committee as well as every Member's 
office. As you know, this is a voluntary program. We do 
encourage it. We encourage it also by making it as simple as 
possible to recycle.
    One of the recommendations from the outside consultants, 
that we had brought in on this, was the fact that we combine 
the mixed paper and the high-grade paper together so that we do 
not have two separate bins at the desk for people to use. It 
makes it easier for them. Hopefully, the education process we 
are using, that says please do not drop your lunch into the 
recycling bins, because that gives us essentially bales and 
bales of material that cannot be recycled and effectively used.
    We have essentially cut back almost to a zero percent 
rejection by our vendors, because the amount of garbage that 
has gone into these bales has been cut down to such a great 
extent. So, we are making an awful lot of progress on that. 
Again, your support has been critical to that.

                           PROJECT TIMELINES

    Senator Durbin. I did a little research--or my staff did, 
about how long it takes to do things. I asked them, how long 
did it take to build the Dirksen building. It turns out it was 
3 years and 9 months. How long did it take to build the Hart 
Senate Office Building? It turns out it was 6 years and 8 
months, 80 months compared to 45 months. The reason I asked 
that was because I have been watching the progress on the north 
end of the Dirksen building restroom remodeling. I can remember 
the exact day that the remodeling started. It was Halloween. So 
some 6 months ago, we started remodeling the bathroom.
    I remembered what happened on the south end. It seemed like 
1 year. Was it?
    Mr. Hantman. I would have to check on the timeframe, 
Senator.
    Senator Durbin. Who monitors that, to make certain that 
things are actually being done each day, and that they are on 
schedule.
    Mr. Hantman. Our superintendent of the Senate office 
buildings and his staff monitor those projects internally. I 
will check immediately on what the issues are on that specific 
area.
    Senator Durbin. Could I suggest that the Architect put up a 
sign where they announce that the restroom was closed, 
construction began October 31, 2003, as kind of an incentive to 
maybe complete it? Now, I have had kitchen remodeling and 
things, and I know that it goes on, and on, and on; but it just 
seems like an extraordinarily long time to remodel a bathroom. 
Six months. I know that they are doing it several floors at a 
time but, if you could look into that, I would appreciate that 
very much.
    Mr. Hantman. I absolutely will.
    [The information follows:]

                      Dirksen Bathroom Remodeling

    Question. Why is it taking so long to remodel the bathrooms 
at the North end of the Dirksen building? Is it possible to 
place a sign depicting when work commenced as an incentive for 
completion?
    Answer. The Dirksen Bathroom Renovation is proceeding on 
schedule and on budget. The duration of this project is a 
function of many constraints, specifically, hazardous materials 
abatement, constrained working environment and restricted work 
hours. Hazardous materials abatement requires the construction 
of containment areas to ensure environmental and OSHA 
compliance while limiting specific trades progress. The 
physical size of the space restricts the amount of manpower 
which can safely work at any one time thus extending the 
critical path of the project. Finally while working in an 
occupied building a significant number of activities are 
limited to night work to minimize disruption to the clients.
    As of April 19, 2004, the Senate Superintendents Office 
replaced the existing signs with signs that included the 
project start date and completion date.

                   SENATOR OFFICE BUILDING ENTRANCES

    Senator Durbin. Let me ask you about the entrance ways. You 
made reference to them. There are times when employees come to 
work or there are large groups of visitors, when people are 
standing outside, waiting to get in to go through security, 
sometimes in bad weather. Are there any design changes that you 
are considering to accommodate that possibility, where people 
might be out in the rain, or the snow, or cold weather, or 
heat, that are visiting our buildings?
    Mr. Hantman. We do have a plan at the Russell Senate Office 
Building on Delaware Avenue, just to the north of the major 
steps entering that building. We have a project in place to 
build a larger vestibule outside the face of that building, 
where people can be screened outside of the structural 
framework of the building itself, so if an incident does occur, 
it will be less damaging to the building itself.
    This will facilitate the ability of people in a very tight 
entrance to be able to come in and back up a bit. That would be 
the major entrance for ADA, as well as a security perspective.
    Senator Durbin. And that is for the other buildings, Hart, 
Dirksen?
    Mr. Hantman. The first--this was the first pilot project. 
We wanted to do this first. We were looking at the possibility 
of doing Dirksen on the D Street side, as well as taking a 
look--Hart already has the canopy out on the Second Street 
side. But Dirksen would be the next.

                          CVC COST TO COMPLETE

    Senator Durbin. With regard to the Capitol Visitor Center, 
do you believe the current estimated cost of completion, $351.3 
million, is accurate?
    Mr. Hantman. These are the dollars that we have had come 
up. As you know, the original project budget was $265 million. 
We had $38 million added, after the 9/11 timeframe, and some 
$48 million added to the project as the result of the General 
Accounting Office's analysis of the project to complete.
    We believe that--we are working very diligently towards 
making sure that we can work within these budget guidelines. We 
are at a very delicate point in the project, Senator, which 
says that our second major contractor, which is Manhattan 
Corporation, is just about to come on-site. The integration of 
the 3,000 elements that have to be integrated between our 
first-phase contractor and our second-phase contractor are 
still being worked out in terms of their overall scheduling.
    If we can get them together most effectively, and that is 
one of the reasons we brought on Bob Hixon as our executive on 
the project. People in the field need to coordinate this most 
effectively. It is a very tight budget and we are working very 
effectively towards trying to mitigate any claims and issues 
that the contractors may have, and we will have a better handle 
on that in the next several months.

                         CVC PROJECT MANAGEMENT

    Senator Durbin. When did you decide you needed a new person 
to manage the CVC project?
    Mr. Hantman. There were a series of issues, Senator. One of 
the issues certainly was the fact that because of the weather-
related delays, and the other site surprises that our sequence 
one contractor had, it became evident that we were going to 
have to have our sequence two contractor work side by side with 
them, as opposed to turning over the work at one point in time 
for the second firm to start.
    When it became very clear that the integration of all of 
this work in the field would become even more critical, we 
recognized that further field support would be necessary. In 
fact, we asked Gilbane to bring on people who were less 
administrative but more field-oriented, so that we could 
coordinate the work.

                         RESTAURANT OPERATIONS

    Senator Durbin. Are you under any timetable or plan to 
privatize any of the restaurants in the Capitol complex?
    Mr. Hantman. We have no plan to do that.
    [The information follows:]

                           Senate Restaurants

    In reference to my statement regarding privatization of the 
Senate restaurants I would like to clarify my response. My 
original response of ``no'' is correct, although ongoing 
deliberations with the Capitol Preservation Commission about 
dining facility operations in the Capitol Visitor Center has 
raised the issue of privatization. In fact, the consultants 
reviewing the proposed operations for the CVC have recommended 
privatization of the dining facilities to the Capitol 
Preservation Commission. In the context of a new contract for 
food service operations there have also been discussions of 
including options for potential inclusion of both the existing 
Senate and House Restaurants. If this decision is made in the 
future, I anticipate that it would include provisions for 
current restaurant employees.

                              RETAIL SALES

    Senator Durbin. Can you tell me if there has been any idea 
of starting a retail sales operation at the Botanic Garden?
    Mr. Hantman. We have been looking for some kind of 
authority to do that from the Joint Committee on the Library. 
As you know, the Botanic Garden, for purposes of security, was 
made part of the Capitol grounds, for the first time in the 
last year or so. We think that having a sales facility in the 
Botanic Garden makes an awful lot of sense. We do not have the 
authority to accept funds, to augment our income through such 
facilities but we would like to have that, pretty much as the 
Library of Congress has.
    Senator Durbin. I understand that there may be some gift 
shops in the Capitol Visitor Center. Is that correct?
    Mr. Hantman. There will be gift shops. In fact, the 
committee that Ms. Reynolds referred to before, the Capitol 
Preservation Commission, is looking at how that will be 
operated, who will operate the gift shop, what kind of 
organizational structure, that you referred to, would be put in 
place to manage it. That has not been settled yet.

                              CVC EXHIBITS

    Senator Durbin. One of the other things that I have talked 
to a number of Members about, and there seems to be interest 
in, is perhaps in the Capitol Visitor Center, creating a new 
opportunity for the States to honor some person. Statuary Hall, 
with the two statues from most States, generally date to heroes 
and heroines of a long time ago. There are some notable 
exceptions to what I just said. But in my State's case, it goes 
back to quite a few years. I was wondering if we could work 
with you to try to set up the situation where it might not 
involve a statue or plaque, where States could, again, at their 
own expense, honor a more contemporary person from each State 
in that new Capitol Visitor Center.
    Mr. Hantman. I would be more than happy to work on that 
with you, Senator, and your staff. One of the things we have 
been looking at, by the way, is, as you are aware, there is a 
great hall, a major space in the Capitol Visitor Center. We 
have been talking at the Capitol Preservation Commission 
meetings about the possibility of moving some existing statues 
from the Capitol Building into the Visitor Center, to give it a 
sense of scale, a sense of tradition, to tie it into the 
Capitol Building itself.
    As you are aware, for the first time in the history of the 
Capitol, one of the States recalled a statue of one of their 
people. This was Kansas. They recalled Governor Glick and put 
in a statue of General Eisenhower, which now stands in our 
Capitol Rotunda. We have been getting several other suggestions 
from states and indications that they want to recall statues, 
and bring in Amelia Earhart, or other people, from their States 
that might, in fact, give us a better sense of the diversity 
and history that our country has.
    So, we do have room in the Capitol Visitor Center for 
statues; and clearly, some of them are not very well displayed 
in the Capitol Building at this point in time. They are kind of 
tucked into corners and not paid the kind of respect that 
they----
    Senator Durbin. Well, there is some talk in Illinois about 
Michael Jordan, but I do not know if that would be the honoree.
    I will just wait and see. I will let somebody else make 
that decision.

                             CAPITOL FENCE

    The last thing I would like to weigh in on is the great 
fence around the Capitol, like the Great Wall of China. Can you 
tell me where you stand on the great fence proposal?
    Mr. Hantman. Well, clearly, I sat here, Senator, last week, 
along with the Capitol Police Board and Chief Gainer on that. I 
think that both of you gentlemen spoke eloquently to the need 
to balance security and openness. It is not an easy question.
    The Capitol Police Board has certainly given the freedom, 
and the police should be taking the freedom, to bring 
recommendations and concerns to the police board and take a 
look at all the options that are on the table. That is, in 
effect, what the Chief was doing.
    There has been no formal movement on that. It has been an 
issue that has been on the table, as you know, for a generation 
at this point in time. So, we continue to look at all the 
alternatives that the Chief presents to us and try to determine 
what needs to be recommended to the Congress. But no official 
movement has been made on that.
    Senator Durbin. My concern is then, and I share the 
feelings of the chairman, that I just do not think that this 
ought to be something that we push forward unless we are shown 
that it is absolutely the only alternative. But it seems like 
the belt-and-suspenders approach, having put in all these 
bollards to deal with traffic, and then to establish a 
perimeter fence, and keep traffic away from the bollards. I am 
not quite sure what the thinking is there. But I will keep an 
open mind, because we want everyone to be safe in the Capitol 
complex; but from an aesthetic viewpoint, I think it would be a 
disaster.
    Thank you for your testimony.

                            SENATE RECYCLING

    Mr. Hantman. My staff just slipped me a note, sir, and it 
indicates that the Senate Appropriations Committee does 
recycle. I will be happy to provide you with additional 
information on that.
    [The information follows:]

                               Recycling

    Question. Does the Senate Appropriations Committee 
participate in the recycling program?
    Answer. The Appropriations Committee was provided with 
recycling bins, instruction and training to implement the new 
combined paper recycling program on March 12, 2004 and they are 
currently participating in the program.

                           CLOSING STATEMENT

    Senator Campbell. Mr. Hantman, I have several other 
questions I am going to submit in writing, if you would get the 
answers back to the committee. I have one that is not really an 
important question but just to settle it in my own mind, if you 
would. You talked about the fire alarms in your testimony, new 
fire alarms being put in the building some years ago. I have 
been in the same office for the last 12 years, over in the 
beautiful older building, the Russell. I love it over there. I 
never wanted to move from there, in fact. I have one of those 
old offices that has a fireplace, and there have been logs in 
that fireplace for 12 years, and I have been dying to light 
them up. Do those things work?
    Mr. Hantman. There is always a balance, Mr. Chairman, 
between the need for fire security and in fact, as you are 
probably aware, there have been an awful lot of requests in the 
Capitol Building itself for activating fireplaces, which 
sometimes have had ducts run through them, or wiring run 
through them over the past number of years. We kind of look at 
that as a one-on-one type of situation. Clearly fireplaces, 
especially when you have alarm systems in the building, are not 
wonderful.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. No, not a good thing. Okay. I guess I 
will have to leave the Senate then never having been able to 
use that fireplace. But I will have to live with that.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

                         CAPITOL VISITOR CENTER

    Question. What is the status of the Capitol Visitor Center?
    Answer. Overall, Sequence 1 is approximately 60 percent complete 
and Sequence 2 is underway--with 10 percent of the value of their 
fabrication work underway--largely of stone.
    Significant progress has been made throughout the CVC site. 
Specifically, the roof deck now covers the entire western half of the 
project area and most of it has been waterproofed. Crews have begun 
placing the topping slab on the north side of the site and we will 
begin setting granite pavers on the deck in May.
    Our project team continues to integrate the schedules of Sequence 1 
and Sequence 2 contractors and we are reconciling a number of issues. 
Gilbane has added resources in the areas of management, change 
resolution, scope-gap identification and engineering support. As a 
result of these partnering efforts, we have seen tangible progress and 
results.
    Most importantly, we are on track to meet the requirements to 
support the inauguration in January 2005 and to complete and open the 
Visitor Center in spring 2006. The overall base project budget stands 
at $351.3 million. This amount includes the $265 million appropriated 
for the core CVC space and the shell for House and Senate expansion 
space; $38.5 million for additional security enhancements funded after 
September 11, 2001; and $47.8 million to accommodate higher than 
expected bids, additional changes in scope and design due to unforeseen 
site conditions and weather impacts, and the management and 
construction costs associated with the scope and design changes, as 
well as contingency funds. Additionally, $70 million has been 
appropriated for the build-out of the House and Senate expansion 
spaces. An issue we are currently working through is the significant 
increase in steel prices which might impact portions of the work that 
have not yet been procured.
    Question. What are the most significant problems you have 
experienced in this project to date?
    Answer. Any project that requires a massive excavation has the 
potential to encounter unforeseen conditions, and our project, has been 
no exception. During our preconstruction effort, before actual site 
excavation began, we encountered many difficulties during our utility 
relocation effort. Every utility line running through our project 
footprint had to be relocated and, more often than not, the drawings 
that were available to us, some dating back to the early 1900s, were 
inaccurate and unreliable. The utility relocation effort took months 
longer than expected.
    Another significant problem arose after the events of September 11, 
which prompted a full project design review. While the general layout 
of the facility did not change, we were required to provide for more 
robust mechanical systems, which in turn, required some structural 
changes. Increased on-site security also made delivery of materials 
more challenging.
    Most problematic was that at the height of our excavation process 
in January 2003, we endured the second wettest year on record for this 
region. It is very difficult to move heavy equipment in the mud, it is 
difficult to excavate, and the material becomes undesirable as backfill 
at other project sites. Further, crews cannot erect steel in the rain 
and they cannot weld, so structural work was also hampered. On top of 
the persistent wet weather, we lost several days due to heavy snowfall 
and several more days preparing, and then restoring the site, after 
Hurricane Isabel.
    Finally, we also experienced unforeseen conditions during the main 
excavation of the site. One example is the discovery of an old well 
approximately 40 feet below the original House wing, directly in the 
path of our perimeter wall. To clear the path for our perimeter wall, 
the large stones around the well had to be crushed and removed and a 
stable base for our perimeter wall had to be established. In short, 
what should have taken one week to place three perimeter wall panels in 
that location took close to eight weeks.
    Question. What are the biggest challenges ahead of you?
    Answer. Our most significant challenge is coordination between the 
Sequence 1 and Sequence 2 contractors. There remain more than 3,000 
project line items to be accomplished between the two contractors and 
these activities need to be closely coordinated and sequenced so that 
work can be accomplished efficiently and expeditiously.
    Also, there is still a potential for unforeseen site conditions 
related to excavation of the Library of Congress tunnel and our main 
utility tunnel down East Capitol Street, which could result in schedule 
delays. Other unknowns related to changes in scope, changes in the 
security environment (such as those that occurred after September 11), 
severe weather conditions, or other external factors could present 
further challenges.
    Question. Are you confident you will be able to complete the 
project within the funds appropriated to date?
    Answer. The CVC budget is very tight, but barring any significant 
unexpected site conditions, scope changes, or other unknown issues, we 
will continue to work diligently to stay within the available funding. 
Once the Sequence 2 contractor begins working on the site, this will be 
much easier to gauge. Until now, most Sequence 2 work has been 
preparatory in nature as the contractor waits for space to be turned 
over by the Sequence 1 contractor.
    Question. The western half of the plaza is to be sufficiently 
complete to support 2005 inaugural activities. Are you confident you 
will meet this critical milestone?
    Answer. Yes. The western half of the plaza from the large skylights 
to the face of the Capitol, from the House Steps to the Senate Steps, 
will have a completed roof deck covered by granite pavers. This portion 
of the plaza will be able to accommodate pedestrian and vehicular 
traffic, including the presidential motorcade, and if necessary, 
support the landing of Marine One. Presently, we are placing the top 
slab on the plaza on the north side of the roof deck and we expect to 
see stone masons placing the first of 200,000 granite paving stones in 
May.
    Since last year, the CVC project team has had discussions with 
Capitol Preservation Commission staff and senior staff of the Senate 
Rule Committee regarding the requirements and expectations for the 
January 2005 Inauguration ceremony.
    Question. You have recently changed the management team of the CVC. 
Can you explain how the new team will change the way the project is 
managed?
    Answer. I would characterize the recent personnel changes, in 
particular, the additions of Messrs. Bob Hixon and Gary Lee from GSA to 
the AOC, as well as the addition of a new construction manager by 
Gilbane, not so much as a change in management approach, but more as a 
strengthening of the management team with greater ``in-the-field'' 
experience, made necessary by the intensive coordination efforts that 
are required to closely integrate the Sequence 1 and Sequence 2 
activity schedules.
    Bob Hixon has provided knowledgeable advice and assistance to me 
informally for several years while GSA has been actively working with 
the AOC on the procurement side of the CVC project. As Director of the 
Center for Construction and Project Management at GSA, Mr. Hixon has 
been responsible for GSA's Construction Excellence Program, bringing 
the highest possible standards of construction management to a 
portfolio of more than 160 projects worth more than $5 billion. Mr. 
Hixon joined the AOC effective March 7, 2004, and has assumed 
responsibility for the project. He has begun conducting an in-progress 
review of the construction management of the CVC, including 
recommending changes and best practices to be followed in the 
construction management area involving both the Sequence 1 and 2 
contracts.
    Question. You have requested 51 CVC-related staff in your budget 
request. Are all of these staff really needed in fiscal year 2005 if 
the facility will not open until 2006? Will any of the 16 FTE 
authorized for the current year be utilized?
    Answer. Many options related to the startup of the operations of 
the CVC are still being considered. These numbers are based on the best 
information available provided by the J.M. Zell Company, the operations 
startup contractor, working with the Capitol Preservation Commission. 
Once the decision regarding how and by whom the CVC will be operated, 
some refinements may be appropriate. The Capitol Preservation 
Commission requested that, in the interim, we submit this request in 
our budget.
    Ten of eleven currently authorized FTEs are working on project 
management and other directly related tasks for the CVC and one 
position is currently vacant. The remaining 5 FTEs are not being 
utilized in the current year. We have requested that the funding to 
support these FTEs be reprogrammed to fund other activities within the 
project.

                        CAPITAL IMPROVEMENT PLAN

    Question. Several years ago this Committee directed AOC to develop 
a master plan for the Capitol complex as the existing master plan is 
nearly 25 years old. What is the status of the master plan? What is 
your Capital Improvement Plan and how does it relate to the Master 
Plan? What are the most significant construction requirements we can 
expect will emerge from this planning process? Do you have any estimate 
of how much funding might be required for maintenance and repair 
projects over the next 5 years?
    Answer. In the fiscal year 2004 budget, $4.2 million was 
appropriated for the development of the Capitol Complex Master Plan. We 
have narrowed the list of prospective architectural engineering firms 
to four, and have conducted extensive interviews with these firms. A 
final selection is expected to be made in May, after which we will 
undertake a negotiation with that firm. Contract award and project 
kick-off are scheduled for July. The draft Master Plan will be ready 
for review by the Committees in 2006.
    The Capitol Complex Master Plan provides the umbrella provisions 
and guidance under which all project planning and land use will occur 
over the next 20 years, and therefore is a critical prerequisite to a 
fully functional Capital Improvements Plan (CIP). The Master Plan will 
identify major capital projects that are needed whereas our ongoing 
Condition Assessments focus exclusively on projects needed to maintain 
our existing facilities and include smaller projects falling below the 
Line Item Construction Program (LICP) threshold (currently $250,000). 
Together, they will be the basis for our future CIPs.
    The CIP describes how the Master Plan can be implemented through a 
series of achievable planning and programming steps. It presents an 
achievable Capital Plan by identifying the projects necessary to 
satisfy the goals and objectives of the Master Plan. The CIP implements 
the Master Plan in that all known and valid projects are evaluated 
against established criteria in the following five categories: Safety, 
[Physical] Security, Preservation, Impact on Mission, and Economics 
(Cost payback, savings). The inclusion of projects in future CIPs will 
be based on a more detailed development and analysis of projects' 
requirements, identification of prerequisites, development of 
appropriate sequencing, and establishment of priorities. This will be a 
principal basis for assignment of projects to a specific fiscal year 
LICP. As the Master Plan and the condition assessment are completed, 
subsequent CIPs are likely to reflect some changes in project 
identification.
    We are still in the process of developing our CIP. Until such time 
as our condition assessment and Capitol Complex Master Plan are 
completed, we will not be able to give the Committee a total list of 
projects nor a cost associated with these projects. However, based on 
the current draft CIP, the Dome restoration project, additional 
elevator modernization, the Fairchild and GPO build-out, high voltage 
switchgear, logistics warehouse facility, campus-wide roof repairs, and 
the Library's storage modules at Fort Meade and the Copyright Deposit 
Facility are among the list of significant construction projects for 
the next five years.

                         CONDITION ASSESSMENTS

    Question. AOC planned to award building condition assessment (BCAs) 
contracts to assess the House and Senate Office buildings and the 
Capitol in 2003. Since these BCAs are an integral part of the Capitol 
Hill master plan (expected to be issued in April 2006), what is the 
current status of these BCA efforts?
    Answer. The Building Condition Assessment (BCA) contract for the 
Capitol, House and Senate Office Buildings was awarded on February 26, 
2004. BCAs are planned for other jurisdictions as well. The AOC will 
begin receiving information from the current BCAs in July 2004--in time 
to potentially include projects in the fiscal year 2006 LICP, if an 
urgent undertaking is needed. If not urgent, identified projects will 
be included in subsequent fiscal year LICPs, as appropriate. Completion 
of the BCAs for the House and Senate is scheduled for September 2004. 
Upon review, BCA information will be available to the Congress soon 
thereafter. The timing of the BCAs is such that they will appropriately 
feed into the Capitol Complex Master Plan.

                           PROJECT MANAGEMENT

    Question. One of the major areas cited by the General Accounting 
Office as needing improvement within the AOC in its 2003 management 
review was project management. How is project management being handled 
differently today in an effort to deliver projects on time and within 
budget?
    Answer. Project management has instituted significant positive 
changes in the last year. These changes include: strengthening and 
modifying the perimeter security project team to increase its 
effectiveness; establishing project priorities; developing a simplified 
project summary reporting method that continues to be refined to assure 
it provides required information in a concise manner; conducting a 
workload analysis; holding staff meetings and monthly Planning, 
Coordination and Scheduling (PS&C) meetings to discuss relevant project 
issues and encourage teamwork. In addition, there has been an increased 
emphasis on use of established procedures, such as best practices. The 
roles of the Contractor Officer Technical Representative (COTR) and 
their interaction with project managers have been clarified, and there 
is greater cooperation between the Procurement, Architecture, 
Engineering and Construction Divisions due to increased management 
oversight. We have determined core competencies for project managers 
and we have developed contract modification management procedures.

                            CUSTOMER SERVICE

    Question. AOC has identified improving customer service as an 
important goal. What strategies are being developed to become more 
responsive to customer complaints and improve building conditions and 
cleanliness?
    Answer. The Senate Superintendent's Office is implementing a number 
of initiatives to proactively address customer complaints and improve 
customer service. In the past year, we have initiated meetings with all 
Senate office managers and Committee chief clerks to provide 
information on the services provided by the Superintendents Office, 
project status, and points of contact for programs such as ergonomics 
and ADA issues, as well as personally address and resolve specific 
issues with clients. This effort has proved successful as the Senate 
Superintendents Office realized an 11 percent increase in pro-activity 
as seen in the annual Buildings Services Customer Satisfaction Survey.
    In addition, we have initiated our Annual Business Planning effort 
with a focus on client service, performance management, and bench 
marking. Through execution of the business plan our responsiveness 
rating increased 8 percent. While these initiatives have been 
productive, we continue to strive to improve our responsiveness to 
clients' needs. Current initiatives include the implementation of the 
Senate Superintendent's web site which provides a direct link to the 
Superintendent's Office, instant feedback on work order status, an on-
line furniture catalog, building information alerts, and project status 
updates. Client surveys will be generated automatically and sent to 
clients upon completion of a work order to obtain instant feedback 
regarding quality and timeliness of service. This survey data will be 
analyzed and action plans developed to address common themes and bridge 
gaps in service.
    With regard to building cleanliness, the annual Buildings Services 
Customer Satisfaction Survey indicated a 13 percent increase in 
satisfaction with the cleanliness of Member suites. This is a direct 
result of the implementation of the quality assurance program which 
requires custodial staff to follow comprehensive cleaning checklists, 
integrates management quality inspections, and establishes clear lines 
of accountability. This year the program has been expanded to include 
the public restrooms and integrated into a performance based contract 
for cleaning and policing of public areas and restrooms. We also have 
intensified our focus on daily inspections of public areas and 
restrooms. Through this inspection process we quickly assign the 
resources necessary to address building ``hot spots.'' The Senate 
Superintendent's Office is currently analyzing the floor care program 
and researching best practices and modern equipment to provide world 
class maintenance for the various floor surfaces in the Senate Office 
Buildings.
    With regard to building conditions, the recent award of the 
Facility Conditions Assessment contract will provide a comprehensive 
assessment of the condition of buildings structures and systems, a 10-
year prioritized plan to address deficiencies, and a complete inventory 
and bar coding of systems to complete our current Preventative 
Maintenance initiative. Use of this information will ensure the 
strategic care of the facilities and world class preventative 
maintenance resulting in improved building conditions and performance.
    Concurrent with our improvement initiatives, we are promoting a 
culture of customer service within our workforce through the use of 
implementation tools, best practices, accountability, and employee 
recognition.

                        MANAGEMENT IMPROVEMENTS

    Question. In order to improve management of the agency, the fiscal 
year 2003 legislative branch bill language was included establishing a 
Chief Operating Officer position, and requiring the development of a 
strategic plan. Now that AOC's strategic plan has been finalized by the 
agency's Chief Operating Officer and he has submitted an action plan as 
mandated, what changes can we expect to see in AOC's management 
approach and priorities? What milestones have been established to help 
the COO and AOC track progress in the development of its strategic 
management and accountability framework?
    Answer. The AOC is following the actions identified and published 
in its Annual Performance Plan and the COO Action Plan as the 
foundation for its organizational business priorities. Specific 
milestones are published as a part of the Annual Performance Plan and 
the COO Action Plan.
    The Strategic Plan is linked to more detailed, functional planning 
through the AOC Performance Plan. The Performance Plan outlines the 
specific actions and milestones planned to achieve our goals. In order 
to track progress implementing AOC's strategic initiatives, the COO has 
instituted a monthly management reporting requirement. To ensure that 
the Strategic Plan is a living document, the Senior Leadership Team 
uses the monthly reports to continually assess the Agency's strategic 
priorities and make adjustments as needed. The Architect, COO, and the 
Senior Leadership Team hosted its first quarterly management review of 
AOC's newly-published Strategic and Performance plans with the Agency's 
Management Council.
    Question. Performance measures are also important to help an agency 
manage its progress in achieving its goals, what is the status of the 
development of AOC's specific performance measures and how are they 
being used to manage the agency? Some areas that AOC designated in its 
strategic plan as performance measures to be developed are: client 
satisfaction, employee satisfaction, on-time projects, on-budget 
projects, project quality, facility maintenance, asset preservation, 
employee safety, clean audit, recycling, budget execution.
    Answer. While many of the jurisdictions track measures that are 
specific to their daily work, AOC does not currently have an Agency-
wide approach to collecting and analyzing this data as it relates to 
the Strategic Plan. Over the course of the year, AOC will be developing 
a process for cascading the high-level measures identified in the 
Strategic Plan down and across the organization. Once that work is 
completed, AOC will develop a systematic approach to tracking results 
using the measures.
    Since 2002, the AOC has conducted an annual Building Services 
Customer Satisfaction Survey among occupants of the Capitol, the House 
and Senate Office buildings, and the Library of Congress buildings. 
Last year occupants of the U.S. Capitol Police Headquarters were also 
invited to participate. This year the scope will be expanded to include 
Supreme Court building occupants. Respondents are asked to indicate 
their satisfaction level regarding 61 areas that cover services 
provided by the AOC that range from the effectiveness of the Office of 
the Superintendent to the maintenance of sidewalks. Questionnaires are 
tailored to each jurisdiction so customers are asked only about 
services relevant to them. AOC jurisdictions integrate customer input 
in the annual business plans and use survey results to draw specific 
action plans. For 2004, the survey period is June 1-20.
    Jurisdictions have been implementing a web-based on-going customer 
satisfaction survey to assess customers' satisfaction with the on-
demand work order process, from task request to work completion. This 
effort is now being implemented in the House and Senate jurisdictions. 
Other jurisdictions will follow as they establish websites.
    The AOC is assessing the satisfaction of its internal customers 
with provided services through focused surveys. The Architecture, 
Engineering, and Project Management Divisions and the Safety, Fire, and 
Environmental Programs Office have surveyed their internal customers, 
and are taking actions based on the results. The Human Resources 
Management Division will issue its survey next summer. Other AOC 
organizations will join this effort in a coordinated manner to ensure 
that action plans are drawn to respond to internal customers' input. We 
also will be conducting an AOC-wide employee focus group survey later 
this year.
    Question. In his action plan, the Chief Operating Officer (COO) 
states that he has established a Senior Leadership Team to help lead 
AOC's transformation and he also envisions a flatter organizational 
structure to facilitate decision making in a more timely manner. What 
have been the results of this new structure?
    Answer. A new organizational structure was proposed for Committee 
review as part of our fiscal year 2005 budget submission. We have been 
piloting the new structure and find it has streamlined decision making 
and more clearly delineates Senior Leadership lines of authority and 
responsibility. Unless directed otherwise, with the approval of the 
fiscal year 2005 budget, we will implement an organizational structure 
that will assist us in clarifying lines of supervision and 
communication throughout the AOC.
    Question. One of the Architect's and COO's priorities is improving 
communication with employees and stakeholders. What efforts are being 
made to communicate agency progress and project status with 
stakeholders? What is being done to obtain input from employees? How 
will this information be used to help better manage the agency?
    Answer. The Architect and the COO have been holding periodic 
meetings with stakeholders and have been meeting with employees as part 
of their daily business meetings or at special functions within the 
jurisdictions. We also have a number of employee workgroups and 
committees that provide program and operational information and input 
to Agency management. In addition, we are planning to complete an AOC 
employee survey later this year. The input from these sources assists 
management in the evaluation of Agency policies, programs, priorities 
and overall business operations. Employees also make valuable 
suggestions for changes/improvements in business processes and delivery 
of services.
    The AOC recognizes that communication is a powerful tool to affect 
change, educate, and empower employees by helping to deploy AOC's 
strategic goals throughout the organization.
    To effectively reach our audiences and develop the Agency's 
message, we have crafted a Communications Plan to establish regular 
processes, forums, and mechanisms for employee communication, which are 
aligned with efforts to obtain and respond to employee feedback and 
other outreach efforts to external audiences.
    Through the publication of the employee newsletter, ``Shop Talk'', 
and distribution of the electronic newsletter, ``AOC This Week'', and 
postings on the AOC Intranet site, messages are frequently communicated 
with employees regarding project status, program and policies changes, 
and safety messages.
    AOC uses a variety of creative vehicles to communicate internally 
since our employees work different shifts in many buildings across the 
Capitol complex, and not everyone has ready access to electronic tools 
such as e-mail and voicemail.
    Part of the communication loop is to receive feedback from 
employees. We are doing so by the use of surveys, town meetings, and 
focus groups regarding specific areas. For example, in January we 
conducted an Agency-wide survey asking employees about their 
perceptions, opinions, and attitudes about safety. The response rate to 
the survey was 62 percent when typically these surveys receive a 30 
percent response rate.
    This input is used to develop and enhance our safety communications 
efforts, identify deficiencies in training, and establish programs to 
reward employees for jobs well done.
    Externally, the AOC is stepping up efforts to communicate with 
Members of Congress, their staffs, community leaders, and visitors 
through a variety of vehicles. The strategy for communicating with 
these audiences involves the use of personal mailings; reports; 
briefings; testimony; press releases; stakeholder surveys, and 
meetings. In addition, a quarterly newsletter from the Architect to 
Members of Congress reporting on major projects has been developed.
    Methods for communicating with other external audiences such as the 
visiting public; dignitaries; Capitol Hill community; Federal 
government agencies; architects and engineers; historians; vendors; and 
the media include: postings/stories on the AOC Internet site--
www.AOC.gov; public meetings; press releases; media interviews; news 
stories; speeches; Capitol seminars; targeted mailings; scholarly 
articles; trade shows; and small meetings.
    Question. Please describe the significant accomplishments to date 
completed as a result of AOC's three financial management action plans. 
What is the status of AOC's first financial statement audit? How is AOC 
leveraging the financial statement preparation and audit processes to 
improve financial control and accountability?
    Answer. We made significant strides in meeting each of our 
strategic financial management objectives. For example, we established 
an Audit Committee; we produced our first financial statements and 
initiated a Congressionally-mandated financial statement audit; and we 
compiled values for all Capitol Hill real property. We also completed 
our first external reporting via FACTS I and FACTS II; developed 
written accounting policies and procedures; improved our major 
consumable inventory process and measurement techniques; and 
streamlined critical accounting functions.
    According to John Webster, CFO of the Library of Congress (LOC) and 
an AOC Audit Committee member, the AOC accomplished in two years 
achievements that took the LOC seven years to accomplish.
    In 2003, we accomplished the following:
  --Drafted and implemented the Audit Committee charter and recruited 
        highly-qualified and respected independent Audit Committee 
        members.
  --Within two years of establishing an integrated trial balance, we 
        produced full sets of comparative, OMB-compliant, financial 
        statements and instituted year-end procedures to record all 
        adjustments and accruals and closed within 10 days of the end 
        of fiscal year 2003.
  --Wrote the Statement of Work and performed all necessary 
        administrative functions to award a five-year audit contract of 
        our first financial statement audit of AOC balance sheets.
  --Researched and resolved issue regarding ownership of Capitol Hill 
        real property and directed massive effort to properly identify, 
        classify, and value all AOC land, buildings, software, 
        construction work-in-progress, and personal property.
  --Implemented fixed asset module by converting all manual property 
        records into electronic asset tracking records and reconciling 
        to manual data and developed written policies and procedures 
        for capitalization of assets and construction work-in-progress.
  --Produced comprehensive written accounting policies and procedures 
        for the first time and devised new accounting procedures to 
        accommodate MIPR imputed funding and various reimbursable 
        projects in accordance with appropriations law.
  --Managed a major effort to resolve long-outstanding Fund Balance 
        with Treasury issues. The un-reconciled balance is now zero. We 
        also installed new processes for accurately measuring and 
        reporting liabilities on the AOC balance sheet never previously 
        considered.
  --Completed 18 months of negotiations with OMB and Treasury regarding 
        proper accounting treatment for the Thurgood Marshall Federal 
        Judiciary Building and also obtained Auditor concurrence of the 
        transactions and valuation.
  --Communicated regularly with GAO, GSA, OMB, and Treasury staff to 
        improve AOC processes at every level.
  --Improved the accuracy rate of the AOC inventory from the 2002 rate 
        of 54 percent to 83 percent for 2003. This represents a one 
        year improvement of more than 50 percent.
  --During fiscal year 2003, no complaints were received, either 
        internally or externally, and on average we processed and paid 
        more than 1,000 invoices totaling more than $25 million per 
        month, accurately and on time, in support of the AOC's mission.
  --Took decisive action to correct deficiencies in credit card 
        processing and controls.
  --Issued AOC Funds Control Administration Order which establishes 
        procedures to improve internal controls and integrated program 
        planning, budgeting, and financial control processes. It places 
        control of financial resources at appropriate management level 
        and provides for documented Delegation of Authority down 
        through the management chain to operating officials.
  --Produced internal fiscal guidance for budget execution establishing 
        obligation goals.
  --Developed Agency tracking procedures for bill and report directives 
        which establishes responsibility and monitoring, sets timelines 
        for completion, and provides for quarterly status updates.
  --Hired Business Financial Analysts (BFAs) in several jurisdictions 
        to provide hands-on financial direction and guidance in the 
        field, as well as acting as a liaison between the AOC Budget 
        Office and the jurisdiction.
    The AOC is undergoing its first financial audit. We expect to 
conclude the audit by June 30 and receive the auditor's opinion in 
July. This performance tracks with the experience of other agencies 
undergoing their first audit. The accomplishments listed are examples 
of how we leveraged the financial statement preparation and audit 
process to improve financial control and accountability.
    Question. GAO's January 2004 status report on AOC's implementation 
of management review recommendations states that the hiring of the 
first group of financial managers in AOC's various operating 
jurisdictions is underway. What benefits have resulted from these 
increases in staffing?
    Answer. Business Financial Analysts (BFAs) have been hired to 
provide day-to-day financial procedures, support, and advice for 
programs, projects, and activities at the jurisdictional level while 
supporting the Jurisdiction Account Holder's financial objectives. Some 
of the readily identifiable benefits that have resulted and that are in 
process include:
  --Produced a Zero Based Budget Review of Facilities Maintenance and 
        personnel for the Senate and House Office Buildings that was 
        included as a supplement to the fiscal year 2005 Budget 
        Submission to Congress.
  --Working directly with the jurisdiction to develop and streamline 
        procedures using best business practices to meet Agency 
        obligation goals.
  --Provides guidance and advice on fiscal policy, procedures, and 
        regulations to all levels of staff within the jurisdiction.
  --Establishing a method to accurately track and monitor FTEs 
        including Construction Management project labor at the 
        jurisdiction level.
  --Forecasting material and equipment expenditures against current 
        budget amounts.
  --Closing out completed projects funded in prior years and preparing 
        documents to move any remaining available funding.
  --Streamlining day-to-day procurement procedures at the jurisdiction 
        level.
  --Tracking and documenting final invoices in order to monitor 
        unliquidated obligations and deobligate funds that are no 
        longer valid to enable execution of the funding for other 
        purposes within the program as appropriate and within 
        reprogramming guidelines.
  --Provides financial guidance to field personnel entering financial 
        documents in the Financial Management System (FMS).
  --Developed a process in the jurisdiction to track funding 
        reallotments within program groups or activities.
  --Designing a program to track reimbursable collections and spending 
        at the Capitol Power Plant.
  --Comparing historical spending data to current spending to identify 
        trends.
    Question. In its January 2004 status report, GAO indicates that the 
use of interim dates by AOC for monitoring progress on individual 
financial management action items would be beneficial because many 
completion dates are not scheduled until fiscal years 2006 and 2007. 
Has AOC begun to use interim dates for monitoring progress? If so, 
please provide examples.
    Answer. The financial management actions items have been updated to 
incorporate additional interim action items. The current CFO action 
items with status are provided for the record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               INFORMATION TECHNOLOGY PROJECT MANAGEMENT

    Question. AOC had identified a software package that would produce 
a unified schedule and show staff resources that would allow it to 
better manage its projects. Has AOC obtained such a capability? If so 
how is it working?
    Answer. This software package has been received from the supplier 
and the workstation components have been loaded on 2 personal 
computers. The preparation of the work ``templates'' is currently being 
developed to tie the software to AOC processes for projects. The vendor 
representatives are scheduled to configure the server portion of the 
software along with assisting us in refining use practices/definitions.

                             WORKER SAFETY

    Question. Efforts to improve worker safety and create a world class 
occupational health and safety program will require full involvement 
and cooperation from jurisdictions--what steps has AOC taken to solicit 
buy-in from the jurisdictions and to hold jurisdictions accountable for 
their responsibilities in helping to transform AOC's occupational 
health and safety program? Besides injuries and illness rates, what 
other key measures are you using to assess your overall performance in 
moving towards a culture of safety at the AOC?
    Answer. The AOC has involved key jurisdiction personnel in 
developing safety policy requirements, identifying resource 
requirements, and establishing goals and planning documents. In 
addition, ad-hoc working groups comprised of central office safety 
staff and jurisdiction staff have been utilized to examine specific 
issues and develop recommended solutions.
    For each safety policy, a jurisdiction is assigned to serve as 
lead. As a policy is developed, central safety staff and the safety 
specialist from the lead jurisdiction provide input into the policy's 
requirements. The draft policy is then distributed to various central 
and jurisdictional personnel for review; this includes safety 
professionals, management, Jurisdiction Occupational Safety & Health 
Committee (JOSH) representatives, and union representatives. Each 
comment submitted is addressed and documented, with the final draft 
submitted to Senior Policy Committee for review and approval.
    The AOC has also drafted an Occupational Safety & Health Program 
Plan (OSHPP) to guide the Agency through the policy implementation 
process and undertake other safety-related initiatives. The initial 
goals and objectives were developed during a Senior Leadership Safety 
Workshop facilitated by DuPont Safety Resources. This was used as the 
framework for drafting the OSHPP. Further development of the OSHPP 
included a review and input process similar to the one followed for 
policy development.
    Ad-hoc working groups and steering teams have been used to focus on 
specific issues and provide recommendations to management. Some of the 
issues these groups have addressed include: assessing workload impacts 
of implementing and maintaining safety policies, reviewing safety 
training requirements, and developing a safety communications plan.
    Accountability for the jurisdictions begins with a clear 
delineation of responsibilities in each of the safety policies and the 
OSHPP. Software--such as the Facility Management Assistant (FMA) used 
to track safety inspection findings, and the Incident Analysis Module 
(IAM) used to investigate injuries--provides the AOC with tools to 
monitor progress on improving safety and providing feedback on 
performance. For individual employees, the AOC's Performance 
Communication and Evaluation System includes safety as one of the four 
performance evaluation criteria for non-supervisory employees, and as 
one of five criteria for supervisors and managers. In a similar manner, 
performance requirements for exempt personnel are addressed by the 
AOC's Performance Review Plan, which includes safety as one of five 
performance evaluation criteria.
    While injury and illness statistics have served as a key indicator 
of safety performance for the AOC--with our rate dropping from 17.90 in 
fiscal year 2000 to 7.91 in fiscal year 2003--it is not the only 
measurement used. The OSHPP establishes a number of performance 
milestones against which success is measured.

                         INFORMATION TECHNOLOGY

    Question. AOC has developed version 1 of its existing and target 
enterprise architectures and a transition plan to move the agency to 
the target. What steps is AOC taking to ensure that proposed systems 
and systems under development will be aligned with the agency's 
architecture?
    Answer. The AOC/OIRM Business Systems Modernization Office (BSMO) 
has established procedures to ensure that new IT proposals are aligned 
with the AOC's Enterprise Architecture (EA). All proposals for new 
technologies are presented in a business case format to BSMO for review 
and approval. No project can be initiated or funded without approval.
    For projects under development, BSMO periodically reviews them in 
the capacity of the Project Management Board to ensure they remain in 
alignment with the architecture as well as meet project milestones.
    BSMO operates under the guidelines of our Information Technology 
investment management process of which alignment with the EA is a 
critical piece.
    Annual reviews of the architecture are scheduled and releases of 
the baseline EA, target EA and sequencing plan follow such reviews. 
This is another way in which BSMO reviews systems in development and in 
operation and assesses their continued alignment with the AOC's target 
EA.
    Question. AOC contracted for a new information technology system 
life-cycle methodology, due for delivery on January 31, 2004, and 
planned a two-month pilot to refine the methodology for implementation 
as an agency-wide standard by March 31, 2004. Was the methodology 
delivered, and did AOC conduct the planned pilot? Has the methodology 
been implemented as an agency standard, and how many projects are now 
being managed using the new methodology?
    Answer. Systems Development Life Cycle (SDLC) guidelines and 
procedures were delivered on schedule on January 31, 2004. The 
methodology is aligned with the Capability Maturity Model Integrated 
(CMMI) as recommended by GAO in their latest audit findings. The SDLC 
guidelines address configuration management, risk management, 
requirements management, acquisition management, test management, and 
quality assurance throughout the life cycle of a project from inception 
to implementation.
    A pilot was conducted from February 1 to March 31, 2004, with 
projects for facilities management systems, web-based systems, hardware 
acquisitions, and information technology (IT) support systems. The 
guidelines were revised based on lessons learned during this pilot.
    The methodology was implemented on April 1, 2004, and the 
guidelines are now available Agency-wide on the AOC intranet. Quality 
Assurance oversight procedures are being implemented to ensure that 
projects are managed in accordance with these established guidelines. 
These procedures will include audits to determine if proper procedures 
are being used and supporting documentation is present, as well as 
document review, management systems review, systems monitoring, data 
analysis, and participation in the deployment of new and modified 
systems.
    Quality Assurance oversight procedures will determine the number of 
systems that are being managed using the new methodology. At this 
point, few projects other than the 10 that were piloted are currently 
using the methodology due to the brief time it has been available. This 
number is expected to increase over time to include all major projects 
within AOC as the methodology becomes institutionalized.
    Question. AOC's plans include revising its comprehensive 
information technology security plan by June 2004 and then implementing 
the plan's elements. Currently, AOC plans to contract for an 
independent security audit of AOC systems by September 30, 2004. In the 
interim, what steps has AOC taken or does it plan to take to ensure the 
security of the agency's systems is not being compromised?
    Answer. AOC's mission critical systems have already undergone two 
significant Information Technology Security audits. The first 
assessment was performed by a vendor contracted by AOC. They provided a 
``pre-audit'' review to identify conditions within the AOC's 
information systems that would have resulted in findings during future 
compliancy audits. Forty-four findings resulted in the vendor's 
assessment. The vendor's findings were codified and incorporated into a 
risk mitigation plan.
    The second assessment was a financial audit, performed by a vendor 
contracted by the AOC Inspector General. The financial auditors 
reviewed AOC's current security posture to include people, processes, 
and technology, as well as the previous 44 findings. The financial 
audit resulted in 20 additional findings.
    OIRM developed a risk mitigation plan to address the 64 findings 
and any future findings. The 64 findings were incorporated into the 
Chief Information Security Officer's Plans of Action and Milestone 
schedule. The status of the Plans of Action and Milestone schedule is 
monitored by the OIRM Director. On a monthly basis, the Chief 
Information Security Officer and the OIRM Director report on the status 
to the Deputy Chief of Staff and the AOC Inspector General. To date, 93 
percent of the 44 findings from the first assessment have been 
mitigated. Of the 20 findings that resulted from the financial audit, 
50 percent have been mitigated. The Inspector General is seeking 
contractor support to independently verify and validate the work 
already performed to mitigate the 64 findings.
    The AOC is in the process of selecting a vendor for the purpose of 
performing a risk assessment on the applications currently in 
production. Where the previous risk assessments concentrated on IT 
infrastructure, policies, and processes, this third assessment will 
focus on mission critical and mission essential applications and 
databases. Any findings that result from the next round of assessments 
will be incorporated into the Chief Information Security Officer's 
Plans of Action and Milestone program and the mitigation of the 
findings will be tracked accordingly.
    The net effect of the financial audit and the two risk assessments 
will place the AOC in a better position for the upcoming external audit 
in September 2004. It also ensures that the security of the Agency's 
systems are not compromised in the interim. We have a plan in place to 
identify risk and to effectively mitigate those risks in a determined 
and positive direction.

                         CONCLUSION OF HEARINGS

    Senator Campbell. Thank you for your testimony. I 
appreciate your being here.
    Mr. Hantman. Thank you.
    Senator Campbell. With that, the hearing is recessed.
    [Whereupon, at 11:55 a.m., Thursday, April 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
